<html>
<title> - THE STAFFORD ACT: A PLAN FOR THE NATION'S EMERGENCY PREPAREDNESS AND RESPONSE SYSTEM</title>
<body><pre>[Senate Hearing 109-1066]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1066

 THE STAFFORD ACT: A PLAN FOR THE NATION'S EMERGENCY PREPAREDNESS AND 
                            RESPONSE SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works




      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________







                  U.S. GOVERNMENT PRINTING OFFICE
47-636                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 27, 2006
                           OPENING STATEMENTS

Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    17
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Obama, Hon. Barack, U.S. Senator from the State of Illinois......     6
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     5

                               WITNESSES

Dietrich, Deborah, Director, Office of Emergency Management, 
  Environmental Protection Agency................................    11
    Prepared statement...........................................    61
    Responses to additional questions from:
        Senator Inhofe...........................................    62
        Senator Jeffords.........................................    63
        Senator Vitter...........................................    70
Gruber, Cory, Executive Director, National Preparedness Task 
  Force, Preparedness Directorate, Department of Homeland 
  Security.......................................................    13
    Prepared statement...........................................    71
Little, Tamara, S., chair, Legal Counsel Committee, National 
  Emergency Management Association...............................    31
    Prepared statement...........................................    95
    Responses to additional questions from:
        Senator Clinton..........................................   102
        Senator Jeffords.........................................   100
Mascelli, Armond, vice president of Domestic Response, American 
  Red Cross......................................................    27
    Prepared statement...........................................    77
    Responses to additional questions from:
        Senator Jeffords.........................................    80
        Senator Obama............................................    84
        Senator Vitter...........................................    85
Pogue, Pamela, CFM, chair, Association of State Flood Managers, 
  State Floodplain Manager, State of Rhode Island................    28
    Prepared statement...........................................    86
    Responses to additional questions from Senator Jeffords......    91
Riley, Major General Don T., Director of Civil Works, U.S. Army 
  Corps of Engineers.............................................    10
    Prepared statement...........................................    47
    Responses to additional questions from:
        Senator Clinton..........................................    59
        Senator Inhofe...........................................    50
        Senator Jeffords.........................................    53
        Senator Vitter...........................................    60
Shea, Robert, Acting Director of Operations, Federal Emergency 
  Management Administration, Department of Homeland Security.....     8
    Prepared statement...........................................    41
  
  

                          ADDITIONAL MATERIAL

Articles:
    New York Daily News, Sunday July 23, 2006:
        Abandoned Heroes.........................................   111
        Death Sentence...........................................   116
    New Orleans to Close Controversial Storm Debris Landfill, 
      July 14, 2006..............................................   127
    NOLA.COM, Friday, April 14, 2006, Storm Debris Landfill is 
      OK'd, Eastern N.O. Residents Furious, by Gordon Russell....   121
    The New York Times, May 8, 2006, National Desk, A New 
      Landfill in New Orleans Sets Off a Battle, by Leslie Eaton.   125
Emergency Permit Letters........................................128-140
Joint Public Notice..............................................   225
Letters from:
    Bodine, Susan Parker, Environmental Protection Agency.......189-205
    Kangior, Mike, executive director, Vehicle Traffic 
      Information Coalition......................................   212
    Nagin, Ray C., mayor, City of New Orleans...................206-211
    Watson, Russell C., supervisor, Department of Interior.......   214
    Woodley, Jr., John Paul, Department of the Army.............141-188
Maps:
    Existing Site Conditions.....................................   220
    Landfill Cross Sections......................................   223
    Location.....................................................   218
    Miscellaneous Details........................................   224
    Site Excavation Grading Plan.................................   221
    Stormwater Management Plan & Final Contour Grading Plan......   222
    Vicinity.....................................................   219
Report, Multihazard Mitigation Council, Natural Hazard Mitigation 
  Saves: An Independent Study to Assess the Future Savings from 
  Mitigation Activities.........................................228-242
Statement, Shriver, Mark, vice president and managing director of 
  U.S. Programs, Save the Children...............................   104

 
 THE STAFFORD ACT: A PLAN FOR THE NATION'S EMERGENCY PREPAREDNESS AND 
                            RESPONSE SYSTEM

                              ----------                              


                        THURSDAY, JULY 27, 2006

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Vitter, Jeffords, Clinton, and 
Obama.
    Senator Inhofe. The meeting will come to order, as we 
inaugurate our new hearing room.
    Senator Jeffords, isn't this exciting? It must be so 
exciting that no one showed up.
    [Laughter.]

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. We appreciate all of you guys being here. I 
am sorry we didn't get a chance to get down and say hello to 
you and welcome you individually, but we have a policy, we 
always start on time, even if I am the only one here. So now 
Senator Jeffords has caught on, and he is always here too. So 
we do that. I am sorry that I commented that I was asking where 
Hillary was, because this is one of the few subjects where she 
and I agree, and I kind of want her here.
    Anyway, today the committee will be hearing from two panels 
to discuss the debris removal in New Orleans post-Katrina, 
progress made in disaster mitigation and preparedness 
nationwide per the revisions of the Disaster Mitigation Act of 
2000 that we passed in this committee and on the floor, and the 
adequacy of the Stafford Act authorities for future major 
disasters.
    I want to thank our witnesses for coming today.
    During the 106th Congress, our committee reported out S. 
1691, the Disaster Mitigation Act, a bill initially introduced 
by myself and Senators Baucus, DeWine, Grassley, Voinovich, 
Bond, Graham, and Smith. As signed into law, the Act sought to 
authorized programs for predisaster mitigation and to 
streamline the administration of disaster relief, and this 
hearing is a follow-up to that Act to see exactly where we are 
6 years later.
    In fiscal years 1999 and 2000, the VA, HUD, and independent 
agencies' Appropriations bill allocated $25 million for the 
Federal Emergency Management Agency (FEMA), to conduct 
predisaster mitigation activities. FEMA designed the Project 
Impact Program to focus its resources on creating disaster-
resistant communities, setting a goal of reducing the risk of 
loss of life and loss of property--loss of life by 10 percent 
and loss of property by 15 percent--by 2007.
    Of course, since that time, the Nation has experienced two 
major disasters: first, the 9/11 terrorist attacks, which 
created the Department of Homeland Security (DHS), which now 
has jurisdiction over FEMA, and, quite frankly, FEMA hasn't 
been doing as well since that time--and, second, Hurricane 
Katrina. I understand that the DHS, not FEMA, handles 
preparedness, but hope that the worthwhile goals established by 
FEMA for preparedness have been adopted by DHS.
    I will be curious to learn more about the National 
Preparedness Plan and how close we are to achieving the goal of 
reducing the life risk by 10 percent and the property risk by 
15 percent by 2007.
    We are now 2 months into the hurricane season and, 
fortunately, we haven't had a real major storm. Nonetheless, we 
can't let our guard down with respect to being ready for that 
next major storm. Although in my State of Oklahoma, we don't 
have the threat of the hurricanes, we do have quite frequently 
tornadoes, and we have learned to live with them. In fact, it 
was the tornadoes of 1995, which followed shortly after the 
Murrah Federal Office Building bombing, that destroyed a lot of 
communities in the Oklahoma City area and prompted me to draft 
S. 1691.
    While we can't prevent natural disasters, we can certainly 
do better in preparing for them. After touring the aftermath of 
the 1995 tornadoes in Oklahoma, I became a believer in 
encouraging communities to take steps prior to the natural 
disasters to lessen the impact. In Oklahoma, that means that 
families are encouraged to have in their homes safe rooms 
designed to be able to save people and have them withstand 
hurricane force winds and other precautions.
    Whatever the natural disaster be, be it a tornado, 
hurricane, earthquake, fire, flood, communities and individual 
homeowners can take steps to lessen the impact of such events. 
We will be hearing today from several witnesses on the success 
stories and, I suspect, some of the things that we could have 
done better. Finally, following Katrina, in the Gulf States 
there has been much concern about the clean up of debris, 
especially in New Orleans, and I have been contacted by several 
that are unhappy with the pace of the debris removal and the 
disposal of the debris once it has been picked up. Given the 
potential long-term health and liability issues of improperly 
disposed debris, the committee will be following this issue 
very closely.
    Today's hearing will be our first attempt to get on the 
record what is happening on this issue, but there will be 
follow-up meetings. You know, one of the things--I am sure, 
Senator Jeffords, you have run into the same thing. It has been 
our information that there are existing landfills down there 
that are not being used and, yet, new landfills are being 
built. I just think we can do a better job. That is what we 
will be exploring with this committee, and some of the 
witnesses on the first and the second panel might be thinking 
about responding to questions along those lines.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Today the committee will be hearing from two panels to discuss 
debris removal in New Orleans post-Hurricane Katrina; progress made in 
disaster mitigation and preparedness nationwide per the provisions of 
the Disaster Mitigation Act of 2000; and adequacy of the Stafford Act 
authorities for future major disasters.
    I want to thank our witnesses for coming today, and we look forward 
to hearing from each of you.
    During the 106th Congress, our committee reported out S. 1691, the 
Disaster Mitigation Act, a bill initially introduced by myself and 
Senators Baucus, DeWine, Grassley, Voinovich, Bond, Graham (FL) and 
Smith (NH). As signed into law, the Act sought to authorize programs 
for predisaster mitigation, and to streamline the administration of 
disaster relief. This hearing is a follow-up to that Act to see exactly 
where we are 6 years later.
    In fiscal years 1999 and 2000, the VA-HUD and Independent Agencies 
Appropriation bills allocated $25 million for the Federal Emergency 
Management Agency (FEMA) to conduct predisaster mitigation activities. 
FEMA designed the ``Project Impact'' program to focus its resources on 
creating disaster-resistant communities, setting a goal of reducing the 
risk of loss of life by 10 percent and reducing the risk of property 
loss by 15 percent by 2007.
    Of course, since that time, the Nation has experienced two major 
disasters; first the 9/11 terrorists attacks which resulted in the 
creation of the Department of Homeland Security (DHS), which now has 
jurisdiction over FEMA; and second, Hurricane Katrina. I understand 
that DHS and not FEMA handles preparedness, but hope that the 
worthwhile goals established by FEMA for preparedness have been adopted 
by DHS. I will be curious to learn more about the National Preparedness 
Plan and how close we are to achieving the goal of reducing risk of 
loss of life by 10 percent and reducing the risk of property loss by 15 
percent in 2007.
    We are now 2 months into the hurricane season, and fortunately we 
have not had a major storm. Nonetheless, we cannot let down our guard 
with respect to being ready for that next major storm. Although my 
State of Oklahoma does not have the threat of hurricane season hanging 
over our heads, we do have frequent and often very destructive 
tornados. In fact, it was the tornados in 1995 which destroyed several 
communities in the Oklahoma City area that prompted me to draft S. 
1691. While we cannot prevent natural disasters, we can certainly be 
better prepared for them. After touring the aftermath of the 95 
tornadoes in my state, I became a believer in encouraging communities 
to take steps prior to a natural disaster to lessen the impacts. In 
Oklahoma, that means that families are encouraged to have in their 
homes ``safe rooms'' that are designed to withstand tornado force winds 
and resist penetration by windborne objects and falling debris.
    Whatever the natural disaster be it tornado, hurricane, earthquake, 
fire or flood, communities and individual homeowners can take steps to 
lessen the impact of such events. We will be hearing today from several 
witnesses on the success stories and, I suspect, some things we could 
be doing better.
    Finally, following Katrina in the Gulf States there has been much 
concern about the clean up of debris, especially in New Orleans. I have 
been contacted by several that are unhappy with the pace of debris 
removal and the disposal of that debris once it has been picked up. 
Given the potential long-term health and liability issues of improperly 
disposed debris the committee will be following this issue very 
closely. Today's hearing will be our first attempt to get on the record 
what is happening on this issue, but we will be doing additional 
follow-up.
    Again, thank you to our witnesses and I look forward to hearing 
your testimony.

    Senator Inhofe. Senator Jeffords. &

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. For the last several Congresses I 
have been interested in taking a closer look at the role of the 
Stafford Act in determining how our Nation responds to 
terrorist events, as well as natural disasters. I am glad that 
we are finally gathered here to address this critical issue.
    Before we begin, I think it would be worthwhile to remember 
where we have been. Over the last 200 years, we have moved from 
an ad hoc approach to disaster response to a coordinated, 
orderly approach under the Stafford Act, named after my good 
friend and mentor, Senator Bob Stafford. On September 11th, the 
Nation was struck by a terrorist attack. A week later, as I 
toured Ground Zero, I saw firsthand how the Stafford Act and 
FEMA helped to reduce the impact of these events. FEMA's 
response was orderly and effective.
    But when the Department of Homeland Security was formed and 
FEMA was brought into that Department, I believe this was a 
terrible mistake, one that failed to take into account the 
unique mission of FEMA in responding to natural disasters. As 
we paid dearly for this mistake, then Hurricane Katrina struck 
the Gulf Coast last August.
    There have been many legislative proposals to modify our 
disaster response program, some specific to Hurricane Katrina 
and some not. However, I believe the biggest risk in a post-
Katrina environment is that the flurry of legislative activity 
after a disaster becomes the norm rather than the exception. 
Our Nation deserves a Federal disaster response that is 
coordinated, consistent, and predictable. That is why we passed 
the Stafford Act, which has served us well over these many 
years. As we move forward now, we must ensure that our States 
and our communities know what to expect as they develop their 
own emergency response plans.
    As Congress determines what the next steps are, we must ask 
ourselves, in the aftermath of Katrina, did we witness the 
performance failure by the Federal agencies or are we missing 
needed authority? Today, this committee, as the committee of 
jurisdiction over the Stafford Act, is seeking to answer that 
question.
    I look forward to the testimony of our witnesses and I look 
forward to cooperating with you, Mr. Chairman, as we consider 
the legislative changes that may be necessary to respond to our 
findings today. Thank you very much.
    [The prepared statement of Senator Jeffords follows:]
      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Mr. Chairman, I want to thank you for holding this hearing.
    For the last several Congresses, I have been interested in taking a 
closer look at the role of the Stafford Act in determining how our 
Nation responds to terrorist events, as well as natural disasters. I am 
glad that we are finally gathered here to address this critical issue.
    Before we begin, I think it is worthwhile to remember where we have 
been. Over the last 200 years, we have moved from an ad-hoc approach to 
disaster response to a coordinated, orderly approach under the Stafford 
Act, named after my good friend and mentor, Senator Bob Stafford.
    On September 11th, the Nation was struck by a terrorist attack. A 
week later, as I toured Ground Zero, I saw firsthand how the Stafford 
Act and FEMA helped to reduce the impact of those events. FEMA's 
response was orderly and effective.
    But then the Department of Homeland Security was formed, and FEMA 
was brought into that Department. I believe this was a terrible 
mistake, one that failed to take into account the unique mission of 
FEMA in responding to natural disasters. And we paid dearly for that 
mistake when Hurricane Katrina struck the Gulf Coast last August.
    There have been many legislative proposals to modify our disaster 
response program some specific to Hurricane Katrina, some not. However, 
I believe that the biggest risk in a post-Katrina environment is that 
the flurry of legislative activity after a disaster becomes the norm, 
rather than the exception.
    Our Nation deserves a Federal disaster response that is 
coordinated, consistent and predictable. That is why we passed the 
Stafford Act, which has served us well over these many years.
    As we move forward, we must ensure that our States and our 
communities know what to expect as they develop their own emergency 
response plans. As Congress determines what the next steps are, we must 
ask ourselves: In the aftermath of Katrina, did we witness a 
performance failure by the Federal agencies, or are we missing needed 
authority?
    Today, this committee, as the committee of jurisdiction over the 
Stafford Act, is seeking to answer that question. I look forward to the 
testimony of our witnesses, and I look forward to cooperating with you, 
Mr. Chairman, as we consider legislative changes that may be necessary 
to respond to our findings today.
    Thank you.

    Senator Inhofe. Thank you, Senator Jeffords.
    If there is one Senator on this committee that has been 
more sensitive to the problems, it is our good friend, the 
junior Senator from Louisiana, Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman and Ranking Member 
Jeffords. Thank you for holding this important hearing.
    Obviously, it is very appropriate, very timely that we 
carefully review the Stafford Act after an incident of 
Hurricane Katrina and Hurricane Rita, which put it to the test 
probably more than any other in history. So I think it is very 
appropriate that we review it carefully.
    Clearly, there were and is monumental debris removal in the 
Gulf Coast because of these hurricanes, already 25 times more 
debris hauled away than in New York after September 11th, with 
much, much more work to go. In fact, the President, noting how 
much more we have to go, just extended the 100 percent Federal 
reimbursement of debris removal in five parishes through the 
end of the year.
    So that shows the magnitude of the event; that shows how 
much the Stafford Act has been put to the test. I think there 
are many things we can learn from this experience to update and 
improve the Stafford Act, at least with large events like this 
in mind.
    I will submit my full statement for the record, but thank 
you for this hearing so that we can make sure we take advantage 
of our new knowledge and update the Stafford Act appropriately.
    [The prepared statement of Senator Vitter follows:]
    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana
    Thank you Chairman Inhofe and Ranking Member Jeffords for having 
this very important hearing on the Stafford Act and how this 
legislation could be improved to be better prepared to respond for 
future disasters.
    Almost 11 months ago, Louisiana and the other Gulf States 
experienced the most destructive natural disaster in our Nation's 
history when Hurricane Katrina struck the Gulf Coast. In Louisiana, 
tragically, Hurricane Katrina left over 1,100 people dead with more 
still missing. Hurricane Katrina represents one of the first times in 
history where a major metropolitan area was evacuated and its economic 
activity virtually ceased. Thousands of American families lost their 
homes, their jobs, their communities, and sadly too many lost their 
lives or loved ones. We must make sure this devastation absolutely 
never happens again.
    The Stafford Act provides the foundation for recovery and response. 
I look forward to hearing today about any ideas and suggestions for 
improving the Stafford Act including topics such as debris removal and 
other emergency work that are very important to Louisiana's recovery. 
Since Hurricanes Katrina and Rita, Louisianans have had the challenge 
of rebuilding their homes and getting their lives back together.
    One of the greatest challenges Louisianans faces in a post-Katrina 
world is the removal of debris which is a monumental task in itself. 
There is an unprecedented amount of debris after Hurricanes Katrina and 
Rita. We have made much progress in cleaning up the debris and have 
already hauled away 25 times more than the debris in New York after 
September 11, but we still have a long way to go.
    Debris removal is critical to ensuring that Louisiana parishes and 
cities can continue vital rebuilding and recovery work. Recently, the 
President extended 100 percent Federal reimbursement of debris removal 
in 5 parishes through the end of the year, which is so important to 
Louisiana's recovery efforts. With the amount of debris left in the 
wake of Hurricane Katrina, this extension will help these parishes move 
forward as they continue to clean up and rebuild.
    Coordination between agencies involved and with the State and local 
government is crucial to bringing results that will ensure the clean up 
of debris is done effectively, safely and timely in order for 
Louisianans to progress with their recovery efforts. We have a lot to 
learn from Hurricane Katrina and need to do all we can to be better 
prepared for future storms. I look forward to hearing from the 
witnesses and thank you for all you have done to help the Gulf Coast 
recover.

    Senator Inhofe. Thank you, Senator Vitter.
    Senator Obama is here. I didn't know whether you wanted to 
be recognized for an opening statement.
    Senator Obama.

 OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman, Ranking 
Member Jeffords. Thank you so much for holding this hearing. 
Obviously, I am deeply interested in what Senator Vitter has to 
say, because he is dealing with some of the devastation in 
Louisiana, and has been for the last year.
    Before last summer, the Stafford Act, I think, was just an 
abstract law for many of us. We had had some experiences, 
obviously, with tornadoes and floods in Illinois, but nothing 
compared to what happened on August 29, 2005, when Katrina made 
landfall. So now it is our responsibility to determine what we 
can do to ensure that the Stafford Act and the agencies that 
implement it have the flexibility and resources they need to 
respond to the next Katrina.
    I just completed my first trip to New Orleans last week and 
was astonished by what I saw. No matter how many times you hear 
about it, no matter how many times you see it on the news, no 
matter how many times you meet folks who have no home to return 
to, nothing prepares you for the terrible reality and scope of 
the devastation.
    I asked the folks there how we in the Senate can help. They 
had had almost a year to think about it. They had some good 
answers.
    One thing that they asked was that the Stafford Act 
establish a magnitude of disaster above major disaster level. 
They suggested a catastrophic disaster designation that could 
provide the long-term resources and assistance that such a 
disaster would require.
    They asked for an increased Federal share in paying for 
emergency work, work such as the clearance and removal of 
debris and temporary restoration of essential public services. 
After Katrina, homeowners were forced to pay for debris cleanup 
because FEMA wouldn't foot the bill.
    They asked for changes in housing assistance. Clearly, FEMA 
was not equipped to address the housing needs of the displaced. 
We need to fix that problem in any reauthorization of the 
Stafford Act.
    I also met with the community members from New Orleans 
East, which has the third largest Vietnamese population in the 
United States. Half of this community has returned and they are 
doing their part to help revive the city, but the city placed a 
landfill in the community, hastily constructed in the aftermath 
of the storms. Unfortunately, they neglected to put a clay 
liner in the landfill, and residents are concerned that toxic 
waste will soon be seeping into the community they are so 
desperately trying to rebuild. I want to know what can be done 
potentially within the Stafford Act to ensure that 
environmental protections are respected.
    So, Mr. Chairman, I look forward to hearing what the 
witnesses have to say about this and other issues related to 
the Stafford Act. Thank you very much for holding this hearing.
    [The prepared statement of Senator Obama follows:]
Statement of Hon. Barack Obama, U.S. Senator from the State of Illinois
    Mr. Chairman, thank you for holding this hearing.
    Before last summer, the Stafford Act was just an abstract law for 
many of us. That changed on August 29, 2005, when Katrina made 
landfall. Now, it's our responsibility to determine what we can do to 
ensure that the Stafford Act, and the agencies that implement it, have 
the flexibility and the resources necessary to respond to the next 
Katrina.
    I made my first trip to New Orleans last week, and I was amazed by 
what I saw. No matter how many times you hear that parts of New Orleans 
are still buried under tons of debris, no matter how many times you 
meet folks who have no home to return to, nothing prepared me for the 
horrifying reality that is New Orleans.
    I asked the folks there how we in the Senate can help them. And, 
because they've had almost a year to think about these things, they had 
some good answers.
    These folks in New Orleans asked that the Stafford Act establish a 
magnitude of disaster above the ``major disaster'' level. They 
suggested a ``catastrophic disaster'' designation that could provide 
the long-term resources and assistance that such a disaster would 
require.
    They asked for an increased Federal share in paying for ``emergency 
work'' work such as the clearance and removal of debris and the 
temporary restoration of essential public services. After Katrina, 
homeowners were forced to pay for debris clean-up because FEMA wouldn't 
foot the bill.
    They asked for changes in housing assistance. Clearly, FEMA was not 
equipped to address the housing needs of the displaced. We need to fix 
that problem in any reauthorization of the Stafford Act.
    I met with community members from New Orleans East, which has the 
third largest Vietnamese population in the United States. Half of this 
community has returned, and they are doing their part to help revive 
the city. But the city placed a landfill in the community, hastily 
constructed in the aftermath of the storms. Unfortunately, they 
neglected to put a clay liner in the landfill, and residents are 
concerned that toxic wastes will soon be seeping into the community 
they are trying so desperately to rebuild. I want to know what can be 
done within the Stafford Act to ensure that environmental protections 
are respected.
    I look forward to hearing what the witnesses have to say about this 
and other issues relating to the Stafford Act.
    Thank you again Mr. Chairman and Mr. Ranking Member for holding 
this hearing.

    Senator Inhofe. Thank you, Senator Obama.
    Let me share in my opening remarks, Senator Obama and 
Senator Vitter, you weren't here, but I made kind of an off-
the-cuff remark about FEMA. Mr. Shea, I hope you will forgive 
me, but I remember so well in the Murrah Federal Office 
Building disaster in 1995, in my State of Oklahoma--at that 
time Mr. James Lee Witt who was the Director of FEMA--it could 
not have gone smoother. I often look at what is happening 
today, what happened during Katrina and relate that to how well 
it performed in my State of Oklahoma in 1995.
    So we will go ahead and start. But before we do that, I 
want to see if Senator Vitter might have some very important 
person that he wants to introduce to this committee.
    Senator Vitter. Absolutely. Thank you very much. My brand 
new chief of staff in the Senate, Lee Vitter, is here helping 
me, joining us at the hearing.
    Senator Inhofe. Yes, please.
    All right, in our first panel we have Robert Shea, Acting 
Director of FEMA; Major General Don Riley, Director of Civil 
Works for the Corps of Engineers; Deborah Dietrich, the 
Director of Office of Emergency Management of the EPA; and Mr. 
Corey Gruber, Executive Director of the National Preparedness 
Task Force, Preparedness Directorate, at Department of Homeland 
Security.
    So we will take them in that order. For other members that 
come in, we do close down our opening statements after the 
witnesses start talking so you won't be interrupted.
    We will start with you, Mr. Shea.

   STATEMENT OF ROBERT SHEA, ACTING DIRECTOR OF OPERATIONS, 
  FEDERAL EMERGENCY MANAGEMENT ADMINISTRATION, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Shea. Good morning, Chairman Inhofe, Ranking Member 
Jeffords, and committee members Senator Vitter and Senator 
Obama. My name is Robert Shea. I am the Acting Director of 
Operations for the Federal Emergency Management Administration.
    In preparing for this hearing, FEMA was asked to 
specifically address two major issues: first, our policies and 
procedures relating to debris removal after a disaster, and, 
second, the impact of the Disaster Mitigation Act of 2000. FEMA 
appreciates the opportunity presented by this committee to 
address these issues.
    With regard to debris removal, disaster-related debris may 
consist of downed trees, that is, vegetated debris; destroyed 
personal property, including home contents and automobiles; 
hazardous waste; construction and demolition material; or even 
damaged boats and other debris that obstruct waterways. State 
and local applicants must comply with environmental and 
historical preservation laws when removing disaster-related 
debris. Developing and executing a plan to remove and dispose 
of large quantities of debris requires coordination with 
numerous entities at all levels of government and, most 
importantly, with the citizens of the community.
    In short, State and local governments are primarily 
responsible for removing disaster-related debris from their 
communities. FEMA does provide funding for the removal of 
eligible debris and may provide technical assistance, if 
requested, by the State.
    While FEMA does not directly manage State and local debris 
operations, we do take an active role in providing technical 
assistance and oversight. FEMA deploys debris specialists to 
advise State emergency management and local officials on public 
assistance eligibility, appropriate contracting procedures and 
monitoring, and environmental compliance issues. This, of 
course, is in conjunction with the Environmental Protection 
Agency.
    In addition, FEMA often requests the U.S. Army Corps of 
Engineers to assist in providing technical assistance and to 
work with the State to develop an overall debris management 
plan for the disaster recovery process. FEMA may also deploy 
monitors to provide oversight of debris operations to ensure 
that FEMA funding is provided for eligible debris removal, to 
ensure compliance with environmental regulations and 
programmatic guidelines, and to reduce the occurrence of waste, 
fraud, or abuse.
    The Corps of Engineers and FEMA are the two primary or lead 
agencies for Emergency Support Function No. 3 under the 
National Response Plan.
    In the cases of Hurricanes Katrina and Rita, widespread 
destruction resulted in unprecedented quantities of debris. 
FEMA estimates that Katrina and Rita resulted in a staggering 
118 million cubic yards of debris, more than double the amount 
of debris produced by the four hurricanes that struck Florida 
in 2004 and six times the amount of debris created by Hurricane 
Andrew. To truly understand the magnitude, you have to imagine 
368 football fields filled with debris stacked to 190 feet high 
in order to get an order of magnitude here. This amount of 
debris would require approximately 6 million average-sized dump 
trucks.
    Senator Inhofe. State that once again, what you just now 
said about relating it to a football field.
    Mr. Shea. Yes. The magnitude is that it would be the 
equivalent of 368 football fields with debris stacked 192 feet 
high on each field. Or, another way of looking at it is every 
single inch of Washington, DC, the entire city, would be 
covered by at least a half a foot of debris.
    To haul this amount of debris----
    Senator Inhofe. Some people say it already is, but go 
ahead.
    [Laughter.]
    Mr. Shea. That, sir, is a different issue.
    FEMA has developed substantive guidance documents and 
policies to assist local communities in developing and 
executing debris management plans. We also offer debris 
management training to State and local officials, and will 
continue to look for ways to educate and help communities plan 
the post-disaster removal operations. We provide technical 
assistance to State and local governments in developing debris 
management plans in peacetime and encourage them to hire 
standby contractors prior to disasters occurring. FEMA will 
always be ready to provide help at the time of a disaster, but, 
for our efforts to be successful, our State and local partners 
must be prepared to act quickly and responsibly.
    With respect to mitigation, in addition to the authorities 
the Stafford Act gives FEMA to assist State and local 
governments in repairing critical infrastructure and removing 
debris following a disaster, it also provides a variety of 
mitigation programs and activities. A recent independent study 
conducted by the Multihazard Mitigation Council at the request 
of Congress concluded that every dollar spent on mitigation 
saves society an average of $4. This translates into hundreds 
of millions of dollars in savings each year, and it really 
begins with sound mitigation planning.
    The mitigation planning process is not static, it changes 
and is refined over time. One of our greatest successes has 
been the ability to work closely with our State, local, and 
tribal partners in this effort, drawing on the experiences that 
they have gained in preparing and implementing their plans over 
the last several years.
    This past May, FEMA invited one State from each of our FEMA 
regional offices to discuss the plan update process. At this 
meeting we asked the States to identify some of their successes 
and perceived benefits from going through the mitigation 
planning processes. These benefits fell into major categories: 
improved risk assessment, interagency coordination and planning 
committees, and coordination with local planning committees. 
The importance of this is that it really drives that planning 
process all the way through all levels of government; Federal, 
State, and local.
    Since the Hazard Mitigation and Relocation Assistance Act 
of 1993 amended the Stafford Act, the principal mitigation 
activities funded under the Hazard Mitigation Grant program 
include mitigation planning, acquisition of flood-prone 
properties, conversion to open space----
    Senator Inhofe. Mr. Shea, try to wrap up your statement. We 
are going to try to confine this to 5 minutes. Your entire 
statement will be made part of the record, but try to wrap up, 
if you would.
    Mr. Shea. I have a few more comments to make here.
    These are essentially the principal activities of the PDM 
program, instituted following the Disaster Mitigation Act of 
2000 amendments. To date, FEMA has obligated nearly $1.5 
billion for planning, acquisition, and elevation activities 
through the Hazard Mitigation Grant Program and our Predisaster 
Mitigation Program, the companion. If we follow the finding of 
the Mitigation Council's report, every dollar spent on 
mitigation saves an average of $4. We can conclude that 
mitigation grant programs have provided savings to this country 
of approximately $6 billion.
    Thank you for the opportunity to appear before the 
committee, and I look forward to answering any questions you 
might have.
    Senator Inhofe. Thank you, Mr. Shea.
    General Riley.

  STATEMENT OF MAJOR GENERAL DON T. RILEY, DIRECTOR OF CIVIL 
              WORKS, U.S. ARMY CORPS OF ENGINEERS

    General Riley. Good morning, Mr. Chairman. I am Major 
General Don Riley, Director of Civil Works for the Army Corps 
of Engineers. Thank you for the opportunity to testify.
    The Corps has had a longstanding and highly effective 
relationship in support of FEMA under the Federal Response Plan 
and now the National Response Plan. We also have major 
responsibilities for disaster planning response and recovery 
within our own authority under Public Law 84-99, our civil 
works infrastructure missions of Flood Damage Reduction, 
Navigation, and Hydropower. Furthermore, we have our inherent 
responsibility to support DOD in execution of any of the 
Department's disaster relief missions.
    Under the National Response Plan, the Corps has primary 
responsibility for Emergency Support Function No. 3, Public 
Works and Engineering, and several assigned tasks in support of 
other ESFs specified in the plan. Our mission portfolio during 
major disaster response will typically include activities such 
as provision of ice and water, debris clearance and disposal, 
temporary roofing, emergency power to critical facilities, and 
assistance to FEMA with provision of temporary housing.
    Based on 14 years of experience in executing missions under 
the FRP and NRP, the Corps believes the Stafford Act and the 
NRP have the empowering authorities and tools that allow us to 
be successful in performing our assigned missions. The Corps, 
through our Floodplain Management Services Program, provides 
advice and assistance to communities in terms of reducing their 
flood risk with regard to community infrastructure. The Corps 
Flood Damage Reduction Authorities also provide a broad range 
of flood mitigation tools that are used in supporting State and 
local flood mitigation objectives. Additionally, FEMA's 
Regional Mitigation staff and Corps districts provide 
mitigation services year-round to local communities and States.
    Over the last 3 years, there has been a significant 
increase in planning whereby the Corps, in coordination with 
FEMA, has provided States with planning tools and assisted in 
preparedness efforts, especially in the areas of commodities 
planning, temporary power, and debris management. The Corps 
will also be working closely with DHS Preparedness Directorate 
to ensure that DHS programs and grants support the building of 
State and local capabilities within our support function.
    During the 2005 hurricane season, FEMA tasked the Corps to 
take the lead for Federal debris management assistance in 
certain localities in Mississippi, Louisiana, Alabama, and 
Texas. The Corps worked closely with EPA, FEMA, and other 
Federal, State, and local governments to assist in these debris 
removal activities.
    Thank you once again, Mr. Chairman, for allowing me to 
testify, and I would be happy to answer any questions.
    Senator Inhofe. Thank you, General Riley.
    Ms. Dietrich.

 STATEMENT OF DEBORAH DIETRICH, DIRECTOR, OFFICE OF EMERGENCY 
          MANAGEMENT, ENVIRONMENTAL PROTECTION AGENCY

    Ms. Dietrich. Good morning, Mr. Chairman and members of the 
committee. I am Deborah Dietrich, Director of the Office of 
Emergency Management in the Office of Solid Waste and Emergency 
Response, EPA. Thank you for the opportunity to discuss EPA's 
role under the National Response Plan, known as the NRP and 
Agency response efforts supporting FEMA under the Stafford Act 
following Hurricane Katrina. I will summarize my statement, but 
I ask that my entire written statement be entered in the 
record.
    The magnitude of the damage from Hurricane Katrina 
presented significant challenges for EPA and our partners at 
the Federal, State, and local levels. As with other Federal 
agencies, EPA's involvement is facilitated through the NRP. 
While there is always room for improvement, we believe that the 
NRP provided the framework for an effective response to the 
most destructive natural disaster in the history of the United 
States.
    Under the NRP, EPA is the coordinator and primary Agency 
for Emergency Support Function No. 10, Oil and Hazardous 
Materials Response. Our primary activities under this support 
function include: efforts to detect, identify, contain, clean 
up, or dispose of oil or hazardous materials; removal of drums 
and other bulk containers; collection of household hazardous 
waste; monitoring of debris disposal; air and water quality 
monitoring and sampling; and protection of natural resources. 
EPA is also a support Agency for a number of other Emergency 
Support Functions. For example, under ESF No. 3, Public Works 
and Engineering, which addresses solid waste debris removal, 
EPA provides necessary support to the U.S. Army Corps of 
Engineers by assisting in the location of disposal sites, 
providing safety guidance for areas affected by hazardous 
materials, assisting in the management of contaminated debris, 
and by coordinating or providing assessments, data, expertise, 
technical assistance, and monitoring.
    In response to Hurricane Katrina and in coordination with 
our partners, EPA performed a wide variety of tasks including: 
response to more than 70 emergency situations including 
hazardous material releases and oil spills; assessment of more 
than 4,000 water and wastewater systems to determine viability 
after the storm; environmental monitoring and sampling of 
water, air, floodwater, and residual sediment resulting in more 
than 400,000 analyses. EPA conducted extensive outreach through 
the media and the Agency Web site, and distributed millions of 
fliers to alert the public and communities about potential risk 
and methods to address handling of potentially contaminated 
debris. EPA also responded to FEMA's request for assistance and 
rescued approximately 800 evacuees.
    Removal and proper disposal of the unprecedented amount of 
debris in the affected areas has been a major undertaking since 
the beginning of the response. EPA has worked closely with the 
Corps, FEMA, and State and local governments to assist in 
debris removal activities. It is important to point out, 
however, that local and State governments are responsible for 
the permitting and operation of landfills where this debris is 
being disposed. However, EPA has provided assistance to the 
States in developing guidance regarding demolition of 
structurally unsound buildings, as well as guidance for debris 
burning. Along with FEMA and the U.S. Army Corps, EPA provided 
assistance to the States as they developed their debris removal 
plans.
    As I mentioned before, the management and disposal of 
nonhazardous debris is a State and local responsibility. 
However, at the request of the States of Louisiana and 
Mississippi, EPA assigned staff to provide support by visiting 
debris disposal sites and observing waste handling practices, 
including sorting and management at emergency disposal sites. 
Observations of waste handling practices were reported to State 
and local authorities for any appropriate follow-up action.
    EPA's mission in Alabama and Mississippi is now complete, 
and any remaining activities have been transitioned to the 
States. In Louisiana, EPA activities are winding down and are 
now focused on the collection and disposal of household 
hazardous waste, landfill monitoring, and environmental 
sampling. These efforts are generally occurring in the St. 
Bernard and Orleans parishes.
    The response to Hurricane Katrina has clearly necessitated 
strong cooperation among Federal, State, and local government 
agencies. We believe that the Stafford Act, the National 
Response Plan, and the preparedness activities under the 
National Incident Management System contributed positively to 
our ability to respond to Hurricane Katrina.
    That concludes my statement, Mr. Chairman. I would be happy 
to answer any questions that you or the committee members may 
have.
    Senator Inhofe. Your timing is perfect, Ms. Dietrich. Thank 
you very much.
    Ms. Dietrich. Thank you.
    Senator Inhofe. Mr. Gruber.

    STATEMENT OF COREY GRUBER, EXECUTIVE DIRECTOR, NATIONAL 
 PREPAREDNESS TASK FORCE, PREPAREDNESS DIRECTORATE, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Gruber. Good morning, Chairman Inhofe, Senator 
Jeffords. Senators, thank you very much for the opportunity to 
appear before the committee and to discuss important 
preparedness initiatives in the Department of Homeland 
Security.
    Our Nation's emergency and public safety services are quite 
simply the finest in the world. Yet, without a consistent, 
logical, and sustainable way to prepare for 21st century 
homeland security challenges, unity of effort and measurable 
operational readiness have proven to be illusive.
    The Nation needs a dedicated and sustained national effort 
to organize, guide investments, and strength national 
preparedness. Much has been accomplished, but we know from 
painful experience that there are still systemic infirmities in 
our preparedness.
    Secretary Chertoff and Under Secretary Foresman have made 
it clear that reforms are necessary and will be accomplished 
through a collaborative national effort. The Second Stage 
Review and the establishment of the Preparedness Directorate in 
July 2005 are rapidly integrating preparedness programs, 
activities, and services to meet the needs of our most 
important asset: our homeland security professionals across 
this great Nation.
    Building truly interchangeable homeland security 
capabilities takes more than merely embracing a loosely defined 
concept like ``all hazards.'' We have turned this concept into 
a systematic planning methodology using a capabilities-based 
framework. This meets the requirements of Homeland Security 
Presidential Directive 8, titled ``National Preparedness.'' In 
that directive, the Secretary was charged with developing a 
National Preparedness Goal. The interim National Preparedness 
Goal was published in March 2005, and the final National 
Preparedness Goal, which underwent additional analysis and 
revision as a result of Hurricane Katrina, will be published 
shortly.
    The mission of our Preparedness Directorate is to implement 
the National Preparedness goal by preparing individuals, the 
public, and private sector organizations for disasters by 
defining and fostering a culture of preparedness, educating 
stakeholders, strengthening prevention and resilience, and 
developing the next generation of homeland security 
professionals. This is a shared national mission, not simply a 
Federal responsibility.
    Let me address one example of how the Directorate is 
approaching a key aspect of preparedness. Following Hurricane 
Katrina, the President directed the Department to conduct an 
immediate review of emergency plans for the Nation's major 
cities. Congress subsequently tasked both the Department of 
Homeland Security and Department of Transportation to review 
plans for all States and territories and 75 cities with 
particular emphasis on evacuation planning.
    The results of the Nationwide Plan Review were the most 
comprehensive assessment of catastrophic planning yet 
undertaken in this country. DHS is currently working with 
participants in the review to improve their plans, support 
training and exercise initiatives, and engage in discussions of 
how to meet catastrophic challenges identified in our final 
report. I would be happy to discuss this review in greater 
detail, should you have questions.
    To build the National Preparedness System and to respond to 
recommendations in the Plan Review, the Preparedness 
Directorate has established a new National Preparedness Task 
Force, for which I serve as the Executive Director. The Task 
Force intent is to bring together preparedness policy, 
planning, exercises, evaluation, and field management assets to 
create comprehensive solutions to the preparedness challenges 
we have outlined.
    As Secretary Chertoff stated, DHS must operate as an all 
hazards, fully integrated organization. The Federal Emergency 
Management Agency, our components, States and communities 
across the country, must be prepared to respond and recover 
from all disasters, whether caused by nature or terrorism. 
While FEMA and its partners are engaged in response and 
recovery, which can often be a protracted duration, the 
Preparedness Directorate ensures that there is no disruption to 
preparedness programs, activities and services to the balance 
of the Nation.
    By focusing FEMA on its core competencies of response and 
recovery, and a new Directorate on preparedness, the Secretary 
acknowledged the critical nature of both missions to the 
Nation's homeland security.
    In closing, Mr. Chairman, the President and Congress have 
consistently identified the need for specific and measurable 
goals for preparedness, national cooperation, application of 
assistance where the need is the greatest, determination of 
essential capabilities that communities need, and advanced 
planning processes. HPSD-8, the lessons of Hurricane Katrina, 
and the strategic requirements of the war on terrorism require 
transformation of the way we approach preparedness in the 21st 
century.
    Thank you again for providing the opportunity to speak with 
you today, and I look forward to answering your questions.
    Senator Inhofe. Thank you, Mr. Gruber.
    Let me just go ahead and start with a question to all of 
you, because there is a lot of confusion not just in the 
general public, but even on this panel, as to who does what, 
and I would like to discuss the assignment of responsibility 
for water borne debris and spills in disasters such as Katrina, 
and specifically what would be the role of the EPA, the Coast 
Guard, and the Corps of Engineers. Let's start with you, Mr. 
Shea.
    Mr. Shea. Well, essentially, FEMA has overall 
responsibility based on the Stafford Act, so we are kind of the 
coordination mechanism for a lot of this, including--watery 
debris is the specific issue?
    Senator Inhofe. Yes, I understand that, but then that 
assignment is being made----
    Mr. Shea. Yes.
    Senator Inhofe [continuing]. By you. Kind of clarify what 
roles these agencies would play.
    Mr. Shea. Once again, I think in this particular case, if 
it is watery debris, typically, FEMA would turn to the Coast 
Guard, but with input from the Environmental Protection Agency 
and also from NOAA about their areas of expertise in removal of 
watery debris.
    Senator Inhofe. OK, but it would then be the Coast Guard, 
if you were to assign the responsibility, to have results.
    Mr. Shea. Yes. Of course, as in other cases, if State or 
local government would like to shoulder those responsibilities, 
we would be pleased to have them shoulder those 
responsibilities.
    Senator Inhofe. All right.
    General Riley?
    General Riley. Yes, Mr. Chairman. I think two authorities 
that you have given the Corps, one under the Clean Water Act, 
section 404, to permit use and filling of dredged materials and 
then, second, under the River and Harbors Act for navigable 
water, so any discharges in navigable water. So those are our 
two concerns that we have authorities to permit.
    Senator Inhofe. OK.
    Ms. Dietrich. Well, for EPA, we are the primary lead Agency 
under ESF 10 under the National Response Plan, and FEMA looks 
to us to address oil and hazardous substances. Now, we work 
very closely with the Coast Guard. We actually share 
responsibility with the Coast Guard under that ESF.
    Senator Inhofe. But structurally, then, it goes right back 
to FEMA, though, is that correct?
    Ms. Dietrich. Right. For a Stafford Act response, we would 
get a mission assignment from FEMA under ESF 10. The way we 
divvy up our responsibilities, Coast Guard handles the coastal 
area, EPA generally handles the inland area, but we work very 
closely with the Coast Guard on a shared responsibility.
    Senator Inhofe. All right.
    Any comment, Mr. Gruber?
    Mr. Gruber. Sir, I would simply add that next week, the 
Coast Guard is hosting a conference on maritime recovery 
operations and Under Secretary Foresman will be attending. So 
there is very active dialogue and efforts underway.
    Senator Inhofe. All right. We will probably have 
representation there.
    Let's say in the event of a dirty bomb, a different type of 
a problem, what agencies would be involved in the cleanup in 
the contaminated debris zone, and who would be in charge and so 
forth?
    Mr. Shea.
    Mr. Shea. Under the Stafford Act, again, basically, we 
would look to the Emergency Support Function structure, and 
that would include, undoubtedly, the Department of Energy for 
their expertise and responsibilities, the Environmental 
Protection Agency would be a key actor. I very much suspect the 
Corps of Engineers would be a partner in this type of an event. 
So we would have to collaborate across a number of different 
governmental agencies in order to bring the appropriate 
expertise to the table and to address whatever the issues were 
as the result of a dirty bomb.
    Senator Inhofe. So you think, then, the Corps of Engineers, 
then, would be receiving most of the responsibility?
    Mr. Shea. Once again, if State or local government were 
unable or unwilling to do it, FEMA would then look to a mission 
assignment process with the Corps of Engineers, I think, as 
probably our primary mechanism, although there are independent 
authorities and responsibilities that also deal in this area 
with the Department of Energy and the Environmental Protection 
Agency.
    Senator Inhofe. So would the standard procedures of the NRP 
be deployed, or some other system?
    Mr. Shea. Right. In other words, we would use the 
mechanisms available under the National Response Plan, gather 
the experts together, and then pick the best course of action 
based on the issues that we knew were coming to bear on that 
circumstance.
    Senator Inhofe. All right.
    Do any of the rest of you, have any comment on that?
    General Riley. Mr. Chairman, I think in the Corps' 
perspective, FEMA would most likely look to us for technical 
expertise, if there were damaged structures, to look at the 
structural integrity of those structures. They might also task 
us for temporary housing or temporary roofing or debris 
removal. But it would probably be limited to that unless there 
was anything else to do with navigable waterways or flood 
control used under our own authority.
    Senator Inhofe. All right.
    Any other comments on that?
    Ms. Dietrich. I would just agree with Mr. Shea, and I think 
that we would work closely with FEMA. DOE would obviously play 
an important role, particularly early in the response, in terms 
of radiation contamination. I think EPA would play a role on 
the longer term cleanup in such a situation.
    Senator Inhofe. All right.
    Mr. Gruber. Sir, I might just add one point. We have tested 
plans, procedures, and protocols in some of the largest 
exercises we have done in the country, particularly the top 
officials exercise, the second one, which had an RDD scenario. 
I think Senator Obama will remember because Illinois was a 
participant in that exercise. So we do test these routinely in 
exercises.
    Senator Inhofe. All right, thank you.
    We have been joined by Senator Clinton.
    Senator Clinton, in my opening statement I mentioned that 
you and Senator Vitter probably would have the greatest 
personal interest from the experiences in your States as to the 
responsibilities of various parties, and also that while we 
don't always agree on issues, there is one that we did agree 
on, and that is that FEMA worked a lot better in the old days 
than it works now, in my limited view. But we are going to try 
to correct that.
    So even though we normally forego opening statements once 
the witnesses start, if you have an opening statement, I would 
like to have you do that at this time.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you so much, Mr. Chairman. Thank you 
for your leadership on this, and it is a pleasure working with 
you on such an important issue.
    I will ask unanimous consent that my entire opening 
statement be made a part of the record. I want to highlight a 
few points.
    We are quickly moving toward the fifth anniversary of the 
attacks of 9/11, and I have personally met with many 
individuals who have been severely impacted by both their 
physical and mental health conditions due to what they were 
subjected to during the attack and in the days, weeks, and 
months after; people who were first responders who bravely 
rushed in, people who were construction workers, people who 
were sanitation workers, people who worked in the streets to 
get the telecommunications back up so the Stock Exchange could 
open, people who were transportation workers. So many people 
who were there for months on an end, as well as other workers 
and residents of downtown New York. I have called for and 
welcome both the creation of the current World Trade Center 
Worker Health Monitoring Programs and the efforts of Dr. John 
Howard, Director of NIOSH, in his capacity as the Federal 
Coordinator for 9/11 Health.
    The Federal Government, however, has no plan to deal with 
this long-term health crisis. In fact, the Daily News in New 
York published a series of stories on these individuals and 
about what they have suffered from, the kind of impact it is 
having upon people who can no longer perform their duties as 
firefighters or police offices because of the diseases that 
have materialized, the decreased breathing capacity and other 
ailments that have emerged since
9/11.
    Mr. Chairman, I ask unanimous consent that these stories 
from the Daily News be made a part of the record.
    Senator Inhofe. Without objection.
    [The referenced documents follow on page 111-120.]
    Senator Clinton. You know, Mr. Chairman, I don't think we 
know whether Hurricane Katrina will have long-term health 
impacts. Some researchers are looking into that. But I think we 
should pay special attention to long-term medical and mental 
health needs. They should be tracked, monitored, and treated 
after significant natural or man-made disasters. I hope that we 
can look into that issue on this panel.
    I have also been working with my colleague, Senator 
Voinovich, because his State sent some first responders to 
Ground Zero. They came home and began suffering from health 
effects. So this is a problem directly related to the 
experience that so many people had, trying to cope with this 
overwhelming disaster.
    I also am concerned about Hurricane Katrina, the subsequent 
failed response that we have, unfortunately, been living with 
now for nearly a year. But we just experienced significant 
floods in Upstate New York and, as a result, you know, tens of 
thousands of people lost their homes, lost their businesses. In 
Queens we are experiencing a massive blackout. Con Ed can't 
figure out what caused it. They have had a horrible time trying 
to figure out how to fix it. We have seen so many businesses 
destroyed, particularly food-related businesses. You know, as I 
travel around, I just feel that we are not prepared to respond 
to all of these problems.
    You know, I think that because each of the problems that I 
mentioned have national implications, whether it is our 
electricity grid or the impact on our oil supply out of the 
Gulf, or whatever it might be, we need to take a hard look at 
what kind of Federal assistance should be available, and the 
Stafford Act is our key to doing that.
    Finally, I hope we can address the lessons learned from 
Katrina. I have a stack of reports here--they are almost too 
heavy for me to lift--that have been conducted by the House, 
the Senate, the GAO, the White House, independent experts. 
After Hurricane Katrina, I advocated for a single independent 
commission modeled after the 9/11 Commission, because I think 
we have to learn these lessons. You know, there is a tremendous 
amount of wisdom in what went wrong as well as what went right. 
I met with the Red Cross the other day, and they were very 
candid in telling me what they thought went right and what went 
wrong. But we have these disparate reports. I hope that we can 
figure out how to really zero in on lessons learned.
    One of the reasons that the Chairman and I have supported 
trying to go back to an independent FEMA is that when everybody 
is in charge, nobody is in charge. When disaster preparedness 
and response is lodged in a gigantic bureaucracy, it is easy to 
get lost, particularly when that bureaucracy was formed after 
9/11 to deal with the incredibly dangerous problem of terrorist 
attacks. So if the Stafford Act authorities need to be changed, 
clarified, expanded, or even contracted, I hope we will have 
the courage to make those changes. I think everyone knows the 
Chairman is a pretty determined leader, and I really trust that 
we will get to the bottom of a lot of this and make some of the 
changes we need. &
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Clinton follows:]
    Statement of Hon. Hillary Rodham Clinton, U.S. Senator from the 
                          State of New York &
    Thank you, Mr. Chairman, for holding this critically important 
hearing on the Stafford Act and the future of America's emergency 
preparedness and response system.
    Obviously, this Nation has experienced significant disasters 
throughout our history. Just in the past 15 years alone we have seen 
earthquakes in California, hurricanes and tornadoes throughout the Gulf 
and plains States--even now in New York--and of course the terrorist 
attacks in Oklahoma City and the attacks of September 11, 2001, that 
devastated New York and damaged the Pentagon.
    It is clear that with the National Hurricane Center's predictions 
of a strong hurricane season this year, coupled with the new threats 
faced by this Nation from terrorists, that we must ensure that the 
Stafford Act provides our government with all the necessary tools to 
guard against, prepare for, and respond to any disaster be it man-made 
or natural.
    This hearing is extremely important and timely for me.
    Mr. Chairman, nearly 5 years ago, on September 11th, terrorists 
murdered almost 3,000 people. 343 firefighters and paramedics and 60 
police officers lost their lives. The single deadliest attack on 
American soil in our history.
    In the aftermath this Congress responded swiftly to provide not 
only the assistance available under the Stafford Act but with other 
forms of financial assistance to rebuild New York City because of the 
severity of the attacks.
    We have seen similar bi-partisan, bi-cameral support in the 
aftermath of Hurricane Katrina where this Congress has acted outside of 
the current Stafford Act structure to provide the kind of long-term, 
rebuilding support needed for the impacted States along the Gulf 
Region.
    But Mr. Chairman we also have a great deal more to do not only in 
the Gulf but in New York as well.
    Mr. Chairman, when the Twin Towers fell in New York City there were 
thousands of firefighters, police officers, first responders, workers, 
and other volunteers who stood on the piles that were once buildings to 
look for any survivors.
    Thousands of these selfless heroes stayed for days, and weeks, as 
tons of debris continued to smolder and the air around them was filled 
with toxins.
    As a result today, nearly 5 years after those attacks, I have 
personally met with many individuals whose health continues to 
deteriorate. While I called for, and welcome, the efforts of Dr. John 
Howard, director of NIOSH, in his capacity as the Federal coordinator 
for 9/11 issues to deal with the long-term issues in New York, the 
Federal Government has no plan to deal with this long-term health 
crisis.
    In fact, the Daily News in New York published a story on these 
individuals and about the health impact it is having upon individuals 
who can no longer perform their duty as firefighters and police 
officers because of diseases that have materialized, decrease breathing 
capacity, and other ailments that have emerged since 9/11.
    I ask unanimous consent that these stories be made a part of the 
record.
    Mr. Chairman I don't think we know whether Hurricane Katrina will 
have the same long-term health impact but one thing is clear: we must 
determine what long-term medical and mental health needs should be 
tracked, monitored, and treated after significant natural or man-made 
disasters.
    I hope this panel will address this issue or that this committee 
will look into this important issue because it is something that I have 
been dealing with, along with my colleagues in the New York delegation 
and Senator Voinovich, ever since 9/11 and with which we will need to 
deal with in the coming years.
    Mr. Chairman, there is another matter I would like to raise.
    We saw the catastrophic damage caused by Hurricane Katrina and the 
subsequent failed response by the Federal Government.
    I am sure we will get into those issues.
    But there is also a question about the types of assistance we 
should be providing to individuals and small businesses.
    Mr. Chairman, we just experienced significant floods in Upstate New 
York as a result of the massive rain storms just a few weeks ago.
    In Queens we are experiencing a massive blackout impacting 
thousands of individuals and over 700 businesses.
    As I traveled across these impacted areas, or speak with 
individuals, business owners, and local elected officials, there is a 
concern about the type and level of assistance that the Federal 
Government is able to provide.
    After 9/11 and Hurricane Katrina, along with a few other big 
disasters in our Nation's history, we passed individual pieces of 
legislation to address things like business and crop losses which are 
normally dealt with by low-interest loans through the Small Business 
Administration.
    Many of my constituents who own small businesses cannot afford to 
take on any more loans especially after they have just lost their homes 
and all of their possessions.
    So I hope we will look at the types of Federal assistance available 
to small businesses, individuals, local governments, and other 
entities.
    The Stafford Act is an important tool to deal with disasters in 
this country and we have moved from an ad hoc approach to disaster 
response to a coordinated approach.
    The Stafford Act as it exists today became law in 1974 after 
consideration by this committee--the Senate Environment and Public 
Works Committee with FEMA being created by Executive order in 1979.
    So Mr. Chairman I commend you for continuing stewardship over the 
Stafford Act which authorizes the President to act.
    We know that the President has delegated his responsibilities to 
FEMA and DHS and others could also be directly impacted and we should 
look at that in the aftermath of Hurricane Katrina and 9/11.
    This committee last amended the Stafford Act to provide for the 
Disaster Mitigation Act of 2000, P.L. 106	390, and we must make sure 
current mitigation programs reflect the threats we face from severe 
hurricanes and potential terrorist attacks.
    Perhaps it is time we look at some grant assistance for those 
communities that are not as economically strong as other communities 
and who will have a much harder time recovering from such widespread 
disasters.
    Finally Mr. Chairman, I hope we will address the lessons-learned 
from Hurricane Katrina.
    I have a stack of reports here, Mr. Chairman, that have been 
conducted by the House, the Senate, the GAO, the White House.
    After Hurricane Katrina struck I advocated for a single, 
independent Commission modeled after the 9/11 Commission--to conduct an 
investigation into what went wrong and to provide a unified set of 
recommendations to us about what needs to be fixed.
    Unfortunately, we now have disparate reports and I am afraid we are 
poised to repeat some of the mistakes of the past.
    I hope we will address FEMA's existing authorities to pre-position 
assets and for the President to make major disaster declarations even 
without a written request from a Governor because I believe such pre-
planning and pre-positioning could help mitigate some of these large 
scale disasters.
    If the Stafford Act authorities need to be changed, clarified, 
expanded, or contracted I hope we will have the courage to make those 
changes.
    I look forward to working with all of my colleagues on this 
committee and to hear from this panel as we move forward.
    Thank you, Mr. Chairman.

    Senator Inhofe. Thank you, Senator Clinton. I will also 
tell you that in my opening statement I talked about the great 
experience, the successful experience we had after the Murrah 
Federal Office Building. That was James Lee Witt at that time, 
what a great job he did and how coordinated things were.
    Senator Jeffords, you are recognized for your questions at 
this time.
    Senator Jeffords. Ms. Dietrich, how is EPA ensuring that 
public health and the environment are not compromised in an 
effort to speed up decisionmaking related to asbestos handling 
and landfill permitting, and how is EPA communicating any 
potential health risk to local affected communities?
    Ms. Dietrich. Well, Senator, we have worked extensively 
with the States on this issue, on asbestos-containing material, 
as well as FEMA and the Corps of Engineers. We have provided 
technical advice and assistance to the States and other Federal 
agencies. We have assisted in conducting training on how to 
handle the material. In addition, both Mississippi and 
Louisiana established policies or protocols of how they will 
handle this material. Again, it is a program delegated to the 
States, so they do have responsibility for handling this, but 
we have reviewed those protocols, commented on them, and feel 
that the State is doing an adequate job on handling those 
materials.
    In terms of communicating to the public, we have done an 
extensive outreach in communication via our Web site. We have 
done a tremendous amount of sampling down in New Orleans. Those 
results have been posted on the Web site. We did public 
announcements via radio and we handed out millions of flyers 
providing information to the public, as well as cautions that 
they should take in dealing with whatever situation that they 
may come in contact with.
    Senator Jeffords. Mr. Shea, I note that in your testimony 
you state that FEMA encourages reauthorization of the Disaster 
Mitigation Act. Do you favor reauthorization as it is, or do 
you have recommended changes?
    Mr. Shea. Senator, based on our experience with that 
portion of the Act, I would tell you that we feel very 
confident that the authorities are strong enough to do what we 
need to do. Obviously, there are limitations based on funding, 
et cetera, that gate the ability to influence the built 
environment, but we feel very strongly that the Act itself is 
very good.
    Senator Jeffords. Mr. Shea and Mr. Gruber, Title VI of the 
Stafford Act authorizes a comprehensive emergency preparedness 
system for all hazards to be established jointly by the Federal 
Government, States, and their political subdivisions. Who is 
currently administering Title VI of the Stafford Act and what 
actions have you taken since September 11th to improve the 
preparedness of our Nation for both natural disasters and 
catastrophes?
    Mr. Shea. That will be the Preparedness Directorate of the 
Department of Homeland Security. I think Mr. Gruber would 
probably be best to answer that question.
    Mr. Gruber. Sir, as I said in my opening remarks, this is 
clearly a shared national responsibility, but let me just 
highlight a few things that I think are important to this. 
First of all, the Secretary acknowledged this in the Second 
Stage Review. He mentioned, in particular, that preparedness 
for catastrophic planning was an extremely important priority 
of the Department. We have organized a Preparedness 
Directorate, dedicated, undivided attention to a sustaining 
preparedness programs activities and services. We have a series 
of presidential directives, of course, guidance from Congress, 
that describe how to implement improved incident management.
    The directive I mentioned, that is titled ``National 
Preparedness,'' identified 16 major initiatives. Some of those 
include establishment of a national exercise program, which we 
have done; others tell us to establish a national preparedness 
system. We have been working very hard, we have been working 
with over 100 national associations and 1,200 representatives 
from across the country to help us build a robust National 
Preparedness system that supports our National Emergency 
Response system.
    So there is a tremendous amount of activity fully engaged 
across the whole community that comprises homeland security.
    Senator Jeffords. Thank you.
    General Riley, will you elaborate on the quality control 
mechanisms that the Army Corps has in place to ensure that 
debris is properly separated prior to disposal in approved 
landfills?
    General Riley. Yes, Senator, if I could. We have the 
mission from FEMA for much of it, about half of it in 
Mississippi, a little bit more than half of the debris in 
Louisiana. Of course, those are, as EPA testified to, certified 
and permitted by the State, the landfills. At the curbside, 
though, is where we begin our very initial segregation of the 
different types of debris, and then we continue that on in 
through the landfill and we inspect it at the landfill.
    We do have EPA monitors, as well as FEMA monitors, along 
with our own auditors that inspect that work. We make on-the-
spot corrections for any contractors that might haul anything 
else. If there is something wrong, that the contractor is doing 
wrong, they just aren't paid. But we have a great deal of 
monitors, and we got monitors also from around the Federal 
Government, Bureau of Reclamation, even Department of State. We 
asked Department of Defense, they offered up personnel from the 
Air Force to increase our ability to monitor, as well as 
contract quality assurance.
    In addition to that, we asked for our own criminal 
investigation command to bring people on, and we have found 
some work that was improper. There were indictments; there are 
some people in jail for doing that work.
    So it is very, very closely monitored, and I think we are 
confident we have all the waste streams distributed properly 
and also recycled where most appropriate. So there is a great 
deal of recycling going on as well.
    Senator Jeffords. Thank you.
    Senator Inhofe. Thank you, Senator Jeffords.
    I will say to Senator Obama and Senator Clinton, we will 
only have one round of questions, so if you need to go over a 
couple minutes, that is fine.
    Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman. I will be 
relatively brief.
    Mr. Shea, based on what I saw in New Orleans, we are having 
some problems getting people back into their homes. I have 
heard repeated complaints that FEMA's ability to address 
housing needs after a disaster of this magnitude is inadequate. 
So I wanted to specifically ask you what changes you thought 
could be made to the Stafford Act in order for the Federal 
Government to do a better job restoring people in their homes, 
making sure that we are minimizing delays wherever possible.
    If you could also address specifically some concerns that I 
have heard about the difficulty in getting even temporary 
housing in apartment buildings, and relying on trailers instead 
because there were some constraints in terms of how money could 
be spent by FEMA. So if you could just address some of those 
questions.
    Mr. Shea. Thank you, Senator. Well, in general, I think it 
would be fair to say that FEMA's traditional methods of 
providing temporary housing have not worked well in the 
aftermath of Katrina. I don't think there is any mystery about 
that. Historically, what we have done is used mobile homes or 
travel trailers as a mechanism to put people back close to 
their property so they can be involved in the rebuilding 
process, and largely that has gone on down in the New Orleans 
area.
    But because of the fact that so many people were pulled out 
of that area during the evacuation processes, re-establishing 
that community in general has been very challenging, and I 
think it will continue to be challenging for a while yet to 
come. We are very concerned about it. We are working very hard 
right now to make sure that we do meet the needs of every 
individual. We are in touch with them basically on a regular 
basis to gage their situation and provide whatever relief we 
can to them.
    We are looking at ways, within the framework of the 
existing law, actually, of trying to provide expedited 
assistance. Amongst other things, we are increasing our 
capacity to do intake registration. We now have plans in place 
to go to the shelters and actually do the intake and 
registration of individuals directly in the shelters. We have 
mobile vans that we are now fielding to be able to put into 
place to get to populations when they are cut off from other 
mechanisms to be able to do it.
    So I think we are largely working within the framework of 
the law to address this.
    The other thing I would say, as Senator Clinton indicated, 
there are a variety of reports that we are still in the process 
of looking at, and they include the White House, the Senate has 
helped us with some guidance, the House has, the Inspector 
General of DHS, the Government Accountability Office. So we are 
still going through all of that and have not come up with any 
final recommendations that might include changes to the 
Stafford Act.
    Senator Obama. Any sense of how long that review is going 
to take and when you will actually have----
    Mr. Shea. Well, we are working very hard on it and I 
suspect by late summer, early fall we should have some 
indication of where we are going with all of that. It is not as 
if we are just sitting there and----
    Senator Obama. No, I understand you are trying to respond 
where you can, but it would be useful to us to have that 
review, obviously, if there are going to be legislative changes 
that are coming out of it.
    I have only a brief time remaining. Let me shift gears real 
quick. One of the things that I was deeply concerned about was 
a disjointed mechanism for reconnecting families after a 
disaster, and obviously that would apply not just in a 
situation like Katrina. You can imagine the panic if there was 
a terrorist attack in a city.
    As far as I can tell, federally sponsored entities like the 
National Center for Missing and Exploited Children, the 
National Center for Missing Adults, the Red Cross, and the 
Louisiana Family Assistance Center, they all worked on this 
effort, but there wasn't much coordination and support from 
FEMA.
    Under Secretary Paulson, based on a conversation I had with 
him, FEMA plans to rely on the Red Cross, primarily, to 
undertake this task, and I am not entirely clear or comfortable 
as to why FEMA doesn't have a more central role in this. Is it 
going to be engaging the Department of Justice, which has 
jurisdiction over the Center for Missing Adults and Missing and 
Exploited Children? Is it going to be dealing with the 
Department of Health and Human Services, which provides primary 
support for the Louisiana Family Assistance Center, the Red 
Cross?
    How can we coordinate this in a more effective way? I have 
some legislation that is currently being considered. It just 
strikes me, with modern technology, we should be able to come 
up with a better solution than what we have seen so far.
    Mr. Shea. As you indicated, Senator, that is one of the 
areas that we have been in deep discussion with the American 
Red Cross on. They have, on their own, I think, undertaken an 
upgrade of their automated data processing systems. Part of the 
mechanism by which FEMA operates is we are a relatively small 
Agency, and, as such, there are a variety of different issues 
out there. Our main mechanism for dealing with it is to look 
towards areas of expertise. As was indicated by this panel 
today, when we are confronted with debris removal, we turn to 
the Corps and to the Environmental Protection Agency. So we 
feel pretty strongly and we spent a lot of time with the 
American Red Cross to have them do this.
    That is not to say that we won't explore other mechanisms. 
We recently embraced an organization called Save the Children 
to be able to help us with some of our mobile home parks down 
there in the Louisiana area and other areas of the country. So 
we are looking at mechanisms by which we can partner both with 
the public sector and the private sector to be able to address 
issues of the kind that you have outlined.
    Senator Obama. OK.
    Mr. Chairman, I know my time is up, but what I would like 
to do is to, if I may, submit some questions for the record.
    Senator Inhofe. That would be fine. I might suggest on the 
second panel we do have an American Red Cross witness.
    Senator Obama. Unfortunately, I can't stay.
    Senator Inhofe. I see.
    Senator Obama. But I would like to.
    Senator Inhofe. Very good.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I think you can tell from both our statements and our 
questions that we have a lot of concerns. I would sort of list 
a number of those for me: long-term health monitoring and 
treatment; the types of assistance that are available, low 
interest loans versus grants, which in some situations I think 
may be called for; large-scale long-term housing after 
disasters; registering numbers of individuals for assistance 
for reconciling families, for doing that as well as to try to 
get a better system to avoid the waste that we have now been 
hearing about, just billions of dollars wasted, trailers 
rotting in a field near the Hope Airport in Southwest Arkansas; 
debris removal, which has been referenced; and no-bid 
contracts. Those are all areas of deep concern to me.
    I would ask, Mr. Chairman, for the opportunity to submit 
additional questions in writing to try to elicit further 
information from these agencies.
    Senator Inhofe. Sure. Without objection. I might also add 
that several other Members who are not here will be submitting 
questions for the record.
    Senator Clinton. Thank you.
    Let me ask you, Mr. Shea, what FEMA's attitude is toward 
creating some kind of long-term recovery entity, either within 
FEMA--but given the constraints you face, I understand why that 
might be difficult--or at least coordinated by FEMA so that 
localities and States that are overwhelmed, as we have seen 
with 9/11 and then with Katrina, could immediately set up some 
kind of medical mental health tracking and treatment protocol?
    Senator Voinovich and I have introduced the Disaster Area 
Health and Environmental Monitoring Act, which would amend the 
Stafford Act to allow the President to set up monitoring 
programs in order to protect and track the health of first 
responders and residents, with a priority on tracking first 
responders with high degrees of exposure to known toxic 
substances. Do you believe that this is an additional both 
responsibility and opportunity for our disaster response 
mechanism?
    Mr. Shea. Senator, I guess my comment would kind of read as 
follows on that. I know that under your leadership that we 
began looking very hard at some issues surrounding the 
implications of 9/11, and I think, frankly, part of the 
experience, we have been involved in that now for well over a 
year and it has been a beneficial experience, no question about 
it. One of the things that is a little unnerving is that there 
is no conclusions to it, so we are still struggling with that. 
But we do believe that the health and safety aspects of the 
Stafford Act are fairly significant and are ready to address, 
should we know what the issues are to be addressed. So that is 
one of the constraints on us at this moment, I think.
    Senator Clinton. Well, that is an area that I would like to 
work with you on further. I appreciate the fact that we did get 
Mr. Howard appointed to do the work that he is now doing, and I 
think that is going to be also very informational.
    I wanted to ask General Riley, you know, debris cleanup has 
been identified as a real holdup. I talked with Mayor Nagin 
from New Orleans on Monday and asked him how the lower 9th Ward 
was going, because I was there in December. He said not much 
has happened. There are other places within Louisiana and 
Mississippi where you get the same response. I am very 
concerned about this and wonder, General, if you think we need 
to make some changes in the Stafford Act or the National 
Response Plan Agency activities in order to do a better job of 
getting on the stick with this and getting it done more 
efficiently.
    General Riley. Yes, Senator, there is clearly, at 9th Ward, 
a challenge, and mainly the challenge has been--well, very 
quickly, the Corps was able, under FEMA's mission assignment, 
to move and clear the rights-of-way, and that happened fairly 
quickly. What the challenge was then is the slow return of 
residents. As residents return, they will put more debris out 
in the right-of-way, so we will go clean that up fairly 
quickly.
    The real challenge in the 9th Ward and other areas that 
were heavily damaged was obtaining the right of entry signed by 
the resident and the bank and the mortgage company and through 
the State, FEMA, and the community, before it got to us. So the 
only thing that the Stafford Act can do, I would think, would 
be take away personal rights of their property. So I would hate 
to see that. It is a very deliberate procedure, but its all in 
the interest of protecting personal property rights. We just 
don't go on their property.
    Now, if there is a tree that is about to damage public 
property, we can go onto private property and take care of 
that. But in any other instance we defer to their personal 
property rights and get a signed right of entry before we enter 
on that private property to demolish a structure, for instance.
    Senator Clinton. Well, General, you know, I think that 
sounds real good, but what I have heard, both from New Orleans 
and from some of the surrounding parishes, is that there were a 
lot of contracts that were given to independent debris removal 
companies, and they haven't done the job either. So, I mean, it 
is like you are not doing the job because you can't get 
permission, but everybody I talk to says they have been waiting 
desperately now for months to get somebody to come remove their 
debris. So, I mean, I think we are kind of in a circular 
position here, and it doesn't add up to me.
    As part of our review, I think it would be appropriate, Mr. 
Chairman, to ask the Army Corps and FEMA for a breakdown of the 
debris removal contracts let during Hurricane Katrina, you 
know, who got them, what the dollar amounts were, who the prime 
contractors subcontracted out of, because what I have been 
hearing from people is that the money has just been dissipated; 
it went to some, you know, prime contractor who subcontracted 
to somebody else, who subcontracted to his brother-in-law, who 
contracted to, you know, his uncle, and by the time it got down 
to the person who was supposed to go haul the debris away, 
there was hardly any money left.
    So I think we need to look into this, because it may be 
that we want to recommend, you know, pre-positioning material 
and having contracts already on the ready and having qualified 
people who can perform this function at a cost-effective rate 
that saves the taxpayers dollars. So I am certainly far from 
satisfied that this is an area that we have done a particularly 
good job in. In fact, I think we have failed miserably in many 
instances, and I think we can do better. So I think, Mr. 
Chairman, this is one place we need to emphasize.
    Senator Inhofe. You know, Senator Clinton, what you might 
do at this point is go ahead and direct that question to one of 
the witnesses for the record with a response, and find out. I 
think it is a good idea.
    Senator Clinton. Well, I would like to ask both General 
Riley and Mr. Shea to provide us with information about the 
contracts that were let with respect to debris removal after 
Katrina. Will you do that, General?
    General Riley. Yes, Senator, sure will.
    Senator Clinton. Thank you.
    Mr. Shea?
    Mr. Shea. We will.
    Senator Clinton. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Clinton.
    Let me just, for the record also, I will probably direct it 
at you, Ms. Dietrich, I had said in my opening statement that 
it has been called to my attention there are existing landfills 
that have not been fully utilized and others are being built, 
and I would like to specifically have you respond for the 
record--the Satellite D landfill and the River Birch landfill, 
one of which is lined, I think the River Birch, and the other 
is not--as to if they are going to be used or have they been 
used, or if not, why not? If you could do that for the record, 
unless you have the information now.
    Ms. Dietrich. I don't have that information with me today, 
but I will be happy to provide that for the record.
    Senator Inhofe. That is good.
    OK, I think Senator Jeffords had one more question that he 
wanted to ask.
    Senator Jeffords. Yes.
    Ms. Dietrich, I note that in your testimony you say that 
EPA debris activities are winding down. I understand that there 
are between 15,000 and 22,000 homes still to be demolished. How 
can EPA's job be done?
    Ms. Dietrich. Well, our job primarily has been to collect 
household hazardous waste. I think primarily the demolition 
mission will be handled by the Corps and the States. So while 
we are winding down with regard to the amount of household 
hazardous waste, we certainly will stay abreast of the 
situation. To the degree that we are given a mission assignment 
to extend on demolition, we will do so.
    Senator Inhofe. All right, we are prepared to dismiss this 
panel unless there is a further question.
    [No response.]
    Senator Inhofe. All right, you are dismissed, and we 
appreciate very much your participation today.
    We would call up the next panel, which is Armond Mascelli, 
who is the vice president of Domestic Response for the American 
Red Cross; Pamela Pogue, the chair of the Association of State 
Flood Managers, the State Floodplain Management, the State of 
Rhode Island; and Tamara Little, who is the chair of the Legal 
Council Committee, National Emergency Management Response 
Association.
    We welcome you to this panel. We will start with the 
opening statements from the panel in the order that I 
introduced you, which will start with you, Mr. Mascelli. I 
would like to ask that you try to confine your opening 
statement to 5 minutes, and your entire statement will be made 
a part of the record.
    Mr. Mascelli.

   STATEMENT OF ARMOND MASCELLI, VICE PRESIDENT OF DOMESTIC 
                  RESPONSE, AMERICAN RED CROSS

    Mr. Mascelli. Thank you, Mr. Chairman.
    My name is Armond Mascelli, and I am the vice president of 
Domestic Response for the American Red Cross. Thank you for 
inviting me to testify before you today on the Stafford Act. I 
will keep my oral remarks very brief.
    This is an important hearing. Disasters have evolved and 
changed in our country and so, too, as a result, must public 
policy that supports our collective response and mitigation. I 
want to address the issue areas requested by the committee by 
providing some quick recommendations. First, we suggest that it 
is essential that there is a crosswalk between the Stafford Act 
and the National Response Plan. While the Stafford Act has 
proven to be a fair apparatus for Federal response to recurring 
disasters, we believe it is important to make sure that the 
Stafford Act matches this new Federal Response Plan, 
particularly in the plan's areas of catastrophic disasters.
    Second, in passage of the Disaster Mitigation Act of 2000 
under the Stafford Act, the Congress listed six intentions or 
six purposes in that Act, to include revising, broadening the 
scope of the existing disaster relief programs; encouraging the 
development of comprehensive disaster preparedness plans and 
activities in State and local government; achieve greater 
coordination, responsiveness between the Preparedness and 
Relief Programs; encourage individuals and States and local 
governments to protect themselves by obtaining insurance 
coverage to supplement or to replace government assistance; to 
encourage hazard mitigation measures to reduce losses; and 
then, finally, to provide Federal assistance programs for both 
public and private losses sustained by disasters.
    I would suggest that all these intentions of Congress are 
still valid today. While these six intentions have gotten some 
traction since passage, we believe that they have not been 
fully realized.
    To better realize these disaster outcomes, we believe that 
the Stafford Act and other acts by Congress should tie 
mitigation funding and programs to goals and concrete measures. 
Mitigation is important. We believe that the government sector 
can play a more effective role in ensuring mitigation practices 
are implemented.
    Second, since the Disaster Mitigation Act of 2000, our 
Nation has experienced a major terrorist attack, as well as a 
truly catastrophic natural disaster. In light of 9/11 and 
Hurricane Katrina, and with the impending threat of additional 
terrorist attacks, the forecast that is set of future 
destructive disaster seasons, and pandemic influenza, we 
believe that the Stafford Act needs to be examined and also to 
consider these type of likely disasters.
    We also suggest that the committee look at the 
effectiveness of the individual assistance programs under 
Stafford in relation to the needs and experience of disaster 
victims. This assistance can, we believe, be altered in some 
ways to better support and ensure that the needs of disaster 
victims are being met in a more effective and efficient manner.
    I would encourage the committee to be mindful that, unlike 
perhaps other Stafford Act constituents, there is not an 
organized group of disaster victims with the ability to 
advocate their case before Congress, particularly before 
disasters happen.
    Mr. Chairman, Members of the committee, the American Red 
Cross is listed in the Stafford Act. We believe this is 
important because it acknowledges the unique role of the 
American Red Cross, but also the importance that non-government 
organizations play in disaster preparedness and response 
efforts.
    Again, I appreciate the opportunity to be here today, and I 
would be happy to answer any of your questions.
    Senator Inhofe. Thank you, Mr. Mascelli.
    Ms. Pogue.

  STATEMENT OF PAMELA POGUE, CFM, CHAIR, ASSOCIATION OF STATE 
FLOOD MANAGERS, STATE FLOODPLAIN MANAGER, STATE OF RHODE ISLAND

    Ms. Pogue. Good morning, Chairman Inhofe, Ranking Member 
Jeffords, and Senator Clinton, and other members of the 
committee. I am Pam Pogue, and I am the chair of the 
Association of State Floodplain Managers. I am also the State 
floodplain manager for the State of Rhode Island.
    The Association and its 24 chapters represent over 9,000 
State and local officials and other professionals who are 
engaged in all aspects of floodplain management and hazard 
mitigation, including management, mapping, engineering, 
planning, community development, hydrology, forecasting, 
emergency response, water resources, and insurance. Many 
members of our Association work right now with communities who 
have been directly impacted by Katrina, Rita, and Wilma, and 
work with organizations that are assisting with these 
rebuilding and recovery efforts.
    We appreciate the invitation to share our views with you on 
the improvements that need to be made to enhance the Stafford 
Act and to improve disaster loss reduction in our Nation.
    Disaster mitigation is critically important. Mitigation, 
when practiced and implemented, is how we keep structures and 
people out of harm's way. Mitigation, when institutionalized at 
the State and local level, helps to keep communities survive, 
despite whatever damage has been wrought. Mitigation is also 
how we save the Federal Government huge expenditures in 
disaster relief. For the first time, we now have a report that 
quantifies the benefits of mitigation. The study was done at 
the congressional request of FEMA and FEMA tasked the Institute 
of Building Sciences to complete the research and report on the 
final results. We now know that for every $1 invested in 
mitigation, we have a $4 return. For flood mitigation it is 
even higher; for $1 we receive a $5 return for every 
investment.
    We have established now that mitigation is a good 
investment and a very smart local practice. Now we need to 
examine how we can bring our mitigation programs to achieve 
these critical goals for the citizens in this country. I would 
like to offer the committee five recommendations towards this 
end.
    No. 1, additional authority is needed for the 
administration of the Hazard Mitigation Grant Program and 
should be delegated to qualified States. With regard to FEMA 
and the Hazard Mitigation Grant Program, we think that it needs 
to be run much more efficiently and expeditiously, and can 
certainly be done by those States that are qualified. FEMA has 
not initiated action to implement section 404(c), Program 
Administration by States. Currently, of the States that have 
FEMA-approved enhanced mitigation plans, seven States--and two 
are pending--are poised to assume this additional 
responsibility and authority that Congress has already 
anticipated would be delegated.
    Many of the communities that have very active mitigation 
programs are in these same States and would greatly benefit 
from their States' assuming this additional administrative 
responsibility and authority. The benefit for a State to be 
delegated this authority is that the duplication of efforts 
that currently exists between the State and the regional 
offices in reviewing and processing these grants could be 
avoided.
    Therefore, processing the funding from HMGP could be 
expedited, the funding could be obligated and then spent in a 
much timelier fashion. By delegating additional HMGP authority 
to those States that are capable and eligible, FEMA is 
supporting enhancement of State capacity and decreasing the 
processing time, program delays, and grant costs.
    The Federal Government, including FEMA, needs strong 
capable State and local mitigation programs if the costs and 
sufferings of disasters are going to be reduced.
    The ASFPM would recommend that report language expressing 
the committee expectation that FEMA is to undertake the 
consultation of State and local governments, and implement 
delegation of authority for the administration of the Hazard 
Mitigation Grant Program. The Association also recommends that 
the committee direct FEMA to continue to improve the delivery 
of post-disaster programs to meet the needs and demands of 
States and communities, possibly within a 90-day turnaround of 
receiving that grant.
    No. 2, communities that refuse to participate in the 
National Flood Insurance Program should not be eligible for 
public disaster assistance. There are communities with 
identified flood hazards that choose not to participate in the 
National Flood Insurance Program, thereby allowing development 
and public infrastructure in special flood hazard areas. As a 
result of not being an NFIP community, the citizens of that 
community are not eligible to purchase national flood 
insurance. Ironically, however, these same community leaders 
that choose not to join the NFIP can still apply for and 
receive disaster assistance even for buildings located in flood 
hazard and high risk areas.
    This is poor public policy because it rewards communities 
that allow at-risk development and because they know FEMA and 
the public tax dollars will bail them out. It also penalizes 
those communities that do the right thing because these 
communities help to pay for those that do nothing.
    The Association would recommend that the committee clarify 
that all public assistance for any damaged public buildings and 
infrastructure located in FEMA mapped special flood hazard 
areas is to be withheld from communities that have declined to 
participate in the National Flood Program.
    No. 3, the Stafford Act authority should be expanded during 
catastrophic events. The Stafford Act has proven to be 
effective for most disasters; however, additional provisions 
are needed to address the challenges that arise during those 
events that far exceed State and local capacity that are 
critically important in post-disaster recovery issues. Whether 
catastrophic or even of a regional impact of some significance, 
the results of natural disasters on a community is that, to 
varying degrees, some routine governmental functions suffer, 
such as the planning, the permitting, and inspection to ensure 
adequate management of the rebuilding process.
    Citizens may start to repair and rebuild before safety 
inspections are done and conducted, before building permits are 
issued, which put these businesses and families back into 
harm's way. In addition, when an event causes these impacts, 
disaster assistance may be required up to 12 to 24 months. 
FEMA, DHS, has consistently denied reimbursement of costs 
associated with private property damage inspections and 
permitting, despite congressional findings in the Stafford Act 
that because disasters often disrupt the normal function of 
governments and communities, and adversely affect individuals 
and families with great severity, special measures designed to 
assist the efforts of those affected States in expediting and 
rendering aid assistance and emergency services, and the 
reconstruction and rehabilitation should be necessary for 
reimbursement.
    My final recommendation----
    Senator Inhofe. I am counting, and I counted three.
    Ms. Pogue. I know you are. I saw you and I am jumping to 
the last one.
    Senator Inhofe. Let's try to wind up.
    Ms. Pogue. Finally, the impact of FEMA's reorganization on 
the Stafford Act programs. Prior to be reorganized and 
incorporated into the Department of Homeland Security in 2003, 
FEMA was a lead organization. Since the mid-1990s, it had 
responded to both natural and man-made events in an effective 
manner. The ASFPM was concerned from the beginning that the 
inclusion of FEMA into DHS would not bode well for the progress 
the Nation has made in reducing our risk to natural hazards. 
Unfortunately, there is mounting evidence that our concerns 
have been realized. FEMA has gone from a small independent 
agency with direct access to the President to just one among 
many entities in a huge organization. The Nation has gone from 
mitigation being the cornerstone of disaster programs to having 
the word and concept nearly excised from the emergency 
management lexicon. Even though assurances were made during the 
legacy missions of these organizations would continue, 
terrorism was and is the primary focus of DHS, which ASFP 
agrees is appropriate for DHS. State and local emergency 
managers, especially those in areas prone to these recurring 
hazards, are lamenting the loss of the FEMA we once knew.
    The following have been and continue to be specific 
concerns: the transfer of specifically authorized FEMA and NFIP 
funds to support other DHS functions; detailing FEMA staff out 
of the mitigation directorate; not filling vacant positions 
throughout FEMA, including senior leadership positions; and 
extensive delays in FEMA policy decisions and guidance due to 
the added layer of DHS bureaucracy.
    I would like to thank the committee.
    Senator Inhofe. Ms. Pogue, let me ask you a question. How 
long have you been in the position you are in right now?
    Ms. Pogue. As the State floodplain manager in Rhode Island 
or as----
    Senator Inhofe. No, in Rhode Island.
    Ms. Pogue. In Rhode Island? Seven years.
    Senator Inhofe. OK. So you remember what it was like 
before.
    Ms. Pogue. Oh, I certainly do.
    Senator Inhofe. That is what I wanted to get.
    In fact, I have to tell my fellow members up here that we 
had structured this panel so that the first panel would be kind 
of the providers and the second the customers.
    I was going to admonish you, when it was my turn to ask 
questions, not to be shy about your answers. I have a feeling I 
don't need to do that.
    Ms. Little.

STATEMENT OF TAMARA S. LITTLE, CHAIR, LEGAL COUNSEL COMMITTEE, 
           NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Ms. Little. Thank you. Good morning, Chairman Inhofe, 
Ranking Member Jeffords, and Senator Clinton. Thank you for 
allowing me the opportunity today to represent the views of the 
National Emergency Management Association, whose members are 
State emergency management directors from all States, 
territories, and the District.
    As the Nation continues to address the recommendations of 
the various reports reviewing the preparation for, response to, 
and recovery from Hurricane Katrina, careful thought must be 
given by Congress.
    The Stafford Act is a law that the members of NEMA hold in 
very high regard. Major revisions of the Stafford Act are not 
necessary, since the law provides adequate flexibility for 
emergency management in our Nation. NEMA played a very active 
role in the drafting of Disaster Mitigation Act of 2000, and 
its members implement various sections of that Act and the 
Stafford Act every day.
    NEMA does not support creating a separate or new system 
solely to address catastrophic disasters. Not only is the 
Stafford Act nimble enough to handle disasters, large or small, 
but Congress can and has utilized its ability to make temporary 
changes to the law as particular circumstances require. Any 
revisions to the Stafford Act must be thoughtful, deliberate 
,and closely vetted through stakeholder groups with proximity 
to the outcomes, such as NEMA and the other members of the 
Stafford Act Coalition. Policy guidelines, most recently, 
strategies are often issued without notice, coordination, good 
statutory or regulatory foundation, or congressional oversight.
    The Disaster Mitigation Act of 2000 was adopted to create a 
predisaster mitigation program and to refine current disaster 
programs that would result in cost savings for the Federal 
Government. While the legislation had a very strong mitigation 
focus, one example of how the Stafford Act has been sidestepped 
is to examine how the State of mitigation has changed over the 
past 6 years.
    Amendments to the law that occurred during the 
appropriations process reduced the formula for post-disaster 
HMGP grant program funds from 15 percent to 7.5 percent. This 
reduction prevents lessons from disasters from being 
immediately incorporated to mitigation projects.
    What was intended to be a program that helped fund every 
State's predisaster mitigation efforts has now become a 
competitive program which often favors communities with greater 
ability to dedicate financial resources to grant applications, 
including engineering and preservation reviews.
    On a policy front, mitigation has been marginalized. While 
the Department of Homeland Security was formed and terrorism 
became a greater focus, mitigation activities received less 
focus. The life cycle of emergency management was broken when 
preparedness was moved from FEMA to create a new Preparedness 
Directorate within DHS in 2005, and mitigation rated only a 
mere mention in the National Response Plan.
    There is some good news. Every single State and many local 
governments now have plans in place to pre-identify mitigation 
priorities prior to disasters if and when Federal assistance 
would be available for the execution of those projects. 
Additionally, some States took on the greater responsibility of 
obtaining approval of enhanced mitigation plans, enabling those 
States to be eligible for up to 20 percent of disaster costs 
for HMGP by acting as a managing State. Currently, as Ms. Pogue 
related to you, seven States, including Ohio, have received 
approval of their enhanced plans. However, HMGP should be 
restored to 15 percent of disaster costs for all States.
    As new changes are being considered to the Stafford Act, 
NEMA asks that the Senate pay particular attention to ensuring 
mitigation opportunities are increased by fully funding those 
programs and allowing the important changes to DMA2K to have 
their intended effect, that of reducing disaster costs to the 
Federal Government.
    NEMA has also identified several other areas for immediate 
improvement.
    The reduction to the repair cap for individual assistance 
was erroneously included in DMA2K and has since adversely 
impacted many disaster victims. NEMA would support making a 
change to raise the cap, which, adjusted for inflation, would 
be over $27,000.
    In addition, State and local governments need to have the 
ability to utilize Federal assistance to keep State and local 
personnel working, especially after a catastrophic disaster. In 
cases of catastrophic disaster where entities have very limited 
income sources, this is particularly important to enable 
everyone to continue the important work of response and 
recovery.
    Hurricane Katrina resulted in numerous disaster-specific 
changes in policy for debris removal. Historically, this is one 
of the most problematic areas. Six years after DMA2K, the Gulf 
Coast States still struggle with this issue. FEMA released, 
just this week, its debris removal operation strategy, and it 
is one example again of releasing a policy without good 
coordination with the actual stakeholders, State and local 
governments. Our current debris removal reimbursement system is 
outdated and provides little incentive for State and local 
governments to take over the management of debris removal.
    While there is a choice of the U.S. Army Corps of Engineers 
at their prices for up to 100 percent Federal reimbursement, or 
they could choose to pay 25 percent of their own money if they 
want to take over the management of debris, again, this 
provides State and local governments little incentive. Thought 
should be given to lowering the State and local cost-share for 
debris removal if impacted communities are willing to take on 
this weighty task.
    We must find common ground and develop policies that remove 
these obstacles and accomplish debris removal goals and 
objectives without compromising the integrity and 
accountability of the program.
    On behalf of NEMA and its member State directors, I thank 
you for the opportunity to present this statement today.
    Senator Inhofe. Thank you. Let me ask you the same question 
I asked Ms. Pogue. How long have you been either dealing with 
the States' emergency management teams or the current position 
you are in?
    Ms. Little. Mr. Chairman, I have been in my current 
position for almost 18 years.
    Senator Inhofe. OK, that is good enough.
    Let me do this. You have done a great job, I think, all 
three of you, when you have outlined the problems you are 
dealing with. What I want to approach in my questions is a 
comparison, because that is why I asked if you were around 
before. So in terms of the States' response, recovery, 
preparedness mitigation functions, how have they been affected 
by FEMA's inclusion in DHS? I would like to get a kind of 
comparison of how things were before that and after that. You 
have addressed mostly what has happened after that.
    Let's start with you, Ms. Pogue.
    Ms. Pogue. I would be happy to address that. I have been in 
hazard mitigation and this area probably for 19 years; my prior 
life was as an oceanographer. But I appreciate what you are 
saying.
    The No. 1 impact that I notice as a State program manager 
for flooding, earthquakes, hurricanes--and I also was a State 
hazard mitigation officer--prior to 9/11, we had a staff in 
Rhode Island of about 16 people. Of the 16 people, I would say 
6 of us more or less had some authority or dealing with natural 
hazards. As a result of 9/11, you are looking, unfortunately, 
at the only person dealing with natural hazards for the State 
of Rhode Island. But we do have 22 contractors that are dealing 
with terrorism in Rhode Island.
    So the one thing that the direct impact--and I know that my 
State is not alone--is that there has been a tremendous 
resource drain in dealing with natural hazards, but there has 
been a phenomenal shift in responsibility and importance away 
from natural hazards and toward terrorism.
    Senator Inhofe. All right.
    Ms. Little.
    Ms. Little. Mr. Chairman, I think one of the other things 
is that DMA2K authorized the enhanced plan program, the 
managing State role, which many States embraced immediately. 
Since many States and local governments currently have these 
plans in place, they are ready to move in this role and to 
hopefully allow mitigation programs to occur faster so that 
more projects can be completed with money that is available.
    Senator Inhofe. But is it fair to say that the mitigation 
has been less featured since FEMA became a part of DHS?
    Ms. Little. Mr. Chairman, I would say that is certainly 
true.
    Senator Inhofe. What do you think?
    Ms. Pogue. I couldn't echo that sentiment strong enough. 
Absolutely true.
    Senator Inhofe. OK, what thoughts do you have, Mr. 
Mascelli?
    Mr. Mascelli. I have a little bit of a different 
perspective in the sense that the scope, risk of disasters are 
increasing at a significant rate. Look at the demographics of 
our country, look at where people are settling and living, et 
cetera. So certain things like mitigation become really 
important, become more important than perhaps were given 
attention a few years ago. If they are not addressed in an 
effective way, the same as we look at response, we look at 
planning, we look at some of the other components of emergency 
management, then we will never get to the point where effort is 
matching what the results we are looking for.
    So how the Government structures and what it does is up for 
the Government to decide, but the reality is the end result. 
Disasters are more expensive. We are having large disasters. We 
have a significant pattern of hurricanes coming up, 
meteorologists tell us, over the next several years. So is all 
that activity, regardless of how we structure it, actually 
going to give us the benefit that we are looking for? There is 
a shortfall there.
    Senator Inhofe. You heard me say in my opening statement 
that FEMA had set their goals to reducing risk of loss of lives 
by 10 percent and property by 15 percent by 2007. What is your 
feeling about whether they are going to be able to meet this 
goal? If not, what changes should be made to help them do that?
    Mr. Mascelli. A couple things. I would suggest that 
probably the most effective mitigation activity we have had in 
the country is in the State of Florida, for a number of 
reasons, but one of the reasons for that is that it engaged 
more people, the private sector, for example. Clearly, the 
State of Florida took some actions after Andrew, for example. 
Insurance companies deciding raising rates or leaving the 
State, et cetera. So it ended up taking a lot of constructive 
action. Statewide building codes, for example, and a number of 
other things that I think we saw the benefit of that in the 
four hurricanes that they had back a couple years ago.
    So I think that while the Government should engage--it 
needs to be local, State, Federal Government--it also needs to 
engage other sectors of the economy or other sectors of the 
country. Then also, too, individuals are really important. If 
the message is not down to the individual citizen and the 
individual taxpayer in terms of things that they should be 
doing or not doing that is going to have an impact on future 
disasters, then I don't think they are meeting the full 
equation.
    Senator Inhofe. Any other comments?
    Ms. Pogue. Yes. I think one of the biggest hits as a State 
person, now wearing my State emergency manager hat, has been on 
our regional offices. FEMA has 10 regional offices, and I think 
their workload has probably increased exponentially, and we 
have a tremendous reliance on them, and yet they are strung all 
over the place; they are pulled apart in 15 different 
directions. You know, my hat is off to them, you know, but they 
are just not there in many, many ways, even though they 
absolutely want to be there. I know prior to 9/11 they were one 
of our greatest resources in terms of dealing with and 
addressing and implementing hazard mitigation. So I would say 
even at the regional level it has taken a tremendous hit on 
those folks as well.
    Senator Inhofe. All right. Any comments on that?
    [No response.]
    Senator Inhofe. All right, Senator Jeffords.
    Senator Jeffords. I would like each of the witnesses on 
this panel to respond to this question: What changes should be 
made in the Stafford Act to ensure the Federal Government has 
the appropriate authorities to respond to all types of events, 
including biological agents, weapons of mass destruction, or 
epidemics in a coordinated, planned manner, given the 
definitions of emergency and major disaster in the Act?
    Mr. Mascelli. I know that, for example, the definition of 
disaster by Stafford doesn't include pandemic, for example. I 
know that when we had 9/11, in terms of applying Stafford, 
looking at the explosion word and covering the 9/11. But it 
seems that, as I said in my statements, the scope of the 
disasters and the types of disasters we are facing as a country 
is changing. If Stafford is going to be the principal mechanism 
by which the Federal Government is going to respond, fund, et 
cetera, then it needs to be as inclusive as possible, looking 
at things like pandemic, the bioterrorism, and other types of 
activities.
    Ms. Pogue. I have to say, taking that to our statewide 
level, we too--keep in mind that the local emergency managers 
in all of our cities and towns throughout the country are 
tasked with--they usually have themselves and nobody else in 
terms of staff--writing a bird flu plan, a pandemic flu plan, 
an emergency operation plan, a local hazard mitigation plan, an 
evacuation plan. One person.
    So I would have to say one of the things at the State 
level, because I tend to be the bad guy, you know, wanting 
these plans, is to try to separate, sort of separate and 
conquer or divide and conquer. What we do at the State level, 
for example, with the bird flu plan and the pandemic flu plan, 
is work with the Department of Health. So we sort of sort it 
out and we just sort of coordinate, rather than throwing this 
at everybody, and you don't lose the actual value of the 
mission.
    So I think in some way, instead of throwing everything at 
one particular Agency and having them try to deal with all 
this, which, you know, they are pulled apart in so many 
different directions, you sort of need to basically organize--
organize, coordinate, and collaborate--otherwise it is never 
going to get done. The resources just aren't there.
    Ms. Little. Senator Jeffords, I think the members of the 
State emergency managers believe that the definitions in the 
Stafford Act work fine now. They can be expanded. They are 
scalable, they are flexible, as was proven both after 9/11 and 
after Hurricanes Katrina and Rita.
    Senator Jeffords. Thank you.
    For Mr. Mascelli and Ms. Little, what are your 
recommendations with regard to the potential creation of a 
third category of declaration under the Stafford Act that would 
be reserved for catastrophic events for which special rules 
would apply?
    Mr. Mascelli. To go back a bit, I think one of the best 
things that the National Response Plan, when it was created, 
did was actually look at catastrophic disasters. I, myself, 
have been doing this for a fairly long time, and I know that as 
soon as you talked about catastrophic, it was always put on the 
shelf because it was too hard to handle, and the National 
Response Plan took that head-on.
    I think one of the things it showed us, and I think also 
what we saw, quite frankly, in Katrina and Louisiana, as 
catastrophic events are significant events that are different 
by scope, magnitude, touch, feel, a whole variety of other 
characteristics, than they are than the flood, hurricanes that 
we normally experience--and also what we are grappling with now 
in terms of all the after-action reports that are being done, 
all the issues and problems that came up with Katrina, looking 
at some of the issues we talked about this morning: recovery, 
housing, looking at re-establishing the economy, et cetera--
that normally you don't have when you are dealing with 
disasters.
    So clearly, if we are still at this point, where we are not 
comfortable in terms of where we are with recovery, et cetera, 
for Katrina, then clearly it indicates that something needs to 
be looked at in a different way and perhaps approached in a 
different way.
    I think also, too, again, looking at the specifics, 
evacuation, and looking at some of the other issues that came 
up where it did not work well, or there were problems there 
that were addressed what is the normal way that we do things, 
then clearly we need to look at it from a different 
perspective.
    So that is a long way around the block, but my way of 
thinking that you need to look at catastrophic events as 
different events than routine disasters.
    Senator Jeffords. Thank you very much.
    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Clinton.
    Senator Clinton. Thank you. I certainly agree with that, 
catastrophic events are, by definition, different, and we need 
a plan to deal with that.
    I wanted to ask all three of you, you know, during the 
1990s, we had close coordination with State and local 
governments through Project Impact. Now we have the Disaster 
Mitigation Act which, based on your testimony, we are not 
really yet fully understanding, implementing, making sense of. 
Let me ask each of you, starting with you, Ms. Little, do we 
need to restore Project Impact as a model for how to coordinate 
better at the State, local, and Federal levels?
    Ms. Little. Senator Clinton, I am not sure that it matters 
that it is exactly Project Impact, but certainly both pre- and 
post-disaster mitigation are very important to reducing 
ultimate government costs for disasters. If States can be 
allowed this enhanced role of managing, then there will be 
close coordination not only with State and local governments, 
but also with the private sector, which is very important.
    As long as the private sector and the citizens are also 
invested in mitigation opportunities, at the funding that they 
have to put in and with the funding that the Federal Government 
has to put in, then it can be a complimentary and coordinated 
effort in that regard. So I am not sure that it matters that 
you call it Project Impact, but both post-disaster and pre-
disaster mitigation are vitally important.
    Senator Clinton. Do each of you agree with that, Ms. Pogue 
and Mr. Mascelli?
    Ms. Pogue. I think the greatest value of Project Impact--I 
was a State coordinator for Project Impact and Rhode Island won 
Most Outstanding State one year--was the link with the private 
sector and the business community. It is all about disaster-
resilient communities, and a community is not going to be 
disaster-resilient or sustainable unless you look at the 
economic impact on that community.
    The greatest value to Project Impact--and I can speak on 
behalf of the State of Hawaii and the State of Rhode Island--is 
that we had a direct connection with our State Economic 
Development Commission, our realtors, our chambers of commerce, 
and our local private business people. That, more than anything 
else, I think, and a lot of fantastic things came out of 
Project Impact, but that, to me, is what is missing now, is a 
direct connect with the business community, and they took on 
the responsibility of dealing with what happens when and what 
happens if, and preparing for that.
    Senator Clinton. Well, I would just underscore that.
    You agree with that too, Mr. Mascelli?
    Mr. Mascelli. I agree in the sense that whatever we call it 
or whatever it is----
    Senator Clinton. It doesn't matter what we call it, right?
    Mr. Mascelli. It doesn't matter. I think it is the right 
attention given where mitigation is actually producing the 
results we needed to produce.
    Senator Clinton. Well, I have been visiting with lots of 
businesses, obviously, in the last 5 years, since 9/11, and it 
is surprising to me how desperate they are to get good 
information. You know, big shopping center owners, other large 
business interests, some of the companies that run recreational 
facilities, entertainment venues, they don't know where to go 
anymore, and they have been knocking on a lot of doors and, 
frankly, the doors aren't opening up for them. So I think this 
is an area of great importance going forward.
    Ms. Pogue, I wanted to ask you, you know, we have now had 
18 months of severe flooding in upstate New York. We have had 
two 100-year floods and one 300-year flood, and it has been 
devastating, because most of the communities up there, along 
the Susquehanna, along the Delaware, you know, the Mohawk, they 
are small rural communities, beautiful communities. Some of 
those areas had 30-year-old flood maps. They didn't have any 
idea of how best to protect themselves, and the first flood 
came and they scrambled for help and, frankly, didn't get a lot 
of help from the Federal Government. Second flood came and they 
haven't even recovered, and now we have had this horrible 
third, 300-year flood.
    So what else can we do to try to provide communities with 
updated and accurate floodplain maps and data, and then 
coordinate them so they are better prepared facing these 
disasters. Ms. Pogue?
    Ms. Pogue. I think primarily what you are addressing or 
what you are asking is great, because in Rhode Island we are 
having the same situation. It is about risk communication. As 
you probably know, the FEMA Mapping and Modernization Program, 
which has been underway for about 3 years or so, will be 
updating all of the flood insurance rate maps throughout the 
country. New York, as a matter of fact, has one of the more 
aggressive, proactive programs, which has been tremendous.
    So I think that--and the concerns you are addressing I 
completely empathize with because Rhode Island brags about the 
fact our flood maps are probably some of the oldest in the 
country. So I can completely understand what you are saying, 
and we too are going to be updating all of our flood maps.
    I think in addition to updating those flood maps, so people 
will be better aware of where the risks more accurately are, is 
getting into public education and outreach. Our Governor has 
basically undertaken an initiative to get the word out, because 
people do not understand flood insurance. They do not 
understand how to protect themselves. There is incredible 
misinformation out there.
    So we are actively, actively working with FEMA which, by 
the way, has a tremendous program called Flood Smart that gets 
the word out. It helps business owners as well as people who 
rent--who, by the way, don't know they can buy flood 
insurance--as well as people who own homes how they can buy 
flood insurance, where they can buy it, and what the coverage 
does entail. So I think they need to understand the risk, 
which, with the flood mapping program is going to happen, and 
then they need to understand what they can do about addressing 
that risk.
    Senator Clinton. Can I ask just one more question, Mr. 
Chairman?
    Senator Inhofe. Sure.
    Senator Clinton. I am concerned about planning and 
coordination for mass evacuations. We have seen the National 
Hurricane Center predicting severe hurricanes for this year and 
for the foreseeable future not only in the Gulf, but along the 
East Coast, and there is a particular concern about New York 
City and Long Island. In fact, the National Geographic, when 
they did their special on Katrina, at the very back of the 
magazine there was a chart about where the next disastrous 
catastrophic flooding could come from hurricanes, and New York 
City and Long Island were at the top of the list.
    Given our experience in Katrina and all of the confusion, 
given the fact that I just read that the State is still arguing 
with DHS about who is responsible for what in terms of 
evacuation, you know, who has to do the planning--I mean, this 
is really troubling to me--could each of you comment briefly 
about how we could better coordinate and expedite the planning 
for mass evacuations and what role the Federal Government, 
through DHS and FEMA, could play in trying to help get us 
organized to do this? Do you have any comments on that, Mr. 
Mascelli?
    Mr. Mascelli. Yes, ma'am. It is a very significant issue, 
and I think that right now, the way that we have it structured 
is evacuation tends to be a local issue, local county, local 
municipality, then goes to the State. The Federal Government, 
per se, has not been involved in, to a great degree, evacuation 
planning.
    But I think the reality is, again, looking at our 
demographics, look at where we have people now living. We are 
becoming more urbanized across the country and living in 
coastal areas, et cetera, that the evacuations that we saw last 
year, the Houston area, New Orleans, et cetera, are our future, 
and clearly those evacuation activities far exceed the local 
municipal capacity, county capacity, in most cases State 
capacity.
    So it would seem that evacuations, particularly these big 
operations, are really a national issue, therefore should 
involve the National Government, Federal Government in terms of 
how we get at these things. Big issue. I think we are going to 
be dealing with it for a while.
    Senator Clinton. Ms. Pogue?
    Ms. Pogue. I just completed the Statewide Hurricane 
Evacuation Routing System for Rhode Island, and I will tell you 
what came out of that. We had 210 meetings with our 
communities. We worked with the Federal Government, meaning the 
National Weather Service, and the Army Corps. We took their 
coastal inundation and flood maps and storm surge maps.
    The result is we have, for the first time, a digital geo-
referenced evacuation routing system for the entire State. What 
it meant was not just meeting with the individual communities, 
but also meeting with them in regions and getting them to 
coordinate amongst one another. So we literally have, from top 
to bottom, all 39 miles----
    [Laughter.]
    Ms. Pogue [continuing]. We have a coordinated approach to 
what is going to happen and where they are going to evacuate. 
So it can deal with a mass evacuation or just one particular 
community within Rhode Island. As a result of that, the folks 
have bought into it, they know where they are supposed to go, 
because we have a heavy tourism season in August and September, 
as well. But that took meeting with communities.
    I have to be honest with you. In terms of the Federal 
Government, you know, as a State emergency manager, I think it 
is on us. I worked with the DOT very, very closely and with our 
cities and towns, so they now know that it is their 
responsibility. They know where we have to be. We have 
preposition points that are going to be traffic choke points. 
We had a detail with, quite frankly, Federal highway money, so 
that was the Federal initiative there. They just did an 
analysis of what we came up with, and we basically were 100 
percent right on.
    So I think, like debris management, it is preplanning. You 
need to plan now in order to be able to deal with it then.
    Senator Clinton. Ms. Little.
    Ms. Little. Senator Clinton, likewise, in Ohio, we were one 
of the States that accepted evacuees and were prepared to 
accept evacuees from the Gulf Coast States during Katrina. We 
found that our partnership with our volunteer agencies and many 
other private businesses in Ohio was far more than we knew.
    I think just the fact of having gone through that once and 
now learning together, we coordinated very closely with the 
FEMA regional office in Chicago, and with our volunteer 
organizations, and several private businesses that stepped up 
very quickly, and I think as we plan together we have got to 
coordinate it not only with State and local government, but 
with private business and our very fine volunteer partners.
    Senator Clinton. Thank you so much.
    Thank you for this panel, Mr. Chairman. I guess I would 
just conclude by saying, to me, it is--you know, it is going to 
happen at the site. You know, people have to take 
responsibility for themselves, but I think we have learned that 
the Federal Government has to drive this process. When it 
doesn't, when it gets distracted or diverted or whatever 
happens, you know, a lot of places are left on their own 
without the expertise, without the experience. Frankly, that 
then comes back to cost us all money, and we have loss of life 
and loss of property that we could have avoided.
    So I think that, again, there are some things we can do, 
and clearly the Chairman and I think we can do it better than 
we are doing it, and we are going to keep pushing to try to 
make that happen.
    But I thank each of you for your years and years of 
experience. It is a wonderful panel to hear from. Thank you.
    Senator Inhofe. Thank you, Senator Clinton.
    It is the policy of the committee to leave the record open 
for a week. We have several Senators, including Senator Vitter, 
who have questions that will be submitted for the record.
    We appreciate your patience very much for your staying 
here, and we are adjourned.
    Ms. Little. Thank you.
    [Whereupon, at 11:21 a.m., the committee adjourned.]
    [Additional statements submitted for the record follow:]
   Statement of Robert Shea, Acting Director of Operations, Federal 
         Emergency Management, Department of Homeland Security
    Good morning Chairman Inhofe, Ranking Member Jeffords, and 
committee Members.
    My name is Robert Shea, and I am Acting Director of Operations for 
the Federal Emergency Management Agency (FEMA). It is an honor to 
appear before this committee to discuss FEMA's authorizing legislation, 
the Robert T. Stafford Disaster Relief and Emergency Assistance Act, 
commonly referred to as the Stafford Act, its authorities, policies and 
procedures. I am also prepared to discuss the challenges we face in 
effectively removing large amounts of debris following catastrophic 
disaster events.
    In authorizing the Stafford Act, Congress made clear its intent for 
the Federal Government to provide short-term, emergency assistance to 
individuals, States and local governments and qualified non-profits to 
help reduce the suffering and repair the damage that results from 
disasters. Congress recognized that disasters cause human suffering, 
property loss and damage, and disrupt the normal functioning of 
governments and communities. When this happens the Stafford Act 
provides a method of assisting the affected States to render aid and 
emergency services, and to help with the reconstruction and 
rehabilitation of impacted areas.
    The Stafford Act created that mechanism, and while there have been 
amendments, the basic provisions remain in place today. Through 
Executive orders, the President has delegated to FEMA, now within the 
Department of Homeland Security (DHS), responsibility for administering 
the Stafford Act. FEMA carries out a wide range of activities under the 
authorities contained in the Stafford Act, from the obvious such as 
providing assistance to individuals and communities after a disaster, 
to the not-so-obvious, such as updating flood maps, supporting the 
monitoring and inspection of dams, training emergency managers, 
developing ``rain-the-trainer'' programs, and carrying out a robust 
program of predisaster mitigation.
    In preparing for this hearing, FEMA was asked to specifically 
address two major issues, first, our policies and procedures relating 
to debris removal after a disaster and second, the impact of the 
Disaster Mitigation Act of 2000. FEMA appreciates the opportunity 
presented by this committee to discuss these issues.
                             debris removal
    I would first like to address our role and authorities under the 
Stafford Act as they relate to debris removal, which is a part of 
FEMA's Public Assistance Program, and more specifically, our debris 
removal operations following the 2005 Hurricane Season.
    Through FEMA's Public Assistance (PA) Program, State, tribal, and 
local governments and certain private nonprofit organizations are 
eligible to receive assistance for debris removal, emergency protective 
measures and the repair, reconstruction, or replacement of disaster-
damaged infrastructure to address the impacts of a Presidentially-
declared disaster. This program is operated on a cost-share basis 
whereby the Federal share of assistance is not less than 75 percent of 
the eligible cost.
    In order to be eligible for FEMA PA funding for debris removal, the 
work must:
     Be a direct result of a Presidentially declared disaster;
     Occur within the designated disaster area; and
     Be the responsibility of the applicant at the time of the 
disaster.
    In addition, at least one of the following must apply:
     Removal eliminates immediate threats to human lives, public 
health and safety;
     Removal eliminates immediate threats of significant damage to 
improved public and private property; and/or
     Removal ensures economic recovery of the affected areas to the 
benefit of the community-at-large.
    FEMA has determined that the removal of disaster-related debris 
from public property, including public rights-of-way, is eligible for 
reimbursement. Debris removal from private property may be eligible on 
a case-by-case basis.
    Disaster-related debris may consist of downed trees (vegetative 
debris), destroyed personal property including home contents and 
automobiles, hazardous waste, construction and demolition material, or 
even damaged boats and/or other debris that obstruct waterways. State 
and local applicants must comply with environmental and historic laws 
when removing disaster-related debris. Developing and executing a plan 
to remove and dispose of large quantities of debris requires 
coordination with numerous entities at all levels of government and, 
most importantly, with the citizens of the community.
    State and local governments are responsible for managing the 
removal of disaster-related debris from their communities. FEMA 
provides funding for the removal of eligible debris and may provide 
technical assistance if requested by the State. These entities manage 
the operations using their own personnel and may also contract for the 
service. They are also responsible for monitoring the debris operations 
to ensure that they are completed in a timely and efficient manner and 
in compliance with Federal, State, and local laws.
    While FEMA does not directly manage State and local debris 
operations, we do take an active role in providing technical assistance 
and oversight. FEMA deploys ``debris specialists'' to advise State 
emergency management and local officials on Public Assistance 
eligibility, appropriate contracting procedures and monitoring methods, 
and environmental compliance issues. In addition, FEMA frequently 
deploys U.S. Army Corps of Engineers (USACE) personnel to assist in 
providing technical assistance and to work with the State to develop an 
overall debris management plan for the disaster recovery process. FEMA 
may also deploy monitors to provide oversight of operations to ensure 
that the FEMA funding is provided for eligible debris removal, to 
ensure compliance with environmental regulations and programmatic 
guidelines, and to reduce the occurrence of waste, fraud, or abuse. 
FEMA field staff are very experienced in these efforts, however when 
exceptional expertise is required for complex environmental challenges, 
we enlist the EPA for that specialized assistance.
    The magnitude of large-scale debris operations in some instances 
can overwhelm the State and local government's ability to perform or 
contract for the work. In such circumstances, the State can request 
Direct Federal Assistance under section 403 of the Stafford Act, 
whereby the Federal Government assumes responsibility for removing 
debris from a specific area because the local community, as 
supplemented by State resources, is incapable of performing the work 
itself or contracting for the service. In these situations, FEMA will 
``mission assign'' the U.S. Army Corps of Engineers to perform and 
manage the debris mission. The Corps and FEMA are the two primary or 
lead agencies for Emergency Support Function No. 3 under the National 
Response Plan. The Corps' Debris Planning and Response Team and Subject 
Matter Experts coordinate closely with FEMA, State and local 
governments, and other Federal agencies to define requirements for the 
mission. In anticipation of debris missions and because of lessons 
learned during the 2005 hurricane season, the Corps has awarded stand-
by debris contracts under its Advanced Contract Initiative to minimize 
any delays in beginning the work in the aftermath of the disaster. We 
are also working with State governments to encourage similar approaches 
at the State and local level.
    In the cases of Hurricanes Katrina and Rita, widespread destruction 
resulted in unprecedented quantities of debris. FEMA estimates Katrina 
and Rita resulted in a staggering 118 million cubic yards of debris 
more than double the amount of debris produced by the four hurricanes 
that struck Florida in 2004 and six times the amount of debris created 
by Hurricane Andrew. To truly understand the magnitude, imagine 368 
football fields with debris stacked 192 feet high or every inch of 
Washington, DC covered with half a foot of debris. To haul this amount 
of debris would require approximately six million average sized dump 
trucks.
    All of the affected Gulf Coast States, Alabama, Louisiana, 
Mississippi, and Texas requested Direct Federal Assistance for debris 
removal. Although in many areas the debris mission is managed by the 
Corps, many local communities also made the decision to handle their 
own debris operations. For the Gulf Coast, we estimate that 
approximately 46 percent of the debris was handled by the local 
communities while the Corps managed the removal of the remaining 54 
percent. The USACE and local debris operations are now complete in 
Texas and Alabama. Currently in Mississippi, we estimate a total of 1.9 
million cubic yards is remaining while over 44.64 million cubic yards 
has been removed. In Louisiana, 42.9 million cubic yards has been 
removed with an estimated 17.1 remaining. In total, approximately 99 
million cubic yards of debris has been removed_about 83.8 percent of 
the estimated total for all four States. The cost thus far is just 
under $3.7 billion with a projected total cost of approximately $4.7 
billion.
    Just the act of removing, hauling and disposing of this quantity of 
debris poses a significant challenge. USACE and the local communities 
have procured and manage a large number of contractors and equipment. 
But debris management is far more complex than just procuring and 
overseeing contractors. It requires a coordinated effort from wide 
array of government agencies at the Federal, State, and local level. 
For example, a typical debris management organization includes Federal 
representatives from FEMA, the Corps, and the Environmental Protection 
Agency and State officials representing emergency management, 
transportation, and environmental agencies, to name just a few. These 
agencies coordinate with local officials to ensure appropriate 
procedures are in place for handling, transporting and disposing of the 
debris. A number of permits and, in some instances, waivers to State 
and local ordinances are required from government agencies when 
handling such large amounts and varied forms of debris, which often 
includes hazardous waste. Decisions on priorities, pick-up schedules, 
handling methods, transportation routes, reduction and recycling 
processes, monitoring procedures, and final disposal options all 
require coordination with a wide array of governmental agencies. Adding 
another level of complexity is keeping the public informed on how, 
when, and where debris will be picked up when operations are occurring 
at a rapid pace.
    Because of the sheer magnitude of devastation and the need to clear 
debris as quickly as possible from the Gulf Coast, FEMA took a number 
of measures to expedite the process of debris removal. For example, 
immediately after the storms hit, FEMA determined, based on its review 
of the magnitude and scale of the destruction, as well as a declaration 
of a Public Health Emergency by the Secretary of the Department of 
Health and Human Services, that it was in the public interest to remove 
debris from residential property in the hardest hit counties and 
parishes. This decision allowed local applicants to begin comprehensive 
debris operations immediately. In addition, the Corps activated its 
standby contracts and procured other contracts to meet the urgent 
requirement.
    While we were able to stream-line some approval processes, the 
conditions on the ground and the statutory and regulatory compliance 
requirements presented unique challenges that affected the ability of 
local and USACE operations to remove and dispose of debris quickly. 
Some of these challenges are unique to this event, and arise from the 
large scale destruction, or near destruction, of private residences and 
commercial structures. In particular, the sheer number of structures 
demolished has caused unprecedented challenges with respect to waste-
stream management and compliance with environmental regulations.
    An example of the types of regulatory challenges includes the 
number and location of landfills in operation which are permitted for 
the types of waste generated by Katrina. FEMA may only reimburse or 
assist with the removal and disposal of debris in full compliance with 
Federal and State environmental regulations. Thus, debris operations 
must respect existing permits and other restrictions which regulate the 
amount certain types of debris per day in certain categories of 
landfills. Additionally, the disposal of debris from residential and 
commercial structure demolition requires compliance with regulations 
regarding hazardous materials, such as asbestos. These regulations 
require specific handling both in the removal and in the disposal of 
these materials, permits from the appropriate local and State agencies 
and, in some instances, concurrence from the Environmental Protection 
Agency. These are just a couple of examples of the challenges that FEMA 
and its Federal, State, and local partners face and work together to 
overcome as we attempt to establish an efficient debris operation.
    FEMA constantly reviews operations to identify lessons learned and 
best practices. Following Hurricane Katrina, for example, FEMA 
developed a number of process and policy improvements to better assist 
State and local governments in their debris operations. We recently 
issued a contracting fact sheet that provides local governments with 
contract language and provisions to incorporate into their contracts 
that will help protect them from unscrupulous contractors and poor 
performance as well as optimize their reimbursement from the Public 
Assistance Program. Other recently developed policy documents address 
eligibility issues, such as stump removal, which removes the ambiguity 
over what work FEMA will reimburse.
    In addition, we revised our policies to ensure a consistent cost 
share for debris operations performed both by local communities and 
under USACE mission assignments. This policy also limits mission 
assignments to 60 days and will encourage local communities to take 
control over their recovery contracts earlier in the process. I should 
note that, when warranted, this time frame can be extended.
    Both FEMA and USACE are examining different methods, including 
technological advancements, to improve the effectiveness of our grant 
and contract monitoring processes. We are also evaluating different 
monitoring techniques that have been employed in the field to develop a 
strategy that assures local government and contractor accountability 
without over extending our resources.
    Another means of improving debris operations is to expand the 
resources and tools available to State and local governments. To that 
end, we established a nationwide debris contractor registry that will 
allow State and local governments to identify contractor resources 
either in the pre-event planning phase or in a post-disaster 
environment. From this database, State and local officials will be able 
to match their resource needs to those available from the registered 
contractors and then solicit bids and proposals as they deem 
appropriate.
    We at the Federal level will continue to look for ways to improve 
our support for debris management operations, but our success 
ultimately relies on the ability of State and local governments to 
proactively prepare for disaster response and debris operations. It is 
an extremely important responsibility for local communities, 
particularly those in high risk areas, to plan for large scale debris 
operations and address some of the complex conditions they will be 
confronted with, such as private property debris, demolition, and 
environmental compliance, which I mentioned earlier. Clearly, local 
governments are most familiar with their own State and local 
procurement requirements, permitting processes, local contractors, 
landfill operations, etc. Looking to FEMA, USACE or any other Federal 
Agency to manage local debris operations or resolve many of the complex 
issues inherent with debris operations is neither appropriate nor 
realistic.
    FEMA has developed substantive guidance documents and policies to 
assist local communities in developing and executing debris management 
plans. We also offer Debris Management training to State and local 
officials, and will continue to look for ways to educate and help 
communities plan for post disaster debris removal operations. We will 
provide technical assistance to States and local governments in 
developing debris management plans before an event takes place and 
actively encourage them to hire stand-by debris contractors prior to 
disasters occurring. FEMA will always be ready to provide help at the 
time of a disaster, but for our efforts to be successful, our State and 
local partners must be prepared and to act quickly and responsibly.
                               mitigation
    In addition to the authorities the Stafford Act gives FEMA to 
assist State and local governments in repairing critical infrastructure 
and removing debris following a disaster event, it also provides for a 
variety of mitigation programs and activities. The overriding goal of 
mitigation programs and activities is to reduce the potential for 
future loss of life and property within the disaster area.
    In authorizing the Disaster Mitigation Act of 2000, Congress 
recognized that greater emphasis needed to be placed on identifying and 
assessing the risks to States and local governments from natural 
disasters; implementing adequate measures to reduce losses from natural 
disasters; and ensuring the critical services and facilities of 
communities would continue to function.
    Congress also recognized the vitally important role that hazard 
mitigation plays in reducing the physical and financial impacts of 
natural disasters. Through FEMA's 10 Regional offices, FEMA's 
Mitigation Division assists States and communities in incorporating 
mitigation elements--such as building and design codes that address 
specific risks, structural strengthening and reinforcement, and natural 
hazard-focused land use planning into their decision making processes. 
Sound mitigation planning and viable mitigation activities reduce an 
area's potential for ``disaster'' after an event strikes. Destruction 
and distress are lessened; which facilitates effective response and 
promotes faster recovery.
    An important component of DMA 2000 was the authorization of an 
expanded Hazard Mitigation Planning requirement. I am pleased to report 
that as a result of this requirement, all 50 States and more than 8,000 
localities now have hazard mitigation plans in place.
    Mitigation planning provides a framework and an approach within 
which States, Tribes and localities reduce their vulnerability to 
natural hazards, thus lessening the Nation's total disaster losses. 
Developing a hazard Mitigation plan provides additional benefits as 
well. It helps raise awareness of risk, position State, local and 
tribal officials to take advantage of the resources available during 
post-disaster recovery, and enable them to rebuild expeditiously in a 
way that will mitigate future disaster losses.
    State plans are the ``gateway'' to FEMA grant assistance. States 
and Territories must have a FEMA approved Multi-hazard Mitigation Plan 
that meets the DMA 2000 requirements in order for communities within 
the State to be eligible for non-emergency assistance under the 
Stafford Act. Both the Hazard Mitigation Grant Program (HMGP) and the 
Pre-Disaster Mitigation Program (PDM) provide planning grants to help 
fund those plans.
    There are two levels of State multi-hazard mitigation plans--
Standard and Enhanced. The Standard plan meets the minimum requirements 
for a State plan, and entitles States to receive HMGP funding after a 
disaster. The amount of post-disaster funding available for mitigation 
is equal to 7.5 percent of disaster assistance funding (Public 
Assistance plus Individual Assistance). At this time, all 50 States, 
the District of Columbia, Puerto Rico, the Virgin Islands, American 
Samoa, Guam and more than 10 Tribal governments have an approved State-
level mitigation plan in place.
    The Enhanced plan allows the State to receive additional post-
disaster mitigation funding of up to 20 percent of disaster assistance 
funding. The enhanced plan must meet all of the Standard plan 
requirements and must document the State's proactive approach and 
commitment to mitigation, and its capability to manage the increased 
amount of funding that may be made available. Seven States now have 
approved Enhanced State mitigation plans: Maryland, Missouri, Oregon, 
Ohio, Oklahoma, Washington and Wisconsin. Enhanced plans for Florida 
and Virginia are pending.
    State-level plans lay the foundation for an overall mitigation 
strategy for the communities within their jurisdiction, and make 
funding available to those communities to develop and implement their 
local mitigation plans and projects. More than 8,000 local 
jurisdictions have FEMA-approved mitigation plans. Because many of 
these plans are multi-jurisdictional plans, the total number of 
jurisdictions that are covered by approved plans is approximately 
13,000.
    We are extremely proud of these numbers. They provide hard evidence 
that all our States and thousands of local communities are taking 
mitigation seriously and thinking strategically about what they can do 
to reduce their losses from future natural disasters. This provides a 
robust benefit in both physical and economic terms--which, of course, 
was the intent of the Congress when it authored DMA 2000. A recent 
independent study conducted by the Multihazard Mitigation Council at 
the request of the Congress concluded that, on average, $1 spent on 
mitigation saves society an average of $4. That translates into 
hundreds of millions in savings every year--and it begins with sound 
mitigation planning.
    The mitigation planning process is not static. It changes and is 
refined over time. One of our greatest successes has been our ability 
to work closely with our State, local and Tribal partners in this 
effort, drawing on the experience they have gained in preparing and 
implementing their plans over the last several years.
    This past May, FEMA invited one State from each Region to discuss 
the plan update process. At this meeting, we asked the States to 
identify some of their successes and perceived benefits from going 
through the mitigation planning process. These benefits fell into three 
major categories, which I will briefly summarize:
     Improved Risk Assessment
     Interagency Coordination and Planning Committees; and
     Coordination with Local Planning Officials
    Although FEMA is encouraged by the progress that has been made, 
there is still much to be done. Natural disasters can strike anytime, 
anywhere. The type of disaster, however, varies from one locality to 
another, and even then differences in terrain and climate can greatly 
affect the impact of the event and the types of mitigation measures 
that can be used. After all, elevating your home to protect it from 
floodwaters will do little good during an earthquake.
    Mitigation planning helps FEMA and its State, local and Tribal 
partners to accurately assess their risk. The benefits of this are 
twofold. First, it helps jurisdictions that are impacted by a natural 
disaster rebuild in a way that will reduce future damage. Even as we 
speak, buildings across the Gulf Coast are being elevated or relocated, 
so they will be safer and more resilient when the next hurricane 
strikes.
    Mitigation should not just be considered once a disaster strikes. 
Congress recognized that by undertaking mitigation plans and projects 
predisaster, we can greatly reduce the loss of lives and property 
before disaster even strikes. With this in mind, the DMA 2000 
authorized the creation of the Pre-Disaster Mitigation Program (PDM).
    The PDM program recognizes that by identifying areas at greatest 
risk of natural disaster and implementing effective mitigation 
activities in those areas, we can greatly reduce future disaster 
losses. Based on lessons learned from the PDM FY 2003 and FY 2004/2005 
programs, FEMA instituted changes to ensure all funds for PDM projects 
and plans are awarded as quickly and efficiently as possible. 
Specifically, FEMA has established a standard application form. This 
occurs through the required use of the FEMA Mitigation electronic 
grants management system (e-Grants) to facilitate application 
development and processing.
    We have enhanced guidance materials to provide more detail on grant 
requirements. We have increased offerings of extensive benefit-cost 
analysis and e-Grants training, and streamlined FEMA application review 
procedures, the National evaluation process, and the national technical 
review process to the point where for the FY 2006 program it has only 
taken 7 months from the time the application period opened in November 
2005, until first awards were made in June 2006.
    We also provide a more robust technical assistance program 
consisting of Web and help line resources for application development, 
benefit-cost analysis, environmental and historic preservation 
compliance, engineering feasibility, and planning.
    Since the Hazard Mitigation and Relocation Assistance Act of 1993 
amended the Stafford Act, principal mitigation activities funded under 
the HMGP include mitigation planning, acquisition of hazard prone 
properties with conversion to open space (including either demolition 
or relocation of the structure), and the elevation of structures to or 
above expected flood levels. These are also principal activities of the 
PDM program, instituted following the Disaster Mitigation Act of 2000 
amendments. To date, FEMA has obligated nearly $1.5 billion for 
planning, acquisition, and elevation activities through HMGP and PDM. 
If we follow the findings of the Multihazard Mitigation Council's 
report--that, on average, $1 spent on mitigation saves an average of 
$4--we can conclude that the mitigation grant programs have saved this 
country approximately $6 billion.
    FEMA strongly encourages the reauthorization of the DMA 2000 
amendments to the Stafford Act, in order to ensure their continued 
success. By planning and preparing beforehand, we ensure better 
protection for our citizens, their homes and their businesses, and 
greater savings for the entire Nation.
    Even with the assistance authorized by the Stafford Act to help 
individuals in communities, following a disaster, be it natural or 
manmade, this nation's emergency response capability can be severely 
tested, as has been proven by the enormous challenges the Nation faced 
in recent years. From the flooding in Houston from Tropical Storm 
Allison, the terrorist attacks of 9/11, back-to-back unprecedented 
hurricane seasons in 2004 and 2005, and a myriad of other disasters 
that have impacted this nation, we have gained many lessons learned, 
and used the flexibility of the Stafford Act to expand the bounds of 
the types of assistance we are able to provide. At times beleaguered, 
FEMA has always pressed forward with the commitment of putting the 
lives and welfare of disaster victims first.
    There is much that can, and has been done to enhance FEMA's 
programs and processes as we move forward, preparing not only our 
Agency, but the Nation for the current season or any future disaster. 
We will continue to engage with State emergency management officials, 
our Federal counterparts, including the Department of Defense, and non-
government organizational partners to maximize communication and 
coordination for all-hazard disaster preparedness, response, recovery, 
and mitigation activities. We are building within FEMA a twenty-first 
century competency in operations, logistics, procurement and 
communications to speed much needed equipment, aid and commodities to 
States affected by disasters. We will also continue to strengthen our 
mission effectiveness and operational efficiency and establish measures 
and benchmarks, so we are held accountable for our performance. FEMA 
will also benefit from the continued integration into the Department of 
Homeland Security, where the Agency has gained access to many valuable 
resources that strengthen our ability to respond to disasters of any 
kind.
    It is important to note that in a disaster of unprecedented 
proportions, FEMA's debris operations, mitigation programs, and indeed 
all areas of assistance service delivery are under scrutiny by the 
general public and Congress. We realize that for the individuals and 
communities picking up the pieces of their lives, we must be able to 
efficiently and effectively meet their needs. FEMA is looking closely 
at its authorities and the various after action reports, and we look 
forward to working with Congress on suggested and recommended changes 
to the Stafford Act and related authorities.
    Thank you for the opportunity to appear before this committee, I 
will respond to any questions you have.
      
Statement of Major General Don T. Riley, Director of Civil Works, U.S. 
                        Army Corps of Engineers
                              introduction
    Mr. Chairman and members of the committee, I am Major General Don 
T. Riley, Director of Civil Works for the U.S. Army Corps of Engineers 
(USACE). Thank you for the opportunity to testify before you today 
concerning the Corps' disaster-relief missions under the Stafford Act. 
The Corps has a long standing, highly effective relationship in support 
of Federal Emergency Management Agency (FEMA) under the former Federal 
Response Plan (FRP) and now the National Response Plan (NRP). We also 
have major responsibilities for disaster planning, response and 
recovery under our own authority (Public Law 84-99), our Civil Works 
infrastructure missions (Flood Damage Reduction, Navigation, and 
Hydropower) , and our inherent responsibility to support the Department 
of Defense in execution of any of the Department's disaster relief 
missions as required. I will address my comments this morning to our 
role in support of FEMA under the Stafford Act and National Response 
Plan.
    Under the National Response Plan, the Corps has primary 
responsibility for Emergency Support Function No. 3, Public Works and 
Engineering, and several assigned tasks in support of the other 
Emergency Support Functions (ESF) specified in the Plan. Our mission 
portfolio during major disaster response will typically include 
activities such as provision of ice and water, debris clearance and 
disposal, temporary roofing, emergency power to critical facilities, 
and assistance to FEMA with provision of temporary housing.
    Based on 14 years of experience in executing missions under the FRP 
and NRP, I believe the Stafford Act and the NRP have the empowering 
authorities and tools needed to be successful in performing our 
assigned missions. Response to Hurricane Katrina was a tremendous 
challenge for USACE and all responding Federal and State agencies given 
the catastrophic nature of the mission workload and many limiting 
factors that impacted the initial response. However, a look at the 
overall mission execution tells us that more water and ice were 
delivered faster than ever before, and the debris mission, which has a 
magnitude several times that of Hurricane Andrew in 1992 (the previous 
record in terms of mission magnitude), has also seen achievement in 
terms of debris removed in the 9 months since the event, that exceeds 
any previous hurricane mission experience. Many lessons learned have 
been documented that can only be gained through such an experience. 
These lessons learned have led to improvements to our operational 
procedures and training. One area that needs more attention is how we 
transfer this knowledge back to the local governments so they too can 
benefit from these lessons learned, plan more effectively, and 
eventually be better prepared to manage more of their own recovery 
operations. This transfer of knowledge is needed throughout all USACE 
NRP missions that include commodities, temporary power, roofing, 
temporary housing, and debris. One solution we are developing with FEMA 
is to have, as part of the overall Federal concept of operations and 
initial mission assignments, a requirement to work with the local 
governments covered by the declaration to provide a localized plan for 
each mission that is based on the actual response details gained from 
the event. This concept will help transfer the knowledge gained and 
leave the local governments with a proven operational plan. The 
National Incident Management System provides for this integration of 
Federal, State and local planning and operations, so the authorities 
and plans are already in place to facilitate this improved 
coordination.
    Pre-event preparedness, to include enabling mitigation actions, 
based on lessons learned and best practices, is critical to minimizing 
post event damage and to reduce the number of citizens that become 
victims. The mitigation program and the lessons learned process are two 
methods used to assist in determining which actions a community should 
perform. The U.S. Army Corps of Engineers through their Floodplain 
Management Services Program, provides advice and assistance to 
communities in terms of reducing their flood risk with regard to 
community infrastructure. The Corps Flood Damage Reduction authorities 
provide a broad range of Flood mitigation tools that are used in 
supporting State/Local flood mitigation objectives.
    The life-cycle lessons learned process consists of: planning; 
exercising the plan (through exercise or a real event); evaluating the 
successes and opportunities for improvement; documenting best practices 
and developing corrective actions; revising the plan to include the 
best practices and implementing the corrective actions. Mitigation and 
lessons learned are tied to routine pre-event meetings and post-event 
processes. FEMA's Regional Mitigation staff and USACE Districts provide 
mitigation services year round to local communities and States. A forum 
used to highlight preparedness is the FEMA Regional Interagency 
Steering Committee (RISC) meeting. RISC meetings are usually conducted 
quarterly and attended by representatives from all Federal ESFs and 
States within the respective FEMA region. In addition, several States 
conduct annual hurricane exercises and conferences where Federal, State 
and local interests and concerns for specific geographic areas are 
raised.
    Over the last 3 years, there has been a significant increase in 
planning. USACE, in coordination with FEMA, has provided States with 
planning tools and assisted in preparedness efforts, especially in the 
areas of commodities planning (quantities required and distribution 
point set-up), temporary power, and debris management. These planning 
tools, briefings, and actions taken were developed as a result of 
lessons learned from past disasters. While there is always room to 
improve and more communities to get involved, these efforts have 
resulted in some coastal States improving their preparedness posture. 
The Corps has authority under PL 84-99 to plan and prepare for our NRP 
missions in coordination with Department of Homeland Security (DHS)/
FEMA, other Federal agencies and State and local agencies. The Corps 
will also be working closely with DHS Preparedness Directorate in the 
future to insure that DHS programs and grants support the building of 
State and local ``Public Works and Engineering'' capabilities. For 
example, State and local capabilities to manage debris operations vary 
widely. With more emphasis on comprehensive debris planning, State and 
local governments would be much better prepared to manage these types 
of operations on their own. There are also requirements for State and 
local governments to assess generator needs at critical facilities and 
to prioritize possible temporary power requirements in advance of an 
emergency. Some States have made progress in this area, but there is 
still much work to be accomplished. With additional planning and 
coordination, the intergovernmental team will be better prepared to 
respond more quickly to temporary power needs at critical facilities. 
We will continue to aggressively pursue a lifecycle of improvements to 
our mission preparedness based on lessons learned from each disaster 
event, working closely with these key partners.
    In reference to the on-going debris mission from FEMA, we have been 
following an acquisition strategy based on the concept of geographic 
set-asides under the Stafford Act as a follow-on strategy to our 
initial emergency contracting process put in place to handle the 
unprecedented amount of debris resulting from the effects of Katrina--
as a result of both wind and flood. Our first attempt to use this State 
set-aside authority under the Act was in Mississippi. Our goal was to 
use the Act to generate contracting opportunities at the prime level 
for Mississippi disadvantaged, small and large businesses. Competition 
was limited to Mississippi companies only. Although the subject of a 
GAO protest, we eventually prevailed as the GAO held that our concept 
of using geography was valid. I'd also like to take this opportunity to 
thank the GAO for reviewing the protest using their expedited 
procedures. As a result we were able to get their ruling in 65 days 
versus the more normal 100 days. We are disappointed that we were not 
able to implement the Act in Mississippi after receiving the favorable 
GAO ruling. Circumstances and time conspired against us as the 
Mississippi debris removal efforts are projected to be completed by the 
end of this month. In reference to the State of Louisiana, we are 
pursuing a similar geographic-based acquisition strategy in using the 
Stafford Act and recent revised language in 42 U.S.C. 5150 signed by 
the President on April 20, 2006, removes all doubt that geographic set-
asides may be used when appropriate.
    The Corps of Engineers performed unprecedented debris operations in 
order to address the historic debris quantities and waste streams 
generated by Hurricanes Katrina and Rita. In the State of Louisiana, 
the Corps performed debris segregation, processing, handling, 
recycling, treatment, and disposal, as required, per waste stream in 
order to maintain timeliness and compliance with applicable 
regulations. Additionally, the Corps developed debris working groups, 
comprised of Federal, State, and local representatives, to provide a 
basis for daily input to debris planning and execution. Representatives 
from the Corps, the contractors, FEMA, Environmental Protection Agency, 
Occupational Safety and Health Administration, Centers for Disease 
Control, and Louisiana Department of Environmental Quality provided 
various field oversight roles as well as providing feedback to the 
working group on a daily basis concerning needs, status, and 
communications. After nine months of debris management, the following 
waste streams and quantities have been segregated and removed within 
the State of Louisiana.


------------------------------------------------------------------------
          Waste Stream                 Quantity           Disposition
------------------------------------------------------------------------
Vegetative......................  8.2 M cubic yards.  Reused
Consolidation & Demolition......  14.5 M cubic yards  Disposed
White Goods.....................  800,000 items.....  Recycled
Household Hazardous Waste.......  1.4 M items.......  Treated, Disposed
Electronic Waste................  489,000 items.....  Recycled
Asbestos........................  136,000 cubic       Disposed
                                   yards.
Tires...........................  95,000 items......  Recycled
Residual Solids.................  24,300 cubic yards  Disposed
Small Motorized Equipment.......  150,000 items.....  Recycled
------------------------------------------------------------------------

    While the process to manage all these waste streams can never be 
perfect, the Corps is pleased to have diverted so much debris from 
inappropriate placement in a landfill, which is the basis for so many 
concerns.
    FEMA is the Primary Agency under the National Response Plan for 
Emergency Support Function No. 3 recovery activities, to include 
Federal debris support. During the 2005 Hurricane Season, FEMA tasked 
USACE to take the lead for Federal debris management assistance in 
certain localities in Mississippi, Louisiana, Alabama and Texas. EPA 
has worked closely with USACE, FEMA, and State and local governments to 
assist in these debris removal activities. For example, EPA assisted 
the States in developing guidance regarding demolition of structurally 
unsound buildings as well as guidance for debris burning. Along with 
FEMA and the USACE, EPA also provided assistance to the States as they 
developed their debris removal plans.
    The Corps of Engineers takes pride in being a Learning 
Organization. We have learned that every event is different. Our goal 
is to immediately provide the urgently required immediate relief 
services to the impacted populations. We recognize that in urgent 
situations, mistakes can and do occur. There is also opportunity for 
unscrupulous individuals to take advantage of the system. We work to 
strike a balance between expeditiously providing relief to those in 
need and limiting the opportunities for malefactors. Our solution is to 
immediately deploy Corps internal auditors, teamed with the Defense 
Contract Audit Agency and the U.S. Army Criminal Investigation Command, 
to oversee all emergency response efforts (both Corps and contractors' 
operations) to help detect early in the process actual or potential 
mistakes, help mission managers comply with their fiscal stewardship 
responsibilities, and detect instances of fraud, waste, or abuse. 
Corrective actions are implemented immediately to address problems or 
weaknesses identified by these teams. We have learned that by doing so, 
we not only improve our processes, but avoid unnecessary or wasteful 
expenditures, and become more efficient. I welcome the reviews 
conducted by external audit and investigative activities as they are 
also a valuable tool to help us identify potential vulnerabilities and 
weaknesses in processes and procedures.
    As noted earlier in this statement, part of being a Learning 
Organization is implementing actions to correct our mistakes and 
strengthen our weaknesses. Several years ago the Corps instituted a 
formal procedure, our Remedial Action Program, to capture lessons 
learned and adjust our processes for future events. Simply put 
(although this is not a simple process) for each emergency event we 
prepare After Action Reports, which include issues and weaknesses 
identified from all sources during our response efforts. We attempt to 
correct or strengthen our procedures and adjust supporting Standard 
Operating Procedures (SOPs). Personnel are trained on the new 
procedures and then we conduct exercises, which help us determine 
whether the corrective actions were effective. Where necessary, the 
procedures and SOPs are adjusted and placed in readiness for the event. 
We then start this process all over again.
    In the future to be best prepared we may need to think beyond our 
traditional assistance methods. The critical missions of commodities 
distribution, providing temporary power, temporary housing and debris 
management require skills not often maintained by local governments. 
They are, however, maintained by some State governments and by FEMA, 
the supporting ESFs and within the private sector. Individuals with 
these skills can be pulled together, both pre- and post-event, to 
develop plans for the specific communities in those specific areas. The 
result could be a local community with planned distribution points, 
critical generator requirements pre-identified, debris clean-up planned 
and more quickly performed, and temporary housing sites pre-identified 
allowing for quicker construction and occupation by displaced citizens.
                                summary
    To close, I would like to thank you once again, Mr. Chairman, for 
allowing the Corps of Engineers the opportunity to appear before this 
committee to discuss our activities in support of FEMA under the 
Stafford Act. Many Corps personnel have served our Nation by helping in 
the response to natural disasters in Texas, Louisiana, Mississippi, 
Alabama, Florida, or elsewhere in the Nation or the world. We are proud 
to do so. I would be happy to answer any questions Members of the 
committee may have. Thank you.
                                 ______
                                 
 Responses by Don T. Riley to Additional Questions from Senator Inhofe
    Question 1. Please discuss the assignment of responsibility for 
water borne debris and spills in disasters such as Hurricane Katrina. 
What is the role of the EPA, the Coast Guard, or the Corps of 
Engineers?
    Response. Multiple agencies have responsibilities and/or 
authorities related to the removal of debris, to include waterborne 
debris, following a disaster. After an incident occurs, representatives 
from these agencies come together in the Joint Field Office to develop 
disaster specific debris removal plans. The following is a list of 
agencies and a description of their responsibilities and authorities 
related to the management of waterborne debris:
    U.S. Army Corps of Engineers.--When direct Federal assistance is 
required under the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act (Stafford Act) for the removal of eligible waterborne 
debris, FEMA can mission assign the U.S. Army Corps of Engineers 
(USACE) to provide this assistance.
    Sections 15, 19, and 20 of the River and Harbor Act of 1899, 
authorize USACE to remove sunken vessels or other obstructions from 
navigable waterways under emergency conditions. A navigable waterway is 
one which USACE operates and maintains for navigation, as authorized by 
Congress. The Corps would remove a vessel using its emergency 
authorities only if an owner, operator or lessee cannot be identified 
OR said owner, operator or lessee cannot effect removal in a timely and 
safe manner.
    USACE is authorized under Flood Control and Coastal Emergencies (PL 
84-99) to provide assistance for debris removal from flood control 
works (structures designed and constructed to have appreciable and 
dependable effects in preventing damage by irregular and unusual rises 
in water level). This type of assistance requires that an applicant be 
an active participant in its PL 84-99 Rehabilitation and Inspection 
Program at the time of the disaster.
    DHS/Federal Emergency Management Agency (FEMA).--Under the Stafford 
Act, FEMA has the authority to provide debris removal assistance, to 
include waterborne debris, to eliminate immediate threats to lives, 
public health and safety; eliminate immediate threats of significant 
damage to improved public or private property; or to ensure the 
economic recovery of the affected community to the benefit of the 
community-at-large.
    The waterborne debris must be the direct result of the disaster and 
located in the disaster area; and, the applicant must have legal 
responsibility to remove the debris.
    The assistance is usually cost-shared at no less than 75 percent 
Federal and 25 percent non-Federal. In some circumstances, FEMA will 
provide up to 100 percent funding for a limited amount of time.
    FEMA reimburses applicants to remove eligible debris or can provide 
direct Federal assistance through a mission assignment to another 
Federal Agency upon request of the State when it has been demonstrated 
that the State and local government lack the capability to perform or 
contract for the requested work.
    FEMA can provide direct Federal assistance for the removal of 
waterborne debris through a mission assignment to another Federal 
Agency upon request of the State when it has been demonstrated that the 
State and local government lack the capability to perform or contract 
for the requested work.
    Environmental Protection Agency.--Under the National Contingency 
Plan (NCP), EPA is responsible for providing pre-designated Federal On-
Scene Coordinators (FOSCs) to conduct emergency removal of oil and 
hazardous materials.
    EPA has responsibility for the inland zone and the delineation 
between coastal and inland is by mutual agreement with the United 
States Coast Guard and the geographic limits are indicated in Area 
Contingency Plans.
    Hazardous material removals are conducted using the Comprehensive 
Environmental Response, Compensation, and Liability Act fund (CERCLA), 
otherwise known as Superfund.
    Under CERCLA and the Clean Water Act, EPA has the authority to 
respond to actual or potential discharges of oil and actual or 
potential releases of hazardous substances, pollutants and contaminants 
that may endanger public health or the environment.
    Response actions may include containment, stabilization, 
decontamination, and disposal. Debris may be mixed with, or contain, 
oil or hazardous materials that are subject to these EPA response 
authorities.
    Oil removals are conducted with funding from the Oil Spill 
Liability Trust Fund.
    United States Coast Guard (USCG).--USCG has the responsibility to 
keep waterways safe and open under the Ports and Waterways Safety Act 
(33 U.S.C. 1221), but there is no specific language stating that the 
USCG is responsible for debris removal from waterways. However, the 
USCG has been tasked in the past to assist in waterways and marine 
transportation system recovery.
    The USCG may also be assigned Stafford Act missions to assist in 
the removal of debris in waterways.
    Under the National Contingency Plan (NCP), the USCG, along with the 
Environmental Protection Agency (EPA), is responsible for providing 
pre-designated Federal On-Scene Coordinators (FOSCs) to conduct 
emergency removal of oil and hazardous materials.
    USCG is responsible for the coastal zone and the EPA is responsible 
for the inland zone. The delineation between coastal and inland zones 
is by mutual agreement between the USCG and the EPA and the geographic 
limits are indicated in Area Contingency Plans.
    Under the Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA), otherwise known as Superfund, and the Clean 
Water Act, USCG has the authority to respond to actual or potential 
discharges of oil and actual or potential releases of hazardous 
substances, pollutants and contaminants that may endanger public health 
or the environment.
    Response actions may include containment, stabilization, 
decontamination, and final disposal. Debris may be mixed with, or 
contain, oil or hazardous materials that are subject to these USCG 
response authorities.
    USDA/Natural Resources Conservation Service (NRCS).--NRCS' 
Emergency Watershed Protection Program (EWP) is authorized by section 
216 of the Flood Control Act of 1950, PL 81-516, 33 U.S.C. 701b-1; and 
section 403 of the Agricultural Credit Act of 1978, PL 95-334, as 
amended by section 382, of the Federal Agriculture Improvement and 
Reform Act of 1996, PL 104-127, 16 U.S.C. 2203.
    Debris clean up must be for either runoff retardation or soil 
erosion prevention that is causing a sudden impairment in the watershed 
creating an imminent threat to life or property. Typically, this 
includes debris within channels but could also include debris in close 
proximity to a channel or situated where the next event could create an 
imminent threat to life or property. There is no size limit to the 
watershed except that EWP assistance is not eligible for coastal 
erosion restoration.
    Assistance is funded through specific Congressional appropriations.
    Public and private landowners are eligible for assistance but must 
be represented by a project sponsor (a State or political subdivision 
thereof, qualified Indian tribe or tribal organization, or unit of 
local government).
    Sponsors are responsible for the local cost share and the 
installation of work.
    Work can be done either through Federal or local contracts.
    NRCS can provide assistance when the President declares an area to 
be a major disaster area or when an NRCS State Conservationist 
determines that watershed impairment exists.

    Question 2a. In the event of a terrorist attack involving a ``dirty 
bomb'' or nuclear device, what agencies would be involved in the clean 
up of contaminated debris?
    Response. Under the NRP, it is expected that the Department of 
Homeland Security (DHS) would declare an incident involving a dirty 
bomb or nuclear device as an Incident of National Significance (INS). 
It also is likely that the President would issue a Stafford Act 
declaration to provide Federal assistance to State and local 
governments. Under this scenario, DHS would coordinate the overall 
Federal response; FEMA would be responsible for tasking Federal 
agencies to assist with the response under the Stafford Act. Under the 
Nuclear/Radiological Incident Annex of the NRP, different Federal 
agencies are assigned as the ``Coordinating Agency'' for different 
types of nuclear/radiological events. The Coordinating Agency, in 
general, assists DHS in managing the overall radiological aspects of 
the response.
    For radiological terrorist incidents, the Coordinating Agency would 
be:

          (1)  The Department of Defense (DoD) or Department of Energy 
        (DOE) for terrorist incidents involving their facilities, 
        materials, or weapons:
          (2)  The Nuclear Regulatory Commission (NRC) for terrorist 
        incidents involving material or facilities licensed by the NRC 
        or an Agreement State; or
          (3)  The DOE, for terrorist incidents not covered by the 
        categories above. For this category, the role of Coordinating 
        Agency transitions to EPA for the environmental cleanup phase.

    Multiple Federal, State and local agencies would be involved in the 
clean up of contaminated debris. The following federal agencies would 
have significant roles:
    Environmental Protection Agency (EPA).--Under the National Response 
Plan, EPA has the lead for the environmental cleanup phase of recovery 
operation.
    FEMA.--Under the National Response Plan, Emergency Support Function 
No. 3, Public Works and Engineering, FEMA is the Primary Agency for 
Recovery, to include debris/contaminated debris management.
    U.S. Army Corps of Engineers.--FEMA may mission assign the U.S. 
Army Corps of Engineers to execute contaminated debris management 
responsibilities.
    Federal Bureau of Investigation (FBI).--FBI would have crime scene 
responsibilities and would be involved in evidence that may be a part 
of the debris field.
    Department of Transportation (DOT).--DOT would have 
responsibilities related to the transportation of contaminated debris.
    Department of Energy (DOE).--DOE would provide scientific and 
technical support and would be involved with the relocation and storage 
of radiological/nuclear material.
    Department of Labor/OSHA.--OSHA would be involved with the 
protection of worker safety and health, prevention of injuries and 
illnesses and compliance inspections and investigations.
    Department of Health and Human Services (HHS).--HHS would be 
involved with public health and safety related to debris removal 
operations.

    Question 2b. Who is in charge?
    Response. The National Incident Management System would be used on 
the ground as the framework for managing the overall operations, to 
include the management of the contaminated debris operations. The 
system is flexible and scalable and incorporates ``unified command'' 
concepts when multiple agencies and jurisdictions are impacted.
    DHS is overall coordinator of the Federal support to incidents of 
national significance and the Nuclear/Radiological Incident Annex of 
the National Response Plan lays out Federal responsibilities for a 
radiological/nuclear response.

    Question 2c. Are the standard procedures of the NRP going to be 
deployed, or will other procedures be used?
    Response. The NRP superseded the Federal Radiological Emergency 
Response Plan and is now the core operational plan for national 
incident management, to include radiological and nuclear incidents.
    The Nuclear/Radiological Incident Annex of the NRP lays out 
responsibilities the management of the overall radiological/nuclear 
response.

    Question 3a. What revisions to the Stafford Act would you recommend 
in light of our experience after a catastrophic disaster like Katrina?
    Response. The Stafford Act has the authorities and tools USACE 
requires to execute missions, even for a catastrophic disaster like 
Katrina.

    Question 3b. Are long-term recovery policies and authorities 
sufficient? What are the limits and strengths of the existing recovery 
policies?
    Response. FEMA sets the policies for Stafford Act related recovery 
activities. Policies that seem reasonable during a small or even a 
major disaster may not be fair or reasonable during a catastrophic 
disaster. For example, many of the ``normal'' debris eligibility 
policies early on after Katrina made landfall were enforced, but 
gradually policies were relaxed to take into account the catastrophic 
nature of this event. Not having catastrophic policies in place early 
on led to some inefficiencies in managing the debris operations and 
inconsistencies in how policies were implemented. Additional 
catastrophic planning and exercises are needed to determine issues and 
develop courses of action that will be used to address recovery 
policies for a catastrophic incident.
    Examples of policy decisions that were ``relaxed'':

          Decisions to modify cost sharing policies to allow for full 
        Federal funding of debris removal operations over and extended 
        period.
          Decisions to allow the removal of trees that were killed as 
        a result of being exposed to salt water.
          Decision to allow for the removal of ``commercial'' debris 
        that posed a hazard if another tropical storm impacted the 
        area.
          Decisions to allow the removal of ``commercial debris'' in 
        certain urban areas.
          Decisions to allow contractor to remove debris from private 
        property in some areas under certain conditions.
          Decisions to allow the removal of spoiled meat from private 
        processing and cold storage facilities.
                                 ______
                                 
Responses by Don T. Riley to Additional Questions from Senator Jeffords
    Question 1a. Can you elaborate on your response to this question 
posed during the hearing: In response to some questions I posed to the 
Army Corps in a letter regarding the pace of debris clean-up, the Corps 
identified the following hurdles: the slow pace of residents returning, 
asbestos regulations, proximity of landfills, and limits on the amount 
of debris certain landfills may accept. What is your Agency doing to 
eliminate those hurdles for the Gulf Coast and to prevent them from 
becoming hurdles in future disasters?
    Response. USACE is continuing a partnership with EPA regarding 
asbestos regulations and contaminated debris removal and disposal. This 
partnership will help leverage the strengths of both agencies to better 
respond in the future. USACE has no authorities to influence the pace 
of returning residents, proximity of landfills, or the limits on 
amounts of debris a landfill may accept. The permitting of landfills 
and their acceptable daily limits is the responsibility of State 
Agencies. These parameters change with every event. USACE does support 
local planning efforts by providing models and parameters for locating 
and sizing temporary reduction sites.

    Question 1b. Are you working with local communities and States to 
establish pre-existing debris clean-up contracts?
    Response. USACE provides support to local governments by providing 
example scopes of work and assisting in reviewing contract scopes. 
USACE has a public intergovernmental web site to transfer planning and 
modeling information to local governments. This site provides key 
planning information for commodities, emergency power and debris. In 
addition USACE is often tasked by FEMA following a disaster to provide 
technical assistance to State and local governments for debris contract 
reviews and operational guidance.
    The Corps of Engineers is working with local communities in 
Mississippi to help develop scopes of work for debris contracts to 
finish the debris cleanup in Mississippi. FEMA is working with the 
State and the local communities to assist them in making sure they are 
reimbursed for debris costs under the FEMA programs. The Corps has no 
specific authority or funding to assist the locals or State in 
developing debris cleanup contracts for future events_however, the 
technical assistance being provided will also be valid for future 
debris contracts.

    Question 1c. Are you reviewing the debris contracts issued during 
Katrina to evaluate contracting procedures?
    Response. Yes, USACE has received 27 recommendations from Army 
Audit Agency and have plans to implement most of these recommendations 
by June 2007.

    Question 1d. Are you considering legislative recommendations 
regarding the debris-handling mission?
    Response. No legislative recommendations are being considered for 
handling the debris management mission. USACE has a robust corrective 
action program and we are actively addressing issues, developing 
courses of action and improving our operating procedures.

    Question 2a. Chef Menteur 404 permit.--Under what authority did the 
Army Corps grant its emergency authorization to begin operation of the 
Chef Menteur landfill without a Clean Water Act section 404 permit?
    Response. The Corps granted emergency authorization for the 
operation of the landfill in accordance with an existing general permit 
(NOD	20) for emergency activities that was issued in accordance with 
Corps regulations (see 33 CFR 325.5(c) and 325.8(b)). The Corps 
regulations are issued under the authority of section 404 of the Clean 
Water Act, sections 9 and 10 of the Rivers and Harbors Act of 1899, and 
section 103 of the Marine Protection, Research, and Sanctuaries Act of 
1972. All National Environmental Policy Act and public notice 
requirements were met.
    Division engineers have the authority to approve special processing 
procedures in emergency situations (33 CFR 325.2(e)(4)). In response to 
the emergency situation resulting from Hurricane Katrina, the 
Mississippi Valley Division approved emergency permit procedures on 
September 3, 2005, and December 22, 2005.

    Question 2b. What is the duration of an ``emergency authorization'' 
and where is it defined?
    Response. The terms of General Permit NOD-20 require the project 
proponent to submit to the Corps within 30 days of emergency 
authorization either a restoration plan or a permit application to 
maintain the work. In the case of the Chef Menteur landfill, the 
project proponent submitted an application to maintain the work. The 
emergency authorization is valid until a permit is issued or denied or 
until such time the emergency no longer exists. The emergency 
procedures for the Corps regulatory program are generally defined at 33 
CFR 325.2(e)(4), but the specific terms of emergency authorizations are 
at the discretion of the division engineer.

    Question 2c. Has the Army Corps ever issued similar emergency 
authorizations elsewhere in the country, and if so, please describe the 
permitting activities including the location, purpose, and duration of 
emergency authorization, and final decision to issue/not issue a 
permit.
    Response. The Corps has established emergency permitting procedures 
in many areas of the country, to respond to a number of emergency 
situations. Emergency permitting procedures have been approved to 
respond to hurricanes, floods, large-scale accidents (e.g., airliner 
crashes), and other catastrophic events. These procedures facilitate 
rapid responses to situations where activities regulated by the Corps 
are necessary to reduce unacceptable hazards to life, significant 
losses of property, or immediate, unforeseen, and significant economic 
hardships. The Corps regulations have contained provisions for 
emergency procedures for at least the past 35 years, and we cannot 
provide a complete list of these emergency authorizations.

    Question 3. How do you respond to the Fish and Wildlife Service 
opinion that the use of the Chef Menteur landfill could result in 
persistent contamination of groundwater, surface water, and wetlands?
    Response. For the Chef Menteur landfill, the Corps permitting 
authority is limited to authorizing discharges of dredged or fill 
material into waters of the United States to construct the landfill and 
its infrastructure. In the State of Louisiana, the lead Agency 
regulating the operation of landfills is the Louisiana Department of 
Environmental Quality (LDEQ). According to LDEQ, the Chef Menteur 
landfill is currently lined by a layer of at least 10 feet of compacted 
clay, which is substantially thicker than the thickness of constructed 
clay liners that are required by LDEQ for this type of landfill. The 
clay layer at the Chef Menteur landfill will impede the movement of 
contaminants from the landfill to adjacent groundwater, surface water, 
or wetlands.

    Question 4a. Implied in the Corps' use of the term ``emergency'' in 
your letter granting permission to begin operation of the Chef Menteur 
landfill site without a wetlands permit in April of 2006 was an urgent 
requirement to provide a location for debris disposal. I understand 
that the Congressional Research Service currently estimates that there 
are about 44 million cubic yards of debris in Louisiana. According to 
the Government Accountability Office (GAO), immediately after the 
storm, there were estimates that up to 250,000 homes may have to be 
demolished. Today, that number stands somewhere between 15,000 and 
22,000. GAO also reports that only about 1100 of those demolitions have 
occurred. My question goes to the use of the term ``emergency''. How 
much debris has been placed in the Chef Menteur landfill site since 
your authorization to proceed was granted in April, 2006?
    Response. 800,000 cubic yards.

    Question 4b. Given the slow pace of home demolition, why didn't the 
Corps choose to go through the normal permitting process prior to 
beginning delivery of debris to Chef Menteur?
    Response. Debris from the demolition of homes is just one source of 
the debris that was going to the Chef Menteur landfill. Debris 
resulting from homeowners gutting and rebuilding their homes, as well 
as vegetative and other storm debris resulting from Hurricanes Katrina 
and Rita and removed from the streets, was also brought to the 
landfill. As long as this debris remains on neighborhood streets and 
curbsides, it presents an environmental and safety hazard.

    Question 5. How does the Corps justify its emergency permitting 
action given the assertion by the Fish and Wildlife Service that a 
culvert provides a direct connection between this unlined landfill, 
accepting some hazardous materials, and surrounding water bodies that 
are home to the region's commercial fisheries and 340 species of birds 
at the Bayou Sauvage National Wildlife Refuge? Please respond to each 
of the points in that letter, particularly the concern that placing 
construction and demolition debris in an unlined landfill located in a 
wetland could result in leaching and resultant persistent contamination 
of groundwater, surface water, and adjacent wetland habitats.
    Response. Prior to the use of this site, the Corps conducted a 
jurisdictional determination on the property. It was determined that 
the project footprint consisted of borrow pits which had hydrologic 
connection to the Maxent Canal through an existing culvert. This 
hydrologic connection was severed prior to any emergency dumping.
    The Fish and Wildlife Service's concern about placing construction 
and demolition debris at this site will be addressed, since the 
landfill will have a clay liner that is approximately 10 feet thick. 
The thickness of this clay liner exceeds the standards required by 
LDEQ, which is responsible for establishing construction standards for 
landfills in the State of Louisiana. LDEQ also regulates the operation 
of landfills. LDEQ has determined that the liner at the Chef Menteur 
landfill will prevent any leaching of contaminants into adjacent 
waters, including groundwater. In a letter dated May 19, 2006, the Fish 
and Wildlife Service stated that if the landfill is properly lined, it 
should be authorized to receive construction and demolition debris, as 
well as vegetative debris.

    Question 6a. Conflict of Interest at Chef Menteur.--How did the 
Army Corps protect against a conflict of interest being both the 
``applicant'' so to speak as being a potential user of the Chef Menteur 
site as well as the permitting Agency prior to issuing your emergency 
authorization?
    Response. There is no conflict of interest. The roles and 
responsibilities of permit applicants and users are substantially 
different. Waste Management of Louisiana, LLC is the permit applicant. 
If the Chef Menteur landfill is not available, then alternative 
landfills would have to be used by the Corps for the disposal of debris 
during the recovery effort. The Corps is reviewing the permit 
application for the Chef Menteur landfill under all applicable laws, 
regulations, and guidance, as we would any other proposal that requires 
Department of the Army authorization. The affiliation of any potential 
users of this landfill has no bearing on the Corps' review of the 
permit application. There are no requirements or restrictions on the 
applicant to only accept debris from the Corps. The Corps office that 
deals with debris removal is separate from the Corps office working on 
the permitting issues. The Recovery Field Office and the New Orleans 
District's Regulatory Branch have different and independent 
responsibilities.

    Question 6b. Did you consult with EPA, or ask them to review or 
participate in your decision to waive this permitting requirement to 
fulfill their oversight responsibilities under section 404 or to avoid 
the appearance or the reality of conflict of interest.
    Response. We did not waive permitting requirements. We issued an 
emergency authorization and we are presently evaluating a permit 
application to maintain the work for the construction of the landfill. 
This emergency authorization satisfies section 404 permit requirements 
until the standard permit process can be completed. In this case, the 
authority to issue a section 404 permit lies solely with the Corps. The 
emergency authorization was necessary to facilitate recovery from the 
disaster.
    EPA has delegated its authority to regulate the operation of 
landfills in Louisiana to LDEQ. As a result, there was no need to 
consult directly with EPA on the emergency authorization. We are 
coordinating with EPA on the final permit application.

    Question 7. What analysis of environmental impacts at the Chef 
Menteur site has the Army Corps conducted since April, and what have 
you found? What is your timeline for completion of this evaluation?
    Response. On April 28, 2006, a public notice was issued to solicit 
comments on the section 404 permit, which would authorize the 
construction of the landfill. The comment period was 30 days. All 
comments received in response to the public notice, including the 
comments from the Fish and Wildlife Service, were forwarded to the 
applicant for his response or rebuttal. The applicant submitted his 
responses and we are now reviewing his submittal.
    On May 24, 2006, a site visit was made with EPA to assess habitat 
quality.
    We are currently performing an environmental assessment and public 
interest review of the project. We anticipate completing our evaluation 
and making a final decision in 90 to 120 days. However, our decision on 
the permit is contingent on LDEQ completing its environmental 
assessment for the operation of the landfill.

    Question 8. Given that Mayor Nagin has decided not to renew or 
extend his Executive order regarding his temporary suspension of the 
Comprehensive Zoning Ordinance, what is the status of the Army Corps 
404 permit process? Do you plan to suspend your activities on this 
permit until the necessary local permits are received? If not, why not?
    Response. Once the City withdrew their authorization, Waste 
Management could no longer operate the landfill. As a result, there was 
no need for us to suspend our emergency authorization. We will continue 
to evaluate the permit application, to make a decision on whether to 
issue or deny the permit. If local authorization for the landfill is 
granted in the future, then a Corps permit decision would have been 
made.
    Question 9a. In an article by Gordon Russell, April 14, 2006, in 
The Times Picayune, entitled Storm debris landfill is OK'd, the 
following statement appeared. ``Asked whether the Corps had requested 
that DEQ approve a new facility, (Sid Falk, identified as the debris 
manager for the Army Corps) Falk said, ``Absolutely''. Did the Army 
Corps, either officially or unofficially request that the Louisiana DEQ 
approve the Chef Menteur landfill for use, and if not, please explain 
the statement in this article.
    Response. The Corps Louisiana Recovery Field Office did ask LA DEQ, 
in the interest of efficiency to permit additional landfills in the New 
Orleans area. Debris removal operations had been constrained by daily 
quantity limits imposed on the Gentilly landfill for receipt of 
construction and demolition (C&D) debris. We were also seeking 
alternatives for the receipt of asbestos containing waste material 
(ACWM) in closer proximity to demolition operations in the city of New 
Orleans. The only alternative receptors for C&D and ACWM in the New 
Orleans vicinity are the Hwy 90 and Riverbirch landfills, respectively, 
located in west Jefferson Parish, which is more distant from debris 
removal and demolition operations, entails traversing heavily populated 
communities and crossing the Mississippi River via the Huey P. Long 
Bridge, which is a marginally adequate roadway for debris hauling 
equipment. There have been several incidents of truck rollovers at the 
traffic circle at the base of the bridge on the west bank. The current 
estimate of demolition numbers in the City of New Orleans is 15,000 
structures. Approximately 5,000 structures have been identified by the 
city for demolition, which represent hazards to public safety. The city 
has received another 2,000 property owner requests for demolition. 
There are approximately 80,000 structures in the city that were damaged 
by flooding. It is highly speculative what number of these structures 
will eventually be identified for demolition. The limited availability 
of landfills poses the risk of operational failure if, for any reason, 
the sites become unavailable.
    Question 9b. How is the Corps preventing a conflict of interest as 
both the permitting Agency and a party interested in the future use of 
the landfill as a debris disposal site?
    Response. There is no conflict of interest. The Corps is neither a 
proponent nor opponent of any permit proposal. The Corps is reviewing 
the Chef Menteur landfill site under all applicable laws, regulations, 
and guidance, as we would any other proposal that requires Department 
of the Army authorization. The affiliation of any future users of this 
landfill has no bearing on the Corps' review of the permit application. 
There are no requirements or restrictions on the landfill operator to 
only accept debris from the Corps. The Corps office that deals with 
debris removal is separate from the Corps office working on the 
permitting issues. The Recovery Field Office and the New Orleans 
District's Regulatory Branch have different and independent 
responsibilities.

    Question 10. During the hearing, Senator Inhofe asked a question 
regarding the responsibility for removal of watery debris. Mr. Shea 
answered that FEMA is responsible based on the Stafford Act. Section 
407 of the Stafford Act states: ``The President, whenever he determines 
it to be in the public interest, is authorized--(1) through the use of 
Federal departments, agencies, and instrumentalities, to clear debris 
and wreckage resulting from a major disaster from publicly and 
privately owned lands and waters; and (2) to make grants to any State 
or local government or owner or operator of a private nonprofit 
facility for the purpose of removing debris or wreckage resulting from 
a major disaster from publicly or privately owned lands and waters.'' 
Under this authority, it seems clear that the President could designate 
any Federal Agency to take the lead for debris removal. Do you agree?
    Response. Yes, the President could designate any Federal Agency to 
take the lead for debris removal.

    Question 11. Do you believe that there should be an enhanced 
Federal role in major disasters or in catastrophic events for debris 
clean up that creates an authority for the Federal government to 
conduct debris clean up without the request of a local government?
    Response. No. The local government must be included as a partner in 
the response operations. All levels of local government will and do 
play critical roles in debris operations. Cooperation is key to an 
efficient and effective recovery. A Federal take-over would create a 
hostile environment that would only create more tension in an already 
tense environment and have a negative impact on both the responders and 
victims.

    Question 12. Please describe whether Corps personnel and 
contractors are segregating waste or if homeowners responsible for 
placement of their debris at the curb are performing this segregation. 
Please elaborate on your quality control mechanisms.
    Response. From the inception of the response, USACE identified 
numerous waste streams requiring segregation, collection, processing, 
staging, recycling, and disposal in order to maintain compliance. These 
waste streams include the following:
     Municipal solid waste
     Vegetative Debris
     Construction and Demolition Debris
     Small motorized Equipment
     Asbestos
     Electronic Waste
     Household Hazardous Waste (HHW)
     White Goods
     Tires
    The following flow diagram illustrates waste stream management 
USACE incorporated for the response.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Waste is being separated by both the homeowners and Corps 
personnel/contractors.
    j. Homeowners had the option of placing household hazardous waste 
at curbside and having either a USEPA or Mississippi Department of 
Environmental Quality (MDEQ) hazardous materials (waste) pickup crew 
pick up the waste. Likewise, if Corps personnel or contractors 
encounter hazardous materials (waste) in the process of debris removal 
or demolition, they could likewise move the hazardous materials (waste) 
curbside for USEPA/MDEQ pickup. In instances where hazardous materials 
(waste) were encountered and the situation was such that the Corps or 
Corps contractors needed assistance in managing the material during 
actual debris pickup or demolition, the USEPA / MDEQ was available to 
provide onsite assistance. One example was an outbuilding that had 
collapsed on the contents, which happened to be swimming pool 
chemicals. The USEPA provided onsite assistance during the demolition 
of this structure to help avoid a release and to be onsite to respond 
to a release should that have occurred.
    k. Waste is further segregated at the Corps temporary debris 
reduction sites (TDRS). Vegetative debris is segregated from 
construction/demolition debris, white goods, electronics, and any 
household hazardous waste that might have made it to the TDRS. The 
various waste streams are managed in a manner consistent with State and 
Federal regulations and guidance.
    l. Corps QA personnel are involved in debris management from the 
actual location where the debris is picked up to management of the TDRS 
facilities where the waste is further processed, segregated, and sent 
for final disposal or reuse. USACE provides hundreds of Quality 
Assurance representatives and the USACE contractor provides hundreds of 
Quality Control representatives in order to maintain debris management 
standards and requirements throughout the response. In addition to 
USACE and USACE contractors, there are numerous Agency representatives 
from US EPA, State DEQ, CDC, NIOSH, OSHA, FEMA, etc who provide 
operational, regulatory feedback concerning daily debris management, 
from cradle to grave. Corrective measures result from this robust, 
daily, and wide spread visibility for debris management.
    m. USEPA/MDEQ had QA inspectors that visited the waste generation 
points, the TDRS facilities, and the final disposal sites to ensure 
compliance with State and Federal regulations. Meetings were usually 
held weekly between these regulatory personnel and Corps debris 
environmental personnel. There was frequent contact by phone and e-mail 
between the Corps and EPA/MDEQ.
    n. USACE Vicksburg District augmented debris/waste management QA by 
involving MVK personnel with specific training, experience, and 
expertise in waste management. These personnel provided day-to-day 
technical assistance to the debris mission to help ensure all waste 
streams were managed in a manner consistent with State and/or Federal 
regulations and guidance.

    Question 13. Do you agree that it would be a step backwards if the 
Federal government returned to the ad hoc, disaster-by-disaster 
approach to providing disaster aid to States, localities, and 
individuals that existed before the Stafford Act?
    Response. Yes, the National Response Plan works and returning to a 
``ad hoc'' approach would be counter-productive.

    Question 14a. Until Hurricane Katrina, there were a very limited 
number of times during which the Congress diverted from normal 
procedures under the Stafford Act in the wake of a disaster. After 
Hurricanes Katrina and Rita, the Congress has enacted a significant 
number of legislative changes to the Stafford Act that modify the 
manner in which disaster assistance is provided, and many more 
proposals are pending. This was a catastrophic disaster worthy of 
special action, but it is unlikely to be the last of its kind, 
particularly with the changes we can expect as climate change occurs. 
What are your recommendations with regard to the potential creation of 
a ``third category'' of declaration under the Stafford Act that would 
be reserved for catastrophic events, for which special rules would 
apply?
    Response. If a third category of disaster is created, recommend 
that the threshold for declaring a catastrophic event be very clearly 
defined so that this category is not misused.

    Question 14b. What specific provisions of the Stafford Act would 
you recommend modifying in such a category?
    Response. For a catastrophic event, there should be a relaxation of 
rules related to debris eligibility and there should also be a 
relaxation of cost sharing requirements for the communities that are 
already devastated.

    Question 15a. The Stafford Act, and the Nation's disaster response, 
is focused on preparedness and response. There is very little long-term 
recovery authority in the Stafford Act. Do you believe there is a role 
for the Federal government in this area that should be more developed?

    Response. Many departments have programs and authorities that can 
assist with long term recovery. It would be helpful to have a mechanism 
defined for organizing and coordinating these authorities and programs 
for major and catastrophic disasters.
    Question 15b. Is there currently authority for the Federal 
Government to perform long-term recovery operations?
    Response. Many agencies already have authorities that can 
contribute to long-term recovery efforts.

    Question 15c. Do you believe that any Federal role should be 
limited to long-term recovery from catastrophic events?
    Response. The role of the Federal Government should be scalable, 
depending upon the magnitude of the event and the extent of damage.

    Question 16. During the hearing, you agreed to provide information 
regarding debris removal contracts for the record. Please provide a 
breakdown of the debris removal contracts let during Hurricane Katrina, 
who received them, what the dollar amounts were, who the prime 
contractors subcontracted out to and what accounts for the difference 
in dollar per pound removal in the original contract and the final 
subcontractor.
    Response. There are currently five contracts awarded to support the 
physical pickup of debris within Louisiana and there were 606 
subcontractors who are or have supported this mission: Contractor: 
Ashbritt, Inc., Dollars obligated to date: $28,253,000; Contractor: ECC 
Operating Services, Dollars obligated to date: $421,000,000; 
Contractor: CERES Environmental Services, Dollars obligated to date: 
$384,000,000; Contractor: Phillips & Jordan, Inc., Dollars obligated to 
date: $496,000,000.
    In Mississippi, two contracts were utilized for Hurricane Katrina. 
The initial contract was the ACI contract, Contract No. DACW29-03-0009-
AshBritt, Inc. This was an IDIQ contract. Vicksburg District could 
utilize up to $45M in contract capacity. Total obligated to date under 
the ACI contract was $42,740,000.00.
    Contract W912P8 0905-D-0025, awarded to AshBritt, Inc. is an IDIQ 
contract. Contract capacity is $1B. To date we have obligated 
$720,204,076.61.
    Large scale debris operations require literally thousands of pieces 
of equipment and multiple crews. The only way to rapidly assemble these 
resources is by bringing together numerous subcontractors. The Corps is 
not only paying for the removal of the debris, but also is paying the 
Prime Contractors to establish the management structure to rapidly 
assemble vast numbers of personnel and equipment to accomplish the 
missions over an extremely large geographical area.
                                 ______
                                 
 Responses by Don T. Riley to Additional Questions from Senator Clinton
    Question 1. FEMA estimated at the end of June that Hurricanes 
Katrina and Rita would generate 33 million cubic yards of debris 
including curbside, private property, and demolition debris. Those 
numbers were generated using estimates of 15,000 homes to be 
demolished, and current estimates have grown to include about 22,000 
homes to be demolished. About 1100 demolitions have been conducted to 
date.
    Under the National Response Plan (NRP), Emergency Support Function 
No. 3, the Army Corps of Engineers is delegated the responsibility for 
debris removal. The Army Corps has the responsibility of removing 
debris from public rights of way. In a declared emergency under the 
Stafford Act, local governments decide if they want to pick-up debris 
through their own contracting and be reimbursed through the Stafford 
Act or if they will request that the Army Corps perform this mission 
for them. Local governments must grant permission for the Army Corps to 
enter private property to remove debris in cases where the owner is not 
available.
    The Army Corps cites the slow pace of residents returning, the 
identification of applicable asbestos regulations and permitted 
landfills located nearby, and limitations on the amount of debris 
certain landfills may accept as hurdles to expediting debris clean-up.
    Debris clean-up has been identified as a hold-up in Katrina 
recovery. Is the Nation's debris clean-up and handling mission up to 
par, what changes, if any, need to be made in the Stafford Act/National 
Response Plan (NRP)/Agency activities?
    Response. The National Response Plan and Stafford Act are up to par 
as it relates to the debris mission and USACE has no recommendations at 
this time for changes. The system successfully brought together 
Federal, State and local governments to collectively manage the removal 
of debris. The job did seem overwhelming at times, given that the scope 
of the damage from Hurricanes Katrina and Rita was unprecedented, with 
some 90,000 square miles of land significantly impacted (an area larger 
than Great Britain) and the storms generating enormous volumes of 
debris. Over 120M cubic yards of debris eligible for Federal assistance 
was generated by the winds and coastal surges. That is nearly six times 
more debris generated by Hurricane Andrew.
    Tremendous progress has been made in removing debris over the past 
year. The Corps is responsible for the removal and disposal of debris 
in 54 counties in 4 States totaling 57M cubic yards. In first 7 months 
the Corps removed over 45M cubic yards of this debris (approximately 80 
percent). In comparison, the Corps was responsible for the removal of 
15M cubic yards of debris after Hurricane Andrew in the first 8 months 
after the storm made landfall.

    Question 2. I would like the Army Corps and FEMA to provide me a 
breakdown of the debris removal contracts let during Hurricane Katrina 
including who or what entities got what dollar amounts, to whom did the 
prime contractors subcontract out for and for how much, and what 
accounts for the difference in dollar per pound removal in the original 
contract and the final subcontract. I think we must get a handle on 
debris removal contracts.
    Response. There are currently five contracts awarded to support the 
physical pickup of debris within Louisiana and there were 606 
subcontractors who are or have supported this mission: Contractor: 
Ashbritt, Inc., Dollars obligated to date: $28,253,000; Contractor: ECC 
Operating Services, Dollars obligated to date: $421,000,000; 
Contractor: CERES Environmental Services, Dollars obligated to date: 
$384,000,000; Contractor: Phillips & Jordan, Inc., Dollars obligated to 
date: $496,000,000.
    In Mississippi, two contracts were utilized for Hurricane Katrina. 
The initial contract was the ACI contract, Contract No. DACW29-03-D-
0009-AshBritt, Inc. This was an IDIQ contract. Vicksburg District could 
utilize up to $45M in contract capacity. Total obligated to date under 
the ACI contract was $42,740,000.00.
    Contract W912P8-05-D-0025, awarded to AshBritt, Inc. is an IDIQ 
contract. Contract capacity is $1B. To date we have obligated 
$720,204,076.61.
    Large scale debris operations require literally 1000's of pieces of 
equipment and multiple crews. The only way to rapidly assemble these 
resources is by bringing together numerous subcontractors. The Corps is 
not only paying for the removal of the debris, but also is paying the 
Prime Contractors to establish the management structure to rapidly 
assemble vast numbers of personnel and equipment to accomplish the 
missions over an extremely large geographical area.
                                 ______
                                 
 Responses by Don T. Riley to Additional Questions from Senator Vitter
    Question 1. The Corps is the lead Agency on debris removal. What is 
the status of hurricane debris removal (percentage completion)? When do 
you expect to be finished with this work?
    Response. The status of the hurricane debris removal (percentage 
completion) is depicted in the attached presentation.
    It is difficult to offer any projections of when the work might be 
complete since there are many determining factors over which we do not 
have control.

    Question 2. Could you compare the debris policy exercised in 
Mississippi to that applied in Louisiana? Is Mississippi utilizing 
landfills that are unlined to dispose of lead and asbestos, etc?
    Response. While implementation of Federal, state, and local 
requirements can vary from state to state, the USACE debris policies 
are the same irrespective of location. Wastes must be segregated, 
collected, transported, recycled, treated, and disposed of in 
conformance with applicable Federal, State, and local requirements.
    Lined landfills (Type I, II) are designed and constructed to 
capture leachate generated from the breakdown of wastes. USACE disposed 
of wastes requiring lined landfills where appropriate. For example, 
USACE disposed of municipal solid waste in a Type I, II lined landfill 
while acting under direct Federal assistance to DHS FEMA and for the 
City of New Orleans. Additionally, US EPA used Subtitle C landfills 
with liners and monitoring provisions to manage disposition of 
hazardous wastes, as required.
    The construction and demolition (C&D) waste stream resulting from 
demolitions or identified from curb-side collection can be disposed of 
in Type III landfills, which are equipped with low permeability soils 
at the landfill base that can minimize release of leachate, if any. The 
standards for this base layer are less than that provided by a liner as 
C&D media do not break down creating leachate concerns for the 
subsurface as are found in Type I landfills.
    Pre and post Katrina solid waste regulations do not require 
asbestos containing materials (ACM) be disposed of in a lined landfill 
because asbestos fibers do not break down and create leachate. However, 
many Type I, II landfills that are permitted to accept ACM are lined to 
address leachate concerns from other sources.
    The sources of lead in C&D waste streams may include lead-based 
paint, lead pipes, lead in solder, etc. Prior to hurricane recovery, 
solid waste regulations in the State of MS and LA provided for lead-
based paint adhered to C&D to be classified as a C&D waste stream. 
Thus, C&D debris with adhered lead-based paint can be appropriately 
disposed of in a Type III landfill. For clarification, USACE was not 
tasked with removal of lead-based paint chips per se. Such a response 
would require analysis of paint chips for lead to determine appropriate 
waste classifications, treatment requirements, if any, prior to 
disposal. The lead contained in C&D media subject to disposal in Type 
III landfills is not expected to be chemically altered enough to create 
leachate concerns.
    Though I would have liked to have seen more parishes receive the 
extension of the 100 percent Federal share for debris removal, I do 
appreciate that the President extended the 100 percent cost share for 
many of the hardest hit parishes. Now, almost a year later, we have 
already hauled away more than 25 times more than the debris in New York 
after September 11, but we still have a long way to go. Right after the 
storm, local government leaders were told one thing and then another on 
how debris removal would work. First, they were told that, if they 
chose the Corps for the debris work, 100 percent of the cost share 
would last until the work was done. Then, FEMA corrected that to say 
that was not the case and that the cost share for the Corps work would 
be the same as if the parishes had chosen their own contractors. As you 
might guess, many local leaders chose the Corps, even though they 
believe the contractors of their choice might have been cheaper or 
faster with the debris removal.

    Question 3. In the future, how will the Corps coordinate better 
with FEMA to ensure this sort of confusion does not happen in future 
disaster? Clearly, confusion of this sort only delayed vital debris 
removal work.
    Response. There was a great deal of confusion over cost share, 
however USACE has no role in setting, changing, or communicating cost 
share information to the state and local governments. USACE will 
continue to train response personnel to direct all cost share questions 
to a FEMA representative.

    Question 4. I understand there are a few landfill facilities used 
for disposal even though the USACE, EPA and FEMA knew that the facility 
did not have a Federal Clean Water Act permit for discharge of 
contaminated stormwater or a 404 permit required by USACE regulations 
as well as other environmental concerns. What steps has the Corps taken 
to ensure environmental compliance and safety?
    Response. MVN has issued a Cease and Desist (C&D) order to Hamps 
Landfill, which is located adjacent to Old Gentilly Landfill. Hamps is 
adhering to the terms and conditions of the C&D. We are presently 
working with Louisiana Department of Environmental Quality to resolve 
the legal issues. We know of no other landfill that is operating 
without a Department of the Army permit.
                               __________
    Statement of Deborah Y. Dietrich, Director, Office of Emergency 
    Management, Office of Solid Waste and Emergency Response, U.S. 
                    Environmental Protection Agency
    Good morning Mr. Chairman and members of the committee. I am 
Deborah Dietrich, Director of the Office of Emergency Management in the 
Office of Solid Waste and Emergency Response, U.S. Environmental 
Protection Agency. Thank you for the opportunity to discuss EPA's role 
under the National Response Plan (NRP) and Agency response efforts 
under the Stafford Act following Hurricane Katrina.
    The magnitude of the damage from Hurricane Katrina presented 
significant challenges for EPA and our partners at the Federal, State 
and local levels. EPA has a long standing and positive relationship 
with FEMA, the U.S. Army Corps of Engineers (USACE), the U.S. Coast 
Guard and other Federal agencies, as well as our partners in State and 
local government. As with other Federal agencies, our involvement is 
facilitated through the NRP. While there is always room for 
improvement, we believe that these relationships provided the basis for 
an effective response to the most destructive natural disaster in the 
history of the United States.
    Under the NRP, EPA is the Coordinator and Primary Agency for 
Emergency Support Function (ESF) No. 10-Oil and Hazardous Materials 
Response. Our primary activities under this support function include: 
efforts to detect, identify, contain, clean up or dispose of oil or 
hazardous materials; removal of drums and other bulk containers; 
collection of household hazardous waste; monitoring of debris disposal; 
air and water quality monitoring and sampling; and protection of 
natural resources. EPA is also a Support Agency for a number of other 
Emergency Support Functions.
    For example, under ESF No. 3-Public Works and Engineering, which 
addresses solid waste debris removal, EPA provides necessary support to 
the U.S. Army Corps of Engineers (USACE) by assisting in the location 
of disposal sites, providing safety guidance for areas affected by 
hazardous materials, assisting in the management of contaminated 
debris, and by coordinating or providing assessments, data, expertise, 
tecludeal assistance, and monitoring.
    In response to Gulf Coast hurricanes, and in coordination with our 
partners, EPA performed a wide variety of tasks including: response to 
more than 70 emergency situations including hazardous materials 
releases and oil spills; assessment of more than 4,000 water and 
wastewater systems to determine viability after the storm; 
environmental monitoring and sampling of water, air, floodwater and 
residual sediment resulting in more than 400,000 analyses. EPA 
conducted extensive outreach through the media and the Agency Web site 
and distributed millions of flyers to alert the public and communities 
about potential risk and methods to address handling of potentially 
contaminated debris. EPA also responded to FEMA's request for 
assistance and rescued approximately 800 evacuees. Over the months 
since Katrina struck the Gulf Coast, more than 1,600 EPA employees from 
across the country participated in the response. At the height of 
activities, approximately 245 EPA employees and 1,400 contractors and 
support personnel were deployed.
    Removal and proper disposal of the unprecedented amount of debris 
in the affected areas has been a major undertaking since the beginning 
of the response. While the USACE has the federal lead responsibility 
for debris removal under the NRP, EPA has worked closely with USACE, 
FEMA, and State and local governments to assist in debris removal 
activities. For example, EPA assisted the States in developing guidance 
regarding demolition of structurally unsound buildings as well as 
guidance for debris burning. Along with FEMA and the USAGE, EPA 
provided assistance to the States as they developed their debris 
removal plans.
    EPA collected more than 4 million unsecured or abandoned containers 
of potentially hazardous wastes and facilitated the recycling of more 
than 630,000 electronic goods. We have also assisted in the proper 
handling and recycling of more than 380,000 large appliances. These 
collections included curbside pick-up as well as the operation of 
emergency collection sites.
    The management and disposal of non-hazardous debris is a State and 
local responsibility. However, at the request of the States of 
Louisiana and Mississippi, EPA assigned staff to provide support by 
visiting debris disposal sites, and observing waste handling, including 
sorting and management practices at emergency disposal sites. 
Observations of waste handling practices were reported to State and 
local authorities for any appropriate follow-up action.
    EPA's mission in Alabama and Mississippi is now complete and any 
remaining activities have been transitioned to the States. In 
Louisiana, EPA activities are winding down and are now focused on the 
collection and disposal of household hazardous waste, landfill 
monitoring, and environmental sampling. These efforts are generally 
occurring in the St. Bernard and Orleans parishes. Work is expected to 
be completed in October 2006.
    At EPA, following the events of September 11, 2001, we introduced 
an Agency wide National Approach to Response designed to improve our 
readiness for incidents of national significance. As part of this 
initiative, we provided an ICS training and exercise program for 
emergency response personnel and others, which allowed our personnel to 
organize into Unified Command with the U.S. Coast Guard and States very 
early in our response under ESF-No. 10. The Agency also implemented a 
response support corps (to include staff beyond our responders) 
allowing us to identify staff in advance who could use their skills and 
expertise in the response. In the area of information technology, 
improvements to systems regarding formatting, review and storage of 
laboratory data facilitated the process we used to analyze data quickly 
so that information about potential risk can be provided to the public 
and responders. Overall, we believe this approach contributed 
significantly to our Katrina response efforts.
                               conclusion
    The response to Hurricane Katrina has clearly necessitated strong 
cooperation among the Federal, State and local government agencies. We 
believe that the Stafford Act, the National Response Plan and the 
preparedness activities under the National Incident Management System 
contributed positively to our ability to respond to Hurricane Katrina. 
EPA has recently participated in the review of the NRP and we will 
continue to work with our Federal, State and local partners to address 
the Nation's preparedness for future catastrophic events.
                                 ______
                                 
     Responses by Deborah Y. Dietrich to Additional Questions from
                             Senator Inhofe
    Question 1. Please discuss the assignment of responsibility for 
water borne debris and spills in disasters such as Hurricane Katrina. 
What is the role of the EPA, the Coast Guard, or the Corps of 
Engineers?
    Response. Water borne debris.--In accordance with the National 
Response Plan (NRP), the Federal Emergency Management Agency (FEMA) has 
the overall responsibility of mission assigning Federal agencies to 
assist with the response under a Stafford Act declaration. The NRP 
assigns primary responsibility for managing debris to the U.S. Army 
Corps of Engineers (USACE) and FEMA, including waterborne debris. USACE 
provides direct field assistance in removing debris, while FEMA 
provides financial assistance to applicants who otherwise have the 
legal authority to remove the debris. USACE may remove water borne 
debris with its own resources or, if needed, request that other 
supporting Federal agencies to assist. (Some support agencies, such as 
the U.S. Department of Agriculture's Natural Resources Conservation 
Service also have direct statutory responsibility for providing 
financial assistance for the removal of certain water borne debris.) 
USACE may call upon the U.S. Coast Guard (USCG), for example, to assist 
with the removal of marine debris and wrecks from waterways and 
navigable channels. During Hurricane Katrina, the U.S. Navy's 
Supervisor of Salvage also assisted with vessel salvage efforts. The 
Environmental Protection Agency (EPA) typically does not assist in the 
actual removal of non-hazardous marine debris, but may provide 
technical advice and assistance to other Federal agencies as well as to 
state and local governments regarding appropriate debris management.
    Waterborne spills.--Under the NRP, FEMA is responsible for mission 
assigning Federal agencies to assist with the response under a Stafford 
Act declaration. The NRP assigns primary responsibility for cleaning up 
oil spills and discharges of hazardous materials into the environment 
to EPA for the inland zone and to USCG for the coastal zone. EPA and 
USCG may call upon their support agencies (such as the National Oceanic 
and Atmospheric Administration) for assistance. Under this authority, 
during Hurricane Katrina, both EPA and USCG removed hazardous materials 
(e.g., drums, tanks) from inland and coastal waterways.

    Question 2a. In the event of a terrorist attack involving a ``dirty 
bomb'' or nuclear device, what agencies would be involved in the 
cleanup of contaminated debris? Who is in charge?
    Response. Under the NRP, the Department of Homeland Security (DHS) 
would declare an incident involving a dirty bomb or nuclear device as 
an Incident of National Significance (INS). It also is likely that the 
President would issue a Stafford Act declaration to provide Federal 
assistance to State and local governments. Under this scenario, DHS 
would coordinate the overall Federal response and appoint a Federal 
Coordinating Official (FCO), on behalf of the President, to work with 
the State Coordinating Official (SCO) to identify requirements and then 
coordinate the Federal support activities. Under the Nuclear/
Radiological Incident Annex of the NRP, different Federal agencies are 
assigned as the ``Coordinating Agency'' for different types of nuclear/
radiological events. The Coordinating Agency, in general, assists DHS 
in managing the overall radiological aspects of the response.
    For radiological terrorist incidents, the Coordinating Agency would 
be (1) The Department of Defense (DoD) or Department of Energy (DOE) 
for terrorist incidents involving their facilities, materials, or 
weapons; (2) The Nuclear Regulatory Commission (NRC) for terrorist 
incidents involving material or facilities licensed by the NRC or an 
Agreement State; or (3) The DOE, for terrorist incidents not covered by 
the categories above. For this category, the role of Coordinating 
Agency transitions to EPA for the environmental cleanup phase.
    For a dirty bomb or nuclear device incident falling under category 
3, DOE would first assist DHS and FEMA in coordinating the overall 
Federal radiological response, then the Coordinating Agency role would 
transition to EPA for the cleanup phase. During the cleanup phase, EPA 
would continue to work with the assistance of NRP agencies, including 
DOE. EPA would also respond in the initial phase, but in a support role 
to DOE, DHS, and FEMA. The NRP assigns responsibility for managing 
contaminated debris, in particular, to the USACE for providing direct 
field assistance, and to FEMA for providing financial assistance. It is 
expected that both DOE and EPA would work closely with USACE and FEMA 
to appropriately manage contaminated debris. USACE and FEMA could also 
request the help of other debris management support agencies under the 
NRP as needed.

    Question 2b. Are the standard procedures of the NRP going to be 
deployed, or will other procedures be used?
    Response. The NRP is always in effect and it applies to all 
incidents requiring a coordinated Federal response; however, the 
implementation of NRP coordination mechanisms is flexible and scalable. 
DoD, DOE, and NRC may have more detailed standard operating procedures 
that would apply specifically to radiological terrorism incidents 
involving their materials and facilities.

    Question 3a. What revisions to the Stafford Act would you recommend 
in light of our experience after a catastrophic disaster like Katrina? 
Are long-term recovery policies and authorities sufficient?
    Response. EPA has not developed a position on Stafford Act 
revisions nor conducted an analysis of existing recovery policies.

    Question 3b. What are the limits and strengths of the existing 
recovery polices?
    Response. EPA has not developed a position on Stafford Act 
revisions nor conducted an analysis of existing recovery policies.
                                 ______
                                 
     Responses by Deborah Y. Dietrich to Additional Questions from
                            Senator Jeffords
    Question 1. In response to some questions I posed to the Army Corps 
in a letter regarding the pace of debris clean-up, the Corps identified 
the following hurdles: the slow pace of residents returning, asbestos 
regulations, proximity of landfills, and limits on theamount of debris 
certain landfills may accept. What is EPA doing to eliminate those 
hurdles for the Gulf Coast and to prevent them from becoming hurdles in 
future disasters?
    Response. The U.S. Environmental Protection Agency (EPA) took 
reasonable steps to address environmental concerns in the aftermath of 
Hurricane Katrina. Where State agencies felt that flexibility in the 
application of the National Emissions Standards for Hazardous Air 
Pollutants (NESHAP) might be helpful, EPA exercised that enforcement 
discretion by providing No Action Assurances in both Louisiana and 
Mississippi to ensure that procedural provisions of these regulations 
would not impede progress while still protecting the environment. While 
the process for No Action Assurances required coordination and 
collection of information from the U.S. Army Corps of Engineers (USACE) 
and States, it was conducted at the same time that other policies and 
procedures were being established by State and local authorities 
including those addressing access to private property. Major demolition 
activities were not ready to begin prior to the issuance of the No 
Action Assurances.&
    The Louisiana Department of Environmental Quality (LDEQ is the 
permitting authority for construction and demolition (C&D) debris 
landfills. Early in the response operation, in response to questions 
from the Federal Emergency Management Agency (FEMA) and the USACE, LDEQ 
determined that there was sufficient capacity for the various debris 
streams resulting from the damage caused by Hurricanes Katrina and 
Rita. This information was provided to the USACE debris coordinator 
during the debris coordination meetings that have been occurring on at 
least a weekly basis since September 2005. These meetings involve 
various parties but principally, FEMA, State Debris Coordinator, USACE, 
LDEQ, EPA, and a variety of other representatives (Parish and local). 
Landfill proximity and capacity issues have been clearly articulated. 
In January 2006, FEMA issued a letter to the USACE limiting the amount 
of C&D waste hauled to the Gentilly landfill. LDEQ, in cooperation with 
EPA and USACE, performed a comprehensive analysis of the issues 
affecting the Gentilly landfill's capacity to accept C&D waste and 
found considerable additional capacity in the landfill. LDEQ has 
assured EPA and FEMA that, based on full utilization of the Gentilly 
landfill, sufficient capacity exists to handle the hurricane related 
debris.
    In addition to coordination with the USACE during Hurricane Katrina 
response efforts, EPA and USACE have since met on several occasions to 
discuss future debris management operations. EPA will continue this 
coordination with USACE in an effort to do everything possible to 
achieve timely and efficient operations in future responses.

    Question 2. How many people do the EPA and the state of Louisiana 
have dedicated to oversight of debris separation activities at 
landfills or elsewhere in the state, how often and for what period of 
time are they posted at individual landfills and what type of 
verification has EPA conducted of state monitoring procedures?
    Response. EPA has had as many as four individuals monitoring 13 
landfills twice each week. As progress is made and the number of 
landfills receiving C&D debris decreases, the level of EPA's staff will 
reflect this progress. EPA's actions are in support of the LDEQ's 
hurricane response efforts. To date, EPA has conducted more than 500 
landfill observation visits. In addition to its normal landfill 
oversight, LDEQ maintains a constant presence at five of the higher 
profile landfills receiving C&D debris.

    Question 3. How is EPA exercising its authority under section 
404(c) of the Clean Water Act to review the Army Corps wetlands 
permitting action with regard to the Chef Menteur site--for example, 
were you involved prior to the issuance of the emergency authorization 
to begin work, what extra oversight have you dedicated to debris 
sorting at the site, has the EPA considered vetoing the permit, and 
what is your involvement in the ongoing permitting action?
    Response. As described above, EPA has conducted site observations 
at the Chef Menteur site twice weekly, and LDEQ has an individual 
present at the site each day. As of the week of August 14, 2006, the 
Chef Menteur site stopped receiving C&D debris.
    It is our understanding that the emergency section 404 
authorization for the Chef Menteur site is covered under New Orleans 
District General Permit 20 (NOD-20) ``Emergency Permit Procedures for 
the States of Louisiana and Mississippi within the Boundaries of the 
Mississippi Valley Division.'' Therefore, EPA Region 6 did not have an 
opportunity to review a specific emergency 404 authorization for the 
Chef Menteur site in advance. Region 6 staff did review the draft 404 
permit, proposed by USACE on April 28, 2006, and visited the site on 
May 24, 2006. The Region 6 permit reviewer transmitted comments to 
USACE on May 30, 2006, recommending that a liner (clay or other similar 
material) be considered. There reviewer also questioned the applicant's 
plans for management of stormwater runoff. These comments did not rise 
to the level that would trigger a formal objection to the proposed 404 
permit. Region 6 staff discussed the liner concern with LDEQ staff on 
June 28, 2006. LDEQ staff provided information regarding the existence 
of a natural clay liner at the site (boring samples taken in 1995 
indicated the area had an average of 10 feet of clay soils). As a 
result of this discussion, Region 6 sent a June 30, 2006, communication 
to USACE stating that a liner was not required. EPA's concerns about 
stormwater runoff have been addressed by the requirements of LDEQ's 
Fifth Amended Declaration of Emergency and Administrative Order, dated 
March 31, 2006, which established effluent limitations and monitoring 
requirements for discharges of landfill wastewater from a construction/
demolition debris and woodwaste landfill and for non-contaminated 
stormwater discharges from such landfills.

    Question 4. Can you describe EPA's analysis and conclusions, if 
complete, regarding each of the issues raised in the Fish and Wildlife 
Service letter raising concerns about the Chef Menteur site, 
particularly the concern that placing construction and demolition 
debris in an unlined landfill located in a wetland could result in 
leaching and resultant persistent contamination of groundwater, surface 
water, and adjacent wetland habitats.
    Response. Under the Clean Water Act, as the section 404 permitting 
authority, USACE is responsible for considering and responding to 
comments by other Federal agencies (as well as the public, in general) 
on their proposed permits. Therefore, it is not EPA's practice to 
conduct analysis on the issues raised by other agencies (such as the 
Fish and Wildlife Service) on section 404 permits proposed by USACE. 
EPA's response to Question 3 above provides additional information 
related to this issue.

    Question 5. I have been informed that your Agency reviewed the 
draft permit for the Chef Netherlands fill in May, provided comments, 
and that the Agency's issues were resolved. Yet, the Fish and Wildlife 
Service believes that use of this landfill could result in ``persistent 
contamination of groundwater, surface water, and wetlands.'' Please 
describe what your Agency's concerns were, how they are the same or 
different than those of the Fish and Wildlife Service, and how they 
were resolved.
    Response. Both EPA and the U.S. Fish and Wildlife Service commented 
on the need for a liner. Comments associated with EPA's review of the 
draft permit for the Chef Menteur landfill were discussed in our 
response to Question 3 above.

    Question 6a. The EPA has issued a ``no action assurance'' letter 
for the state of Louisiana with regard to asbestos handling 
requirements. Can you describe which element of asbestos regulations 
are waived by this letter?
    Response. On February 24, 2006, EPA agreed to grant additional 
flexibility to Louisiana based on the issues associated with response 
efforts to Hurricanes Katrina and Rita. More specifically, EPA 
reiterated that on February 3, 2006, EPA issued a No Action Assurance 
for the asbestos NESHAP, 40 CFR Part 61, Subpart M, to allow residences 
that are subject to a government-issued demolition order based on the 
residence being (1) structurally unsound but not necessarily in danger 
of imminent collapse, or (2) moved off of its foundation, to be treated 
as though the demolition order is based on a determination that the 
house is structurally unsound and in danger of imminent collapse.
    In addition, EPA further extended the February 3, 2006, No Action 
Assurance to residences that are subject to government-issued 
demolition orders because they are uninhabitable for other 
environmental reasons (e.g., from excessive flood damage). Under this 
No Action Assurance, as under the February 3, 2006, action, such 
residences maybe treated as though they are subject to government-
issued demolition orders based on a determination that they are 
structurally unsound and in danger of imminent collapse and thus 
subject to section 61.145(a)(3) of the asbestos NESHAP regulation. 
Also, EPA extended the applicability of this discretion to include more 
than the LDEQ and the USACE, adding that it also applies to local 
governments or persons operating at their direction. These 
flexibilities are restricted to residences affected by Hurricanes 
Katrina and Rita. It does not apply to residences with greater than 
four units and is only in effect until February 3, 2007.

    Question 6b. Which elements still apply?
    Response. Such residences as mentioned above are subject to the 
requirements of 40 C.F.R. section 61.145(a)(3) which requires that such 
sources comply with 61.145(b)(1), (b)(2), (b)(3)(iii), (b)(4) [except 
(b)(4)(viii)], (b)(5) and)(4) through (c)(9). Generally, these sections 
require notice to proper authorities of the demolitions, updates to the 
notices as the situation may change, updates as early as possible, 
detailed information about the demolitions, (e.g., location, 
description of the process) and adequate wetting of the structures to 
minimize emissions. Proper disposal, consisting of all the elements in 
40 C.F.R. Section 61.150 and 61.154, including no visible emissions or 
other, alternative barriers to access by the public and other 
recordkeeping, is also required.

    Question 6c. How is your Agency ensuring on-the-ground compliance 
with this letter?
    Response. Through a delegation of authority, LDEQ has primary 
authority to implement and enforce NESHAP asbestos standards. LDEQ, 
with the support of EPA, has completed several activities to help 
monitor compliance. EPA initially participated in approximately 100 
joint inspections, with LDEQ as the lead, of various landfills in 
Louisiana. These inspections were only a portion of the total number of 
inspections EPA participated in, as EPA tracked total inspection 
activities. In addition, joint training workshops were held on NESHAP 
requirements. The workshops were attended by USACE, FEMA, and various 
contractors. Also, in quarterly meetings of upper level management from 
LDEQ and EPA, highlights of the past quarter are raised and discussed.
    Periodic conference calls continue with representation from EPA, 
LDEQ, USACE, Occupational Safety and Health Administration (OSHA), 
FEMA, and various contractors. These calls include discussion on the 
requirements of the Federal regulations.

    Question 6d. What is the current status of the Louisiana Department 
of Environmental Quality's compliance with the terms of EPA's letter?
    Response. To the best of our knowledge, LDEQ is currently in 
compliance with the terms of EPA's letter. EPA continues to work 
closely with LDEQ to assure proper implementation of the asbestos 
NESHAP. EPA conducts frequent conference calls and responds to 
questions as they arise.

    Question 7a. The EPA's no action assurance letters on asbestos 
states that the Agency reserves the right to revoke or modify the no 
action assurance letter it provided for the state of Louisiana with 
regard to asbestos requirements if, ``. . . such action is necessary to 
protect public health or the environment.'' What data will EPA be 
collecting that will permit the Agency to make this determination in a 
timely manner?
    Response. To monitor proper observance of the No Action Assurance 
letters, EPA is reviewing the results of inspections mentioned in the 
response to Question 6c above and any available air monitoring data. 
Periodic conference calls with LDEQ, USACE, OSHA, FEMA, and various 
contractors also include discussions on LDEQ's use of the No Action 
Assurance and the requirements of the Federal regulations.

    Question 7b. Will EPA continue monitoring activities during housing 
demolition?

    Response. Yes. EPA will continue to assist with monitoring 
activities through participation in joint or independent site 
inspections and periodic conference calls.

    Question 8a. During the hearing, I asked a question regarding the 
degree to which EPA'sdebris mission can be completed, given that there 
are somewhere between 15,000 and 22,000 homes left to be demolished. 
Can you elaborate on which activities related to debris that EPA plans 
to abandon in the next 6 months, which activities EPA has already 
ended, and which activities EPA plans to continue through the 
completion of all planned demolitions?
    Response. EPA remains committed to continuing activities associated 
with the hurricane response effort. EPA's current efforts include: air 
monitoring, landfill observation, Murphy Oil oversight, and household 
hazardous waste collection and disposal. Working with FEMA, EPA will 
continue to support Louisiana in its recovery efforts until the 
activities are completed or when a state, local, or another Federal 
Agency assumes the responsibility.

    Question 8b. Will air-monitoring activities continue throughout 
home demolition?
    Response. As indicted in the response to Question 8a above, EPA's 
air monitoring efforts are ongoing and will continue until this 
activity is transitioned to a state, local, or another Federal Agency.

    Question 9. During the hearing, Senator Inhofe asked a question 
regarding the responsibility for watery debris removal. Mr. Shea 
answered that FEMA is responsible based on the Stafford Act. Section 
407 of the Stafford Act states: ``The President, whenever he determines 
it to be in the public interest, is authorized (1) through the use of 
Federal departments, agencies, and instrumentalities, to clear debris 
and wreckage resulting from a major disaster from publicly and 
privately owned lands and waters and (2) to make grants to any State or 
local government or owner or operator of a private nonprofit facility 
for the purpose of removing debris or wreckage resulting from a major 
disaster from publicly or privately owned lands and waters'' Under this 
authority, it seems clear that the President could designate any 
Federal Agency to take the lead for debris removal. Do you agree?
    Response. The authority in section 407 of the Stafford Act is given 
to the President. Section 321 of the Stafford Act says, ``. . . [T]he 
President may exercise, either directly or through such Federal Agency 
as the President may designate any power or authority conferred to the 
President by this chapter.'' The President in Homeland Security 
Presidential Decision Directive/HSPD-5 required the Secretary of 
Homeland Security to develop the National Response Plan (NRP), which 
provides ``the structure and mechanisms for national level policy and 
operational direction for Federal support to State and local incident 
managers and for exercising direct Federal authorities and 
responsibilities.'' [HSPD-5 (16)(a)]. The Department of Homeland 
Security (DHS), of which FEMA is a component, coordinates Federal 
operations and resources. Under Emergency Support Function (ESF)-3-
Public Works and Engineering Annex_USACE is the primary Agency for 
debris removal.

    Question 10. In response to the question, ``How will you ensure the 
proper handling and disposal of RCRA Subtitle C hazardous waste that is 
mixed with solid waste or household hazardous waste'', which I posed to 
the Army Corps in a recent letter, the Corps responded that EPA is 
responsible for handling and disposing of hazardous waste during this 
response. Please describe how you are ensuring that RCRA subtitle C 
hazardous waste is properly handled.
    Response. Under EPA's ESF-10 mission assignment under the NRP, EPA 
was responsible for the removal of accessible drums, tanks, and other 
containers of hazardous materials. That material was characterized and 
disposed of in permitted disposal facilities. USACE, under ESF-3, was 
responsible for debris disposal, including the demolition of unsafe 
structures and the resulting debris, and the proper segregation of 
hazardous materials from the debris. EPA, under our support to the 
affected states, provided additional oversight of USACE's debris 
operation, both in the field and at the emergency disposal sites. In 
support of USACE's mission, EPA disposed of hazardous materials 
segregated from the debris piles by USACE.
    Substantial resources, time, and personnel are applied to the 
segregation of debris. These efforts span all stages of the process. 
Following is a summary of related activities:
     EPA distributed a large number of flyers to citizens, volunteers, 
and contractors which educate them on the proper separation procedures;
     EPA conducted oversight of curbside collection;
     EPA posted signs at landfills;
     Landfill towers review incoming loads;
     Landfill spotters observe the disposal of material;
     Landfill machine operators visually inspect the material as they 
position it in the landfill; and
     EPA conducts Landfill Observations to review the landfill waste 
handling procedures.

    Question 11. In your letter to me responding to questions relating 
to debris handling, the EPA cited a Mississippi case where the 
Mississippi DEQ shut down a site when monitors discovered potential 
adverse impacts to surface water as evidence sofa monitoring system at 
work. Please describe what role EPA had in this case, if any, and how 
the Agency is ensuring that this level of vigilance is present at each 
landfill throughout the Katrina-impacted area.
    Response. EPA's primary role at the D.W. Laney landfill, and at all 
of the other and fills, was to monitor and report violations related to 
waste segregation. The landfill monitors made notes in their daily 
inspection forms regarding observations of potential impacts to both 
ground water and surface water. Based on these field observations, EPA 
recommended to Mississippi DEQ that, because of the potential for 
ground water and surface water contamination, we did not think that 
this was a suitable site for a construction and demolition (C&D) 
landfill.

    Question 12a. Asbestos.--How is EPA verifying that the conditions 
pertaining to removal and wetting of asbestos-containing materials 
prior to demolition as well as handling during disposal are being 
followed?
    Response. EPA has delegated to the states the responsibility for 
implementing NESHAP asbestos standards, including oversight and 
enforcement of these standards. EPA'srole is to support the states and 
provide assistance when requested. EPA has assisted in development fade 
of policies and has provided training. EPA has also assisted the states 
by visiting landfills to observe waste handling practices and 
suggesting improvements for handling debris.

    Question 12b. Specifically, how many inspections at landfills in 
Louisiana has the EPA conducted, is EPA relying primarily on state 
inspections, and if so, what mechanism is the Agency using to verify 
that state inspections are actually occurring?
    Response. EPA is observing activities at the landfills and has 
conducted more than 500 observation visits. EPA monitors some landfills 
used for C&D debris for waste segregation. This effort is described in 
more detail in response to question 10.
    LDEQ has delegation of NESHAP asbestos standards and requires 
compliance with NESHAP. LDEQ, with the support of EPA, has completed 
several activities to help monitor compliance. EPA Region 6 enforcement 
initially participated in approximately 100 joint inspections, with 
LDEQ as the lead, of various landfills in Louisiana. These inspections 
were only a portion of the total number of inspections in which EPA 
participated; EPA tracked the total inspection activities. In addition, 
joint training workshops were held on NESHAP requirements. The 
workshops were attended by the USACE, FEMA, and various contractors. 
Also, periodic conference calls help EPA monitor compliance of NESHAP 
requirements.

    Question 13. Do you agree that it would be a step backwards if the 
Federal Government returned to the ad hoc, disaster-by-disaster 
approach to providing disaster aid to states, localities, and 
individuals that existed before the Stafford Act?
    Response. In EPA's view, the Stafford Act provides appropriate 
authority for disaster assistance.

    Question 14a. Until Hurricane Katrina, there were a very limited 
number of times during which the Congress diverted from normal 
procedures under the Stafford Act in the wake of a disaster. After 
Hurricanes Katrina and Rita, Congress has enacted a significant number 
of legislative changes to the Stafford Act that modify the manner in 
which disaster assistance is provided, and many more proposals are 
pending. This was a catastrophic disaster worthy of special actions, 
but it is unlikely to be the last of its kind, particularly with the 
changes we can expect as climate change occurs. What are your 
recommendations with regard to the potential creation of a ``third 
category'' of declaration under the Stafford Act that would be reserved 
for catastrophic events, for which special rules would apply?
    Response. EPA has not developed a position on Stafford Act 
revisions.

    &Question 14b. What specific provisions of the Stafford Act would 
you recommend modifying in such a category?
    Response. EPA has not developed a position on Stafford Act 
revisions.

    &Question 15a. The Stafford Act, and the Nation's disaster 
response, is focused on preparedness and response. There is very little 
long-term recovery authority in the Stafford Act. Do you believe there 
is a role for the Federal Government in the area that should be more 
developed?
    Response. EPA believes that existing legislation is adequate.

    Question 15b. Is there currently authority for the Federal 
Government to perform long-term recovery operations?
    Response. The NRP addresses Long-Term Recovery and Mitigation in 
ESF-14. ESF-14 provides a framework for the Federal Government to 
provide support to State, regional, local, and tribal governments, non-
governmental organizations (NGOs), and the private sector designed to 
enable community recovery from the long-term consequences of an 
Incident of National Significance. This support consists of available 
programs and resources of Federal departments and agencies to enable 
community recovery, especially long-term community recovery, and to 
reduce or eliminate risk from future incidents, where feasible.

    Question 15c. Do you believe that any Federal role should be 
limited to long-term recovery from catastrophic events?
    Response. EPA has not developed a position on the Federal role 
regarding long-term recovery.

    Question 16. What are the criteria for an ``enhanced C&D landfill'' 
per the June 29, 2006 Louisiana DEQ Emergency and Administrative order, 
how are they different from the Subtitle D criteria for C&D landfills 
under existing EPA regulations, were they approved by EPA, and what 
were the terms associated with any approval granted? Please provide any 
relevant documentation for the record.
    Response. EPA has reviewed the expanded definition of a C&D 
landfill under the State's Emergency Declaration with EPA's current 
definition found in 40 CFR 257.2. We find that the State's expanded 
definition is comparable to EPA's definition.
    The State issued its Sixth Amended Declaration of Emergency and 
Administrative Order on June 26, 2006 (Order). On page 7, section 2(d) 
the Order states that, ``For the purposes of this Order, construction 
and debris shall be the materials indicated in Appendix D of this 
Declaration.'' Appendix Provides (in pertinent part) that the following 
hurricane generated debris maybe disposed of in a C&D landfill:
     Nonhazardous waste generally considered not water-soluble, 
including but not limited to metal, concrete, brick, asphalt, roofing 
materials, sheet rock, plaster, lumber from construction or demolition 
project, and other building or structural materials;
     Furniture, carpet, and painted or stained lumber contained in the 
demolished buildings;
     The incidental admixture of construction and debris with 
asbestos-contaminated waste. (incidental asbestos-contaminated debris 
that cannot be extracted from the demolition debris); and
     Yard waste and other vegetative matter.
    Appendix D provides that the following materials shall not be 
disposed of in a C&D landfill:
      ``White goods and putrescible waste.''
    The EPA definition for C&D landfill is found in 40 CFR 257.2 which 
provides that a C&D landfill cannot accept RCRA hazardous waste or 
industrial solid waste. The State's Appendix D wastes listed above do 
not include these kinds of waste. EPA's definition goes on to say that 
a ``C&D landfill typically receives any one or more of the following 
types of solid wastes: road work material, excavated materials, 
demolition wastes, construction/renovation waste and site clearance 
wastes.'' The types of waste identified in the State's Appendix D list 
seem consistent with what EPA identifies as material typically sent to 
a C&D landfill. EPA recognized in a 1995 report entitled ``Construction 
and Demolition Waste Landfills'' that various states are receiving a 
variety of materials in C&D landfills and identifies the various types. 
EPA's definition recognizes these broad categories of waste.
    While EPA's solid waste rules do not directly address asbestos 
waste, EPA notes that a C&D landfill that receives asbestos waste 
meeting the definition of 40 CFR part 61, Subpart M, must meet the 
National Emission Standard for Asbestos found in 40 CFR 61.154.

    Question 17. Has EPA reviewed every type of waste, i.e., solid or 
hazardous, for which procedures were modified by this emergency order, 
and if so, did the Agency find that the handling of such waste is 
consistent with Federal requirements?
    Response. EPA has reviewed types of solid waste for which 
procedures were modified by the emergency order. The response to 
Question 16 above addresses consistency with Federal requirements in 
handling of such waste.

    Question 18. Please describe how the ``enhanced'' C&D landfills 
comply with the Federal standards under the Asbestos National Emissions 
Standard for Hazardous Air Pollutants (NESHAP)(40 CFR 61.150) for 
disposal of this type of waste material?
    Response. Louisiana's C&D landfills may be ``enhanced'' to comply 
with Federal asbestos NESHAP requirements so that these C&D landfills 
could accept the anticipated large volumes of debris from the 
hurricanes. They would be ``enhanced'' in that they would add certain 
precautions required of NESHAP landfills to ensure that the asbestos is 
handled in accordance with Federal regulations. The improvements maybe 
minimal, as many of these landfills already have several of the 
precautions outlined in 40 C.F.R. section 61.150. They may need to add 
signage or fencing, or ensure that debris is properly covered. The 
enhancements will vary from landfill to landfill depending on the 
degree of current compliance.

    Question 19a. Over the last 200 years, the Nation has moved from an 
ad hoc approach to disaster response in Congress, to a coordinated, 
reliable response. The premise has formed the cornerstone of the 
Nation's disaster response since the 1960s and early 1970s. Under the 
Stafford Act, the Federal Government may provide assistance upon 
declaration of a major disaster or an emergency. A Governor must 
request a major disaster declaration, and it is limited by section 102 
to: ``. . . natural catastrophe (including any hurricane, tornado, 
storm, high water, wind-driven water, tidal wave, tsunami, earthquake, 
volcanic eruption, landslide, mudslide, snowstorm or drought), or 
regardless of cause, any fire, flood or explosion, in any part of the 
United States, which in the determination of the President causes 
damage of sufficient severity and magnitude to warrant major disaster 
assistance under this Act to supplement the efforts and available 
resources of States, local governments, and disaster relief 
organizations in alleviating the damage, loss hardship, or suffering 
caused thereby.'' An emergency is defined by section 102 as ``any 
occasion or instance for which, in the determination of the President, 
Federal assistance is needed to supplement State and local efforts and 
capabilities to save lives and to protect property and public health 
and safety, or to lessen or avert the threat of a catastrophe in any 
part of the United States.'' I am concerned that there is a hole in the 
authorities provided under the Stafford Act--the response authorities 
of the Federal Government that are available in a major disaster may 
not be available in all types of terrorist events that might only meet 
the current definition for an emergency declaration. Would the release 
of a biological agent that does not involve an explosion meet the 
criteria to even consider a major disaster declaration, and if your 
answer is yes, please explain? Are there any EPA authorities that could 
be or are planned for use in this type of an event?
    Response. DHS is responsible for determining whether the release of 
a biological agent that does not involve an explosion meets the 
criteria for a major disaster declaration under the Stafford Act. Under 
the Comprehensive Environmental Response, Compensation, and Liability 
Act (CERCLA), EPA has authority to respond to releases or substantial 
threats of releases of pollutants or contaminants that may present an 
imminent and substantial danger to the public health or welfare. 
Biological agents may fall within the definition of pollutant or 
contaminant in Section 101(33) of CERCLA. EPA used this authority in 
the Capitol Hill anthrax response.

    Question 19b. Do you believe that organizations like the American 
Red Cross can plan for a response to an epidemic or biological attack 
without certainty about what assistance the Federal government will 
provide?
    Response. NGOs and volunteer organizations collaborate with first 
responders, governments at all levels, and other agencies and 
organizations providing relief services to sustain life, reduce 
physical and emotional distress, and promote recovery of disaster 
victims when assistance is not available from other sources. The 
American Red Cross is a primary agency within ESF-6--Mass Care, 
Housing, and Human Services. In addition, the American Red Cross is 
listed as a supporting agency under the NRP for:
     ESF-3--Public Works and Engineering;
     ESF-5--Emergency Management;
     ESF-8--Public Health and Medical Services;
     ESF-11--Agriculture and Natural Resources;
     ESF-14--Long-term Community Recovery; and
     ESF-15--External Affairs.

    Question 19c. Do you believe it is a good idea for State and local 
governments to divert resources from emergency response potentially 
days after an event to attempt to move legislation through Congress 
that meets their needs?
    Response. EPA has no position on State and local governmental 
legislative efforts.

    Question 19d. What changes should be made to the Stafford Act to 
ensure that the Federal Government has the appropriate authorities to 
respond to all types of events, including biological agents, weapons of 
mass destruction, or epidemics in a coordinated, planned manner?
    Response. EPA has not developed a position on Stafford Act 
amendments.
                               __________
     Responses by Deborah Y. Dietrich to Additional Questions from 
                             Senator Vitter
    Question 1. EPA plays a supporting role to the Corps in debris 
removal. While I recognize that CD waste is a state responsibility 
under Subtitle D of RCRA,there are concerns about asbestos, lead, 
solvents, cleaners, fuel, fertilizer and many other hazardous 
substances being co-mingled in the debris. At what point is there a 
Federal responsibility to review this disposal policy?
    Response. As you indicate, the permitting and oversight of solid 
waste landfills in primarily a state responsibility. Federal law 
addresses solid waste management generally, but permitting and direct 
regulation of solid waste landfills are primarily state 
responsibilities to be conducted pursuant to the state law. The 
Resource Conservation and Recovery Act (RCRA) Subtitle D establishes a 
framework for the management of solid waste that is not hazardous 
waste. As directed by Subtitle D, the U.S. Environmental Protection 
Agency (EPA) promulgated the minimum criteria for states to use in 
defining solid waste management disposal practices and in determining 
whether a facility is a prohibited ``open dump.'' EPA also issued 
criteria for municipal solid waste landfills that receive hazardous 
waste from households or small quantity generators and other types of 
non-municipal solid waste landfills that receive small quantity 
generator wastes. RCRA Subtitle D does not, however, specifically 
provide EPA with permitting authority over these solid waste landfills 
that receive hazardous waste from households or small quantity 
generators.
    EPA has oversight authority over the delegated hazardous waste 
programs in states. We have seen no evidence that RCRA hazardous wastes 
have entered a construction and debris (C&D) landfill. EPA also has 
authority under RCRA section 7003 to take necessary actions including 
issuing orders, in situations that may present ``imminent and 
substantial endangerment'' from the handling of solid or hazardous 
waste. Landfill operations are being monitored by the states and we do 
not believe that current circumstances warrant EPA taking action under 
section 7003.
    With respect to the co-mingling of waste, debris sorting is 
conducted by contractors for the U.S. Army Corps of Engineers (USACE) 
and, in areas where USACE is not involved, by contractors for the local 
government. Whether debris is sorted at curbside or at staging areas 
prior to recycling depends upon contractor operations, as specified in 
the relevant USACE or local government contract. Debris is generally 
sorted by waste type (e.g., white goods, construction debris, 
vegetative debris, or household hazardous waste).
    Finally, with respect to the co-mingling of asbestos, the Louisiana 
Department of Environmental Quality (LDEQ has been delegated the 
responsibility for the National Emissions Standards for Hazardous Air 
Pollutants (NESHAP) requirements under the Clean Air Act by EPA.

    Question 2. I understand there are a few landfill facilities used 
for disposal even though USACE, EPA and FEMA knew that the facility did 
not have a Federal Clean Water permit for discharge of contaminated 
stormwater or a 404 permit required by USACE regulations as well as 
other environmental concerns. What steps has EPA taken to ensure 
environmental compliance and safety?
    Response. EPA is not aware that any landfill facilities are 
operating without proper section 404 authorization. USACE has lead 
responsibility to enforce section 404 permitting compliance.
    In terms of the National Pollution Discharge Elimination System 
(NPDES) stormwater discharge permitting requirements, LDEQ has informed 
us that some facilities are covered under the State's emergency 
declaration with the requirement to follow the provisions identified in 
LDEQ's general permit for construction and demolition debris landfills. 
The general permit is based upon EPA rules (40 CFR 445, Landfills 
Effluent Limit Guidelines). Should the emergency declaration expire, 
then the facilities would be required to seek and obtain coverage under 
the C&D landfill general permit. In terms of section 404 permitting 
requirements, USACE is the permitting authority. Some facilities may be 
covered by USACE's emergency authorization process. For instance, it is 
our understanding that the emergency section 404 authorization for the 
Chef Menteur site is covered under New Orleans District General Permit 
20 (NOD-20) ``Emergency Permit Procedures for the States of Louisiana 
and Mississippi within the Boundaries of the Mississippi Valley 
Division.''
                               __________
    Statement of Corey Gruber, Acting Executive Director, National 
        Preparedness Task Force, Department of Homeland Security
                              introduction
    Good morning Chairman Inhofe and Senator Jeffords. Thank you for 
the opportunity to appear before this committee to discuss important 
preparedness initiatives within the Department of Homeland Security 
(DHS).
    Our Nation's emergency and public safety services are quite simply 
the finest in the world. They safeguard our institutions, communities, 
and critical infrastructure around the clock, and respond heroically 
when we face sudden challenges from the forces of nature or assaults by 
the action of man. Yet without a consistent, logical and sustainable 
way to prepare for 21st century homeland security challenges, unity of 
effort and operational readiness have proven to be elusive. Our 
homeland security enterprise has truly extraordinary capacity, but it 
suffers from a prevailing tendency to prepare in isolation_as if each 
community, State, or Federal department is ``playing its own 
ballgame.'' Unsystematic and insufficiently collaborative activities 
have exacted a severe penalty in uneven performance and repeated and 
costly operational miscues_often at the expense of the most socially 
vulnerable segments of society. Today's culture of preparedness 
requires reexamining our understanding of risk based on threat, 
vulnerability, and consequence; what it means to be prepared, and how 
we collaborate across a large, divided, decentralized and highly 
diversified enterprise.
    The Nation needs a dedicated and sustained national effort to 
organize, guide investments in, and strengthen national preparedness. 
Preparedness is both a process and an effect. As a process it provides 
intergovernmental, nongovernmental and private sector partners with the 
opportunity to collaborate on specific patterns of preparatory actions 
that contribute to our collective operational readiness. As an effect 
it contributes to risk reduction through mitigation and to operational 
effectiveness by planning, training, equipping, exercising and 
evaluating our ability to prevent, protect from, respond to or recover 
from threatened or actual terrorist attacks, major disasters or other 
emergencies.
    Americans are by nature problem solvers. We rarely pause to look 
back and see how much we have accomplished. Homeland security 
preparedness is a good example. Not long ago it was uncommon for 
professionals from multiple disciplines in the same community to sit 
down to jointly plan or to participate in an exercise. No more. We are 
`resetting our habit switches.' In a few short years we have trained, 
equipped and exercised hundreds of thousands of front line responders 
and made concerted efforts to improve planning and explore new means of 
collaboration. We are turning a corner as a prepared Nation.
    Yet while much has been accomplished, we can never be ``good 
enough.'' We know from painful experience there are systemic 
infirmities in our preparedness. We fully understand that preparedness 
is a quest_not a guarantee. Even the most ready community cannot fully 
anticipate surprise. But while preparedness cannot guarantee success, 
inadequate preparedness is a proven contributor to failure. Many 
problems have been the subject of disaster research for decades, but 
absent dedicated and undivided attention to preparedness, they remained 
under-emphasized or neglected. Others were unveiled in the shocking 
immediacy of 9/11 or Hurricane Katrina. They shook our familiar 
patterns of behavior, and perceptions of risk_profoundly affecting the 
status quo culture of preparedness.
    The Department of Homeland Security (DHS) leads a national 
preparedness partnership with our fellow Federal departments and 
agencies, state, local, and tribal governments, nongovernmental 
organizations and the private sector. Secretary Chertoff and Under 
Secretary Foresman have made it clear that reforms are necessary, and 
will be accomplished through a collaborative national effort. The 
Second Stage Review and establishment of the Preparedness Directorate 
are rapidly integrating preparedness programs, activities and services 
to meet the needs of our most important asset_the homeland security 
professionals across this great Nation_and to build and apply the 
processes, products and technology necessary to deal with all manner 
and magnitude of threats and hazards. These efforts are integral to our 
national resilience and are a key component of the Nation's active, 
layered defenses.
    George Orwell said: ``Life is a race between education and 
catastrophe'', which is an apt description for emergency preparedness. 
We are in a perpetual contest with nature and at war with a determined 
adversary. History demonstrates that following catastrophic events like 
the Great Mississippi Flood of 1927, the attack on Pearl Harbor, or at 
the advent of a generational conflict like the Cold War, the national 
culture of preparedness acquired a ``new set of eyes.'' Our 
predecessors adjusted their thinking, reformed their approaches and 
recalibrated the culture of preparedness. We have been doing the same, 
through immediate measures in the aftermath of major events as well as 
by instituting deliberate and methodical efforts to answer four 
fundamental questions that are necessary to our national preparedness:
     What types and magnitude of threats and risks do we face?
     What level of performance will we demand from our homeland 
security capabilities?
     What are the most cost effective means for providing required 
capabilities with the needed performance levels for the threats and 
risks we specified?
     What resources are available?
    The answers to these questions frame a national risk-balancing, 
hedging strategy. We must balance two portfolios of risk: the forces of 
nature and the predations of man. Nature is non-adaptive and morally 
neutral. Major events are often characterized by seasonality and some 
degree of warning and even predictability. We have familiarity and 
experience in our favor. Terrorism engages us in a deadly contest of 
competitive learning. We face a patient and adaptive foe whose attacks, 
while less frequent, are characterized by surprise and are part of a 
deliberate strategic campaign.
    Both nature and terrorists have the potential to inflict 
catastrophic levels of harm. Each of these portfolios of risk has an 
inherent degree of impenetrable uncertainty. Balancing risk and 
uncertainty with available resources requires hard choices and 
prioritization. We are doing that by gaining an ever-increasingly 
sophisticated understanding of risk, by distributing resources in a 
manner that provides a hedge against uncertainty (as in the case of 
base allocations of grant funds) and by building agile capabilities. We 
owe our first line responders and citizens no less.
    Building truly interchangeable homeland security capabilities takes 
more than merely embracing a loosely defined concept like ``all 
hazards.'' We have turned this concept into a systematic planning 
methodology using a capabilities-based framework to meet the 
requirements of Homeland Security Presidential Directive (HSPD)-8, 
``National Preparedness.'' HSPD-8 establishes national policies to 
strengthen the preparedness of the United States to prevent, protect 
against, respond to, and recover from threatened or actual domestic 
terrorist attacks, major disasters, and other emergencies. It charged 
the Secretary of Homeland Security, in coordination with the heads of 
other appropriate Federal departments and agencies and in consultation 
with State, local, territorial, and tribal governments to develop a 
National Preparedness Goal.
    The Goal and its associated tools define capabilities that address 
the full range of homeland security missions, from prevention through 
recovery. It adopts an all-hazards and risk-based approach to 
preparedness. In acknowledging that the Nation cannot prepare fully for 
every possible contingency, the Goal builds interchangeable 
capabilities and strikes a balance that weighs risks against available 
resources.
    To compensate for uncertainty, the Goal provides a set of National 
Planning Scenarios representing a range of threats and hazards that 
warrant national attention. The National Planning Scenarios identify 
common assumptions and provide the foundation for the identification of 
capabilities and tasks to guide nationwide planning regarding potential 
vulnerabilities and consequences (or impacts) of major events. Analysis 
of the range of potential impacts is essential for defining 
requirements, both in terms of capacity (how many are needed) and 
proficiency (how well must they be able to perform). These requirements 
must be matched to available resources in emergency operations plans 
(for the near-term) and in preparedness strategies (for the long-term). 
Federal, State, local, territorial, and tribal officials supplement 
this approach with hazard identification and risk assessments that 
provide additional data on their specific threats and hazards, 
vulnerabilities and consequences. As a result, officials can tailor the 
approach to differences in the risk and resource base across the 
Nation.
    The Goal defines what it means for the Nation to be prepared in 
terms of a national vision, capabilities, and priorities. It identifies 
the process and priorities for arriving at the destination; it does not 
dictate the specific path. It is up to Federal, State, local, 
territorial, and tribal officials, working collaboratively with the 
private sector, non-governmental organizations, and individual 
citizens, to determine how to achieve the Goal. To assist officials in 
that endeavor, the Goal establishes a Capabilities-Based Planning 
process supported by three planning tools: the National Planning 
Scenarios, a Target Capabilities List (TCL), and a Universal Task List 
(UTL). Target Capabilities (the TCL) provide a common reference system 
for intergovernmental, nongovernmental, and private sector 
preparedness, and the comprehensive task library (the UTL) provides a 
common language.
    Preparedness ultimately is the responsibility of each individual 
government, consistent with their authorities and available resources. 
This includes coordinating preparedness activities among partners 
operating within their jurisdictional borders, as well as across 
jurisdictional and geographic borders when dictated by identified 
hazards and risk assessments. Preparedness should be coordinated using 
the same multi-agency coordination entities used for operations, as 
described in the National Incident Management System (NIMS). This is 
the essence of the concept for implementing the Goal, particularly the 
national priority to Expand Regional Collaboration.
    Preparedness is an integral component of the NIMS. NIMS states that 
individual Federal, State, local, territorial, and tribal governments 
are responsible for implementing a preparedness cycle in advance of an 
event and including the private sector, non-governmental organizations, 
and individual citizens as appropriate. A preparedness cycle may be 
summarized as follows:
     Plan,
     Organize and Staff,
     Equip,
     Train,
     Exercise, Evaluate, and Improve.
    As I have highlighted, preparedness is not just an administrative 
function within the Department of Homeland Security. It applies to each 
office and component within DHS, across the Federal interagency 
community as well as our State, local, territorial, tribal and private 
sector partners, and to our most critical team members_the American 
people. The job of the Preparedness Directorate is to achieve 
integration and synchronization of these efforts within DHS, and to 
improve coordination with our Federal, State, and local partners. It is 
a shared national mission, not simply a Federal activity.
                    preparedness directorate mission
    The mission of the Preparedness Directorate is to prepare 
individuals and public and private sector organizations for disasters 
through defining and fostering a culture of preparedness, educating 
stakeholders, strengthening prevention and resilience capabilities and 
developing the next generation of homeland security professionals.
    To achieve a broader and truly national preparedness, the 
Department and our State, local, tribal, and private sector partners 
must coalesce, integrate, and synchronize many disparate initiatives 
while preserving critical missions, cultures, and identities of 
individual organizations. Therefore, integration, synchronization, and 
communication become the foundations to our national preparedness 
efforts.
                building a national preparedness system
    One of the key roles of the Preparedness Directorate is building 
our national preparedness system, which allow us to better answer the 
question, ``What risks should we prepare for and how well must we 
prepare?'' Given the range of roles and responsibilities of DHS, we 
must ensure that homeland security capabilities are internally coherent 
and collectively competent, and are organized within a fully integrated 
and adaptable national preparedness system.
    A fully integrated national preparedness system will result in:
     Strategic and operational flexibility that accommodates risk and 
uncertainty;
     A capabilities-based framework that organizes the Nation to act 
in concert, and with the speed and operational effectiveness required 
for effective prevention and response; and
     The means to measure readiness by an individual entity or at 
various levels of government.
    This national preparedness system will improve the Nation's 
homeland security and fully leverage the domestic all-hazards emergency 
response system for natural hazards and other emergencies.
    State, local, tribal and private sector partners are not an adjunct 
to the development of a national preparedness system. Instead, they are 
integral to the development of a functional and successful system_
bringing partnership commitment and participation to sustain and 
achieve sufficient preparedness capacity to ensure the Nation can 
effectively deal with catastrophic events. The Nation depends on the 
resources of State, local and tribal governments, as well as the 
capacity of our nongovernmental and private sector partners to provide 
the majority of homeland security capabilities.
    Some of the critical initiatives supporting this system are:
     Finalizing national and regional risk assessment methodologies to 
identify the types and magnitudes of risks we face;
     Encouraging capability-based planning that supports 
synchronization both vertically (across levels of government) and 
horizontally (across agencies at each level of government);
    Providing risk-based allocation of Federal assistance to State and 
local governments and other funding recipients and targeted towards 
building adaptable and interchangeable target capabilities, including 
capabilities that strengthen citizen resilience;
     Finalizing a system of preparedness measures to assess national, 
regional, and local preparedness.
    Several of these initiatives are well underway in DHS and other 
Federal agencies. The Preparedness Directorate serves as the architect 
for this ``system of systems'' approach to fully integrated national 
preparedness.
                         nationwide plan review
    Following Hurricane Katrina, the President directed DHS to conduct 
an immediate review of emergency plans for the Nation's major cities. 
Congress subsequently tasked DHS and the Department of Transportation 
(DOT) to review plans for all States and territories and 75 of the 
Nation's largest urban areas, with particular emphasis on evacuation 
planning.
    The Nationwide Plan Review, the most comprehensive assessment of 
catastrophic planning yet undertaken in this country, was designed and 
conducted by the Department of Homeland Security in conjunction with 
all 56 U.S. States and Territories and 75 of the Nation's largest urban 
areas. The assessment consisted of two phases and was conducted in just 
over 6 months.
    The two-phase methodology consisted of a self-assessment by States 
and urban areas of their own emergency operation plans, followed by an 
expert peer review. Both phases focused on whether emergency operations 
plans were sufficient for managing a catastrophic event. The Phase 1 
Report, issued February 10, 2006, was compiled using self-assessment 
data received from States and urban areas. For Phase 2, Peer Review 
Teams comprised of 77 former State and local homeland security and 
emergency management officials visited every State and 75 urban areas 
to review and validate the self-assessments. In total, the Phase 2 
teams spoke with 1,086 public safety and homeland security officials 
and reviewed 2,757 emergency operations plans and related documents. 
The Phase 2 Report reflects findings from both phases of the Nationwide 
Plan Review.
    Planners and emergency management officials at all levels of 
government are working to strengthen plans and formalize mutual aid 
agreements. Existing plans and capabilities serve the Nation well for 
the events most commonly experienced in the United States. However, the 
review found that disaster planning for catastrophic events in the 
United States suffers from outmoded planning processes, products, and 
tools. Plans are not coordinated in a systematic fashion, and are not 
expansible for the scope of catastrophic events that could potentially 
occur. The Review outlines 15 initial conclusions for States and urban 
areas and 24 for the Federal Government. Most focus on the need to make 
specific improvements in plans and to modernize national planning 
efforts.
    The conclusions for States and urban areas should not be a 
surprise, and include the need for coordination of planning across 
jurisdictions and levels of government; improved evacuation planning; 
concerted attention to special needs populations; planning for 
continuity of operations and continuity of government; assuring a 
robust and resilient command structure; enhanced patient tracking; 
improved resource management; and strengthened operational and public 
communications.
    The conclusions for the Federal Government focus the benefits of a 
shared national homeland security planning system; strengthening 
collaboration and coordination; improving emergency communications; 
creating incentives for planning and planning excellence; strengthening 
regional planning capabilities; and better implementing capabilities 
based planning. More work remains on how to translate such conclusions 
into concrete action.
    While the results were mixed, the report acknowledges that many 
States and urban areas have initiatives well underway that are on the 
right trajectory, and are already modernizing and strengthening 
existing catastrophic plans. Completing the Review allowed us to 
establish the first ever baseline of the status of the Nation's plans. 
DHS is working with States and urban areas to improve plans, support 
training and exercise initiatives, and engage in discussions on how to 
meet the catastrophic planning challenges identified in the final 
Report. Plans are the centers of gravity that guide and unite national 
efforts in response to catastrophic disasters. Planning modernization 
is a priority for the Department.
                  the national preparedness task force
    To build the National Preparedness System and respond to the 
recommendations of the Nationwide Plan Review, the Preparedness 
Directorate has established a new National Preparedness Task Force, for 
which I serve as the Executive Director. The Task Force will bring 
together DHS preparedness policy, planning, exercise, evaluation, and 
field management assets to create comprehensive solutions to the 
preparedness challenges I have outlined.
    As an enabling element of the Preparedness Directorate, the Task 
Force will oversee integrated national preparedness efforts to ensure 
coordinated strategic partnering and development of standard 
preparedness doctrine. Preparedness policy, doctrine, planning, 
exercises and expertise are critical enablers for our operational 
components and our intergovernmental, nongovernmental, and private 
sector partners. This reflects the vision outlined in HSPD-8. The 
Department requires a lead preparedness integrator to support national 
preparedness transformation. This function will be accomplished within 
the Preparedness Directorate to promote synchronization and integration 
of national preparedness initiatives and requirements. The Task Force 
will link requirements with emerging technology, doctrine, and 
operational requirements, techniques, and procedures to ensure the 
integration, interoperability, and operational effectiveness of the 
Nation's homeland security capabilities.
    The President and Congress have consistently identified the need 
for specific and measurable goals for preparedness, continuous national 
collaboration, application of assistance where the need is greatest, 
determination of essential capabilities that communities need, and 
advanced planning processes that ensure plans are adequate and feasible 
and achieve required synchronization. HSPD-8, Hurricane Katrina, and 
the strategic requirements of the war on terrorism have demonstrated 
the need for transformation in how we achieve national preparedness. 
The Task Force is empowered to drive transformation by enhancing 
homeland security preparedness through new combinations of concepts, 
capabilities, people, and organization that exploit the Nation's 
advantages and protect against our vulnerabilities by building and 
sustaining national resilience.
                      prep relationship with fema
    As Secretary Chertoff has stated, DHS must operate as an all 
hazards, fully integrated organization. He said this when he announced 
our Second Stage Review one month prior to Katrina, and our experiences 
since then have only reinforced our belief in this approach. The 
Federal Emergency Management Agency--and States and communities across 
the country must be prepared to respond to and recover from all 
disasters, whether caused by nature or terrorism. While FEMA and its 
partners are engaged in response and recovery, which can often be of 
protracted duration, the Preparedness Directorate ensures that there is 
no disruption to preparedness programs, activities and services to the 
balance of the Nation.
    The need for undivided attention to preparedness is especially 
acute given the characteristics of the homeland security community. The 
homeland security mission is exceptionally interdependent and 
interrelated, yet the community is loosely coupled, dispersed and 
decentralized, with rigidly divided responsibilities, distinct 
interests and cultures and a highly diversified administrative 
apparatus. Given these factors, preparedness requires unwavering focus 
and attention.
    The Nation's homeland security operational tempo moves through a 
series of ``crests and troughs.'' This is best illustrated by the cycle 
of activity associated with preparations for hurricane season. We 
concentrate preparedness activities to ensure readiness for an upcoming 
season (the ``crest''), and then reconstitute our capabilities when and 
if operational tempo allows (the ``trough''). In the past, the Nation 
has tried to ``time'' hyper-readiness with ``crests'' and conduct 
preparedness activities when and if the operational tempo provides 
relief. Our operational tempo has intensified due to natural cycles of 
severe weather activity, and because we are engaged in a global war on 
terror. Trying to prepare a nation in episodic bursts of activity that 
suffer frequent and protracted interruptions is difficult and 
ultimately unsustainable. This is why the Department has established a 
Directorate that commits its undivided attention and a dedicated focus 
to the Nation's preparedness and operational readiness.
    By focusing FEMA on its core competencies of response and recovery, 
and a new Directorate on preparedness, the Secretary acknowledged the 
critical nature of both missions to the Nation's homeland security. We 
have not taken FEMA out of the preparedness business, nor have we taken 
preparedness out of FEMA. We have created a centralized engine for 
coordinating the multitude of preparedness activities within DHS, and 
to better plan for coordinating with other Federal, State, and local 
departments and agencies. Our department's operating components, such 
as FEMA and the Coast Guard will continue to perform their agency-
specific preparedness activities to ensure operational preparedness.
    In addition to working closely with DHS' other operating components 
and its response and recovery partners across all levels of government, 
FEMA is intricately linked with the Preparedness Directorate. The 
Preparedness Directorate handles grants, training, exercises, 
infrastructure protection, and medical preparedness, among other key 
activities. Consolidating these programs and activities in a single 
Directorate is yielding considerable synergy which benefits FEMA as 
part of a single, all-hazards department. The Administration recognizes 
that there are other means of integrating these efforts, and is working 
with Congress on how those could be implemented effectively.
                                 close
    In closing, Mr. Chairman, the President and Congress have 
consistently identified the need for specific and measurable goals for 
preparedness, national cooperation, application of assistance where the 
need is greatest, determination of essential capabilities that 
communities need, and advanced planning processes that ensure plans are 
adequate and feasible and achieve required synchronization. HSPD-8 
``National Preparedness,'' Hurricane Katrina lessons learned, and the 
strategic requirements of the war on terrorism all support 
transformation of our national preparedness. We must change our 
practices and doctrine to reflect our 21st century challenges, to 
exploit the Nation's strengths and protect against our vulnerabilities 
by building and sustaining national resilience.
    This Nation has successfully faced comparably daunting challenges 
throughout its history. The men and women of the Department of Homeland 
Security and their counterparts across government and in 
nongovernmental organizations and the private sector are acting to 
correct systemic infirmities in our preparedness and the specific 
shortcomings that were revealed in preparations for and the emergency 
response to Hurricane Katrina. Our undivided attention to the Nation's 
preparedness gives us a set of new eyes' to methodically probe for root 
causes and understudied problems and look at the people, processes, 
products and technology that comprise this increasingly sophisticated 
and effective homeland security enterprise.
    Thank you once again for providing me the opportunity to speak with 
you today and for your continued support to the Department.
    I look forward to answering any questions you may have.
                               __________
  Statement of Armond Mascelli, Vice President of Domestic Response, 
                           American Red Cross
    Chairman Inhofe, Ranking Member Jeffords, and Members of the 
committee, my name is Armond Mascelli and I am the Vice President for 
Domestic Response at the American Red Cross. I am pleased to appear 
before you today, and I commend you for your leadership in taking a 
close look at the Stafford Act in an effort to better prepare the 
Nation for the next major disaster.
    For 125 years, the American Red Cross has been America's partner in 
prevention, preparedness and response to all disasters. Chartered by 
Congress in 1905 to provide assistance in the time of disaster and to 
mitigate suffering caused by disaster, the American Red Cross continues 
to realize this mandate today.
    The Red Cross, a nationwide network of more than 800 community 
based chapters, eight regional service areas and 35 blood services 
regions, is governed by volunteers and supported by the generous 
donations of the American people. With 1 million volunteers and more 
than 30,000 employees, the Red Cross trains nearly 12 million people in 
lifesaving skills and assists U.S. military families. The Red Cross 
also is the largest supplier of blood and blood products to more than 
3,000 hospitals across the Nation.
    The Red Cross is effective because it relies on a local network to 
offer support and provide services to those who are affected by 
disasters. Simply put, we exemplify neighbor helping neighbor.
    To better meet the challenges of ever growing major and 
catastrophic disasters, we continue to build upon the strength of our 
local network. We are also reaching out to and partnering with others 
in the nonprofit, charitable, and faith-based communities like never 
before. Additionally, we are improving coordination efforts with 
Federal, State and local officials.
    Each year, the American Red Cross responds to more than 70,000 
disasters. The vast majority of these disasters are single family home 
fires. We stand ready to support the first responders in times of 
disaster, and in addition, provide support for those that find their 
lives disrupted by disaster.
    Individual client assistance has always been at the forefront of 
the Red Cross response, and in providing this assistance, our first 
priority is to ensure that those affected by disaster have a safe 
shelter and are provided with the basic necessities of life such as 
food, toiletries, bedding and first aid. Our second priority is 
assisting them as they take their first steps on the road back to 
recovery. Meeting these immediate emergency needs helps to bridge the 
gap between a disaster occurring and resources offered by Federal and 
State governments--the very assistance that is provided to individuals 
through the Stafford Act.
    I also want to take this opportunity to explain the role of the 
American Red Cross in the National Response Plan (NRP). In addition to 
being a service provider, the Red Cross has a primary responsibility as 
the lead for an emergency support function in the National Response 
Plan. We also have supporting responsibilities in six other emergency 
support functions.
    The primary role that we play in Emergency Support Function No. 6 
(ESF6) is mass care, housing, and human services. We are the primary 
agency for coordinating mass care while DHS/FEMA has primary 
responsibility for housing, and human services. In other words, the Red 
Cross coordinates Federal resources in support of State and local mass 
care efforts.
    In our coordination role, we process requests from State and local 
authorities or other non-governmental organizations (with State 
concurrence) for Federal assistance through the appropriate FEMA 
channels. This is accomplished by a process where the Red Cross ESF6 
liaison completes an Action Request Form (ARF) detailing the specific 
Federal assistance required. The ARF is forwarded to the FEMA Human 
Services Branch Chief, where if approved, it becomes a mission 
assignment for tasking.
    The American Red Cross itself does not mission assign, nor are we 
mission assigned under the NRP. We provide this expertise as a 
contribution to our Nation and its people in need. It is important to 
re-emphasize that State and local authorities decide their respective 
priorities for Federal mass care assistance. This is consistent with 
the National Incident Management System (NIMS) upon which the NRP is 
based--that all incidents should be handled at the lowest possible 
organizational and jurisdictional level. We do not have directive 
authority over any other Federal Agency or non-governmental 
organization.
    In our ESF6 primary role, we also relay mass care information (like 
shelter counts and population) from various field locations to higher 
headquarters for appropriate action.
    The limited interpretation of our coordination function, which 
includes the processing of ARFs for Federal assistance and the flow of 
mass care-related information, is sometimes misunderstood. As a member 
of the International Federation of the Red Cross movement, our 
fundamental principles of neutrality, impartiality, and independence 
could be jeopardized if we take on the role or appearance of a Federal 
Agency.
    In our Preparedness and Response Department, we have created a 
special office for Federal response, headed by a vice president, 
dedicated to integrating Red Cross response efforts with FEMA, DHS, 
HHS, CDC, HUD, DOD, DOT and other agencies that wish to engage us in 
discussions, briefings, planning sessions, and exercises.
    While I realize that the NRP may fall outside of the jurisdiction 
of this committee, I believe it is important to share this information 
with you as later in my testimony, I will be urging the need for the 
National Response Plan and the Stafford Act to work together 
seamlessly. As both a signatory to the National Response Plan, with 
mandated primary responsibilities, and as a direct service provider to 
victims of disasters, ensuring this continuity between the Nation's 
plan and the legislation that allows for Federal assistance to disaster 
victims, is vital as we all work toward the same goal--assisting those 
devastated by disaster.
                              stafford act
    The American Red Cross is mentioned in the Stafford Act, and we 
believe this is important. It is important for all levels of government 
to understand the role and importance of nongovernmental organizations 
in disaster preparedness, response, and relief in the United States.
    As requested by this committee, I will address four major areas for 
possible reforms of the Stafford Act. The first is debris cleanup; 
second, I will address preparation and mitigation efforts by 
individuals and communities; third, I will discuss our organization's 
views regarding the Stafford Act's authorities during catastrophic 
events, including terrorist attacks and the threat of pandemic flu; and 
finally, I will provide general recommendations for the committee's 
consideration.
Debris Clean-Up
    The American Red Cross does not provide or engage in debris clean-
up in the wake of large-scale disasters, however, ensuring that debris 
is quickly and efficiently removed has a very big impact on the well 
being of our clients and on our ability to provide assistance to those 
in need. While the Red Cross strives to provide assistance, in many 
cases starting with evacuation sheltering and feeding operations, 
recovery cannot begin to take place until individuals and families are 
allowed to return to their homes, assess damages, and to plan and 
proceed with their very personal recovery. In addition, speedy action 
contains and reduces potential public health and safety problems.
    The wake of Hurricane Katrina is a perfect example. With more than 
90,000 square miles of damage--the size of Great Britain--the American 
Red Cross had shelters opened for more than 4 months. Our typical 
sheltering operations last only a few days. Individuals and families 
often arrive at our shelters when evacuation orders are in effect and 
leave not long after a storm passes. During traditional responses, Red 
Cross workers will offer assistance in a client's home; helping them to 
assess their needs and allowing us to provide very individualized 
assistance.
    Hundreds of thousands of people, however, were not allowed to 
return home following Katrina, forcing our Nation's responders to 
remain in response mode, and preventing individuals from beginning 
their long road of recovery. The quicker things can be restored, the 
quicker people can proceed to re-establish in their communities.
Preparation and Mitigation
    First and foremost, since Congress passed, and the President signed 
into law, the Disaster Mitigation Act (DMA) of 2000, mitigation and 
preparedness efforts have gotten some traction, however they have not 
necessarily seen their full potential. I urge this committee to review 
the findings of the DMA as intended by the Congress, and recommend that 
consideration be given to whether or not those findings have been 
addressed adequately.
    The American Red Cross works with individuals, communities, States 
and the Federal Government to help our Nation, and our citizens, be 
prepared for any disaster that comes their way. Red Cross programs are 
configured to disaster risk, that is, we design programs for 
individuals and families to prepare for natural disasters that are 
conducive to their geographic areas. As we rely on the neighbor helping 
neighbor philosophy, we encourage local communities to become more 
aware of potential hazards that could adversely impact their regions 
and prepare accordingly.
    The Red Cross firmly believes in the importance of preparedness and 
has developed numerous tools and resources offered in a number of 
different languages to help families prepare for any unexpected 
disasters, from a house fire to a hurricane.
    Over the past several years, organizations that help to prepare 
communities, as well as local, State and Federal Governments, have made 
efforts to streamline our messages on preparedness. Studies have 
indicated that having a single message helps individuals better 
understand what they need to do to protect themselves and their loved 
ones during times of disaster.
    The private sector also has had an impact on improving mitigation. 
For instance, most mortgage lenders require that homeowners maintain 
and obtain some level of homeowners insurance. For most Americans, 
insurance is a personal risk assessment, but now that mortgage 
companies require such insurance, this has gone a long way to help 
those who do experience disasters.
    Recently, the President has directed the Department of Homeland 
Security to create a better national Emergency Alert System, to include 
sending emergency alerts to cell phones, Internet sites, and hand-held 
computers. In addition, the President directed that the system extend 
from use in a nuclear attack to include other disasters such as 
terrorist attack, natural disasters, or other hazards to public safety 
and well-being. During a disaster, every second counts. We believe this 
is a good move on behalf of the Administration to enhance the ability 
of individuals to respond to impending threatening incidents.
    Yet, there is more that can be done to help improve mitigation and 
preparedness efforts.
    Despite these efforts by the American Red Cross and others, the 
message on preparedness needs to be better articulated to the American 
people. There are steps that each and every person should take to help 
ensure they are better prepared for any disaster that may come their 
way, including:
    Get a Kit.--Every household should have prepared and ready to go a 
disaster kit that includes enough food and supplies to last each family 
member for three days. This could be an old knapsack or backpack with 
water, basic first aid supplies, any critical documents (such as 
photocopies of driver's licenses), necessary medicines, a change of 
clothes, and a small amount of cash. This kit should be replenished as 
necessary to ensure that food, water, and medicines are fresh. This 
should be the one thing that anyone needing to leave in a hurry can 
grab to take with them. In addition, families should consider any 
special needs, including those of loved ones as well as their family 
pets.
    Make a Plan.--This plan should incorporate such things as where an 
individual and their loved ones would go in the event of a disaster, 
how they would communicate with a friend or loved one to let someone 
know where they are and that they are safe, particularly when critical 
infrastructure like phone lines are down.
    Be Informed.--Either by your local Red Cross or another 
organization that offers critical trainings on making a disaster plan, 
a communications plan, and first aid/CPR. Knowing what to do during a 
time of disaster is critical to ensuring one's safety and the safety of 
their loved ones.
    More than 800 chapters of the Red Cross in communities across this 
Nation stand ready to help their neighbors become better informed and 
to provide guidance on making a plan and steps for building a kit.
Catastrophic Events
    While the Stafford Act appears to work well for major natural 
disasters including floods, hurricanes, and tornadoes, it does not 
incorporate other disasters, such as manmade disasters, bio/chemical 
disasters, or pandemic situations. Moreover, there appears to be some 
questions as to the applicability to the special circumstances of 
catastrophic disasters.
    We suggest that if there is going to be one Federal resource for 
individuals to receive assistance after disasters, it must be 
comprehensive and flexible enough to accommodate all disasters. While 
in response to large scale disasters, particularly after 9/11, Congress 
quickly acted to provide assistance to families of those impacted, it 
could be more efficient for agencies that support the Federal response 
to have Congress address potential needs in advance of an incident.
    I encourage the committee to consider, if possible, making the 
Stafford Act more flexible to provide for responding to disasters other 
than just natural disasters, allowing it to be nimble and to adapt to 
unanticipated human needs or other national priorities.
General Recommendations
    There are a number of more general recommendations on reform of the 
Stafford Act that I would like to provide the committee for 
consideration.
     Congress should restore the post-disaster mitigation program at 
the 15 percent level of disaster costs for the Hazard Mitigation Grant 
Program (HMGP). HMGP grants are used for such things as rebuilding at a 
higher building code level, for purchasing repetitive loss properties, 
and for projects that will prevent or minimize the next disaster. We 
believe that every dollar spent on mitigation, is a dollar well spent.
     Congress must adequately address the cap on disaster repair for 
the Individual and Family Grant program. The American Red Cross, as 
well as many other organizations and emergency management officials, 
believe the current cap of $5,000 should be raised to a more effective 
and realistic level.
     Congress should reinstate the Mortgage and Rental Assistance 
Program. The Mortgage and Rental Assistance Program was eliminated in 
the DMA. However, Congress utilized the program for recent catastrophic 
disasters such as the September 11, 2001 terrorist attacks and 
Hurricane Katrina. The program allows for disaster victims to receive 
Federal assistance to pay for mortgage and rental costs when displaced 
from their homes in a major disaster. The program should be reinstated 
and allowed to be used for future disasters.
                               conclusion
    Mr. Chairman, Senator Jeffords, and Members of the committee, I 
thank you for providing me with the opportunity to share my thoughts 
and recommendations for changes to the Stafford Act.
    The American Red Cross has a long history of our work to better 
prepare our Nation's citizens for any disaster, and to help them 
respond when disaster strikes. I am pleased to have had this 
opportunity to be here today, and would be happy to answer any 
questions that you might have.
                                 ______
                                 
       Responses by Armond Mascelli to Additional Questions from 
                            Senator Jeffords
    Question 1. What are your recommendations with regard to the 
potential creation of a ``third category'' of declaration under the 
Stafford Act that would be reserved for catastrophic events, for which 
special rules would apply?
    Response. I believe it is imperative that there be a cross-walk 
between the Stafford Act and the National Response Plan (NRP) to ensure 
that the mechanism for Federal disaster assistance melds with the Plan 
for Federal response to major incidents. The National Response Plan 
contains an annex dedicated to catastrophic incidents. We believe the 
Stafford Act must be flexible enough to facilitate all the support 
needed during a catastrophic response as addressed in the Catastrophic 
Annex of the NRP. If it does not, then there should be changes to the 
Stafford Act to ensure that all necessary support is available during a 
response to a catastrophic incident.

    Question 2a. Recovery.--Do you believe that there is a role for the 
Federal Government in long-term recovery of areas hit by disaster?
    Response. The American Red Cross has been America's partner in 
prepare dness and response to disasters for the past 125 years. In more 
than 800 Red Cross chapters across the United States, we provide 
lifesaving trainings for communities and individuals. Working closely 
with partners at all levels of government and in the private and for-
profit sectors, we educate individuals in disaster preparedness and 
encourage all individuals to be prepared.

    Question 2b. Is there existing authority for this function?
    Response. We respond to more than 70,000 disasters each year and 
while the majority of these disasters are single family home fires, we 
also respond to large scale incidents, such as hurricanes, tornadoes, 
floods, and manmade events. Last year in response to Hurricanes 
Katrina, Rita, and Wilma, the Red Cross provided shelter for more than 
500,000 evacuees; provided more than 65 million hot meals and snacks; 
and cared for the emotional and mental well being of those impacted by 
the hurricanes.

    Question 2c. Should any expanded role should apply to all disasters 
or be limited to catastrophic events?
    Response. After a disaster strikes, the Red Cross endeavors to 
provide for the immediate emergency needs of those affected. We provide 
assistance that helps to bridge the gap between a disaster occurring 
and when longer-term assistance begins. We are the agency that helps 
get disaster victims closer to the road of recovery.
    While we support efforts that intend to aide in an individual or 
family's recovery, we do not take a position on the role of the Federal 
Government in long-term disaster. We work closely with government at 
all to help communities prepare, and to help communities respond to 
disaster. The services we provide are client-focused, intended to 
ensure that the most basic emergency needs of disaster victims are 
met--food, shelter, mental well being, family tracing, and first aid.

    Question 3. How do you believe the administration of the 
preparedness functions of the Stafford Act have been or will be 
impacted by the division of responsibilities between the so-called 
Preparedness Directorate and FEMA?
    Response. As I indicated in my written statement, and in my answer 
to question No. 1, it is our belief that there be a cross walk between 
the Stafford Act and the National Response Plan (NRP) to ensure that 
the mechanism for Federal disaster assistance melds with the Plan for 
Federal response to major incidents.
    From the Red Cross perspective, we look at the incidents of risk 
that are increasing at significant rates. For instance, the 
demographics of where individuals are living in our Nation_many more 
coastal properties and residents. When we look at the scope of 
disasters we respond to, particularly the much larger incidents, 
mitigation becomes increasingly important. If mitigation is not 
addressed in an effective way, just as other components of emergency 
management, then responses will suffer.
    How the Federal Government structures this is really up to the 
Congress and the Administration to decide, but we would strongly 
recommend that mitigation efforts increase.

    Question 4a.  Until Hurricane Katrina, there were a very limited 
number of times during which the Congress diverted from normal 
procedures under the Stafford Act in the wake of a disaster. After 
Hurricanes Katrina and Rita, the Congress has enacted a significant 
number of legislative changes to the Stafford Act that modify the 
manner in which disaster assistance is provided, and many more 
proposals are pending. This was a catastrophic disaster worthy of 
special action, but it is unlikely to be the last of its kind, 
particularly with the changes we can expect as climate change occurs.
    What are your recommendations with regard to the potential creation 
of a ``third category'' of declaration under the Stafford Act that 
would be reserved for catastrophic events, for which special rules 
would apply?
    Response. Building on the answer provided in question No. 1, it is 
very important that the Stafford Act and National Response Plan are 
coordinated. It is fair for all preparedness and response agencies to 
believe that Katrina is not the only catastrophic event we will be 
faced with.

    Question 4b. What specific provisions of the Stafford Act would you 
recommend modifying in such a category?
    Response. The Stafford Act has proven to work well for major 
natural disasters, including floods, hurricanes, and tornados, however 
it does not incorporate other disasters, such as manmade disasters, 
biological or chemical disasters, or pandemic situations. The Stafford 
Act should be made more flexible to provide for these types of 
disasters, and again, there should be a crosswalk between the NRP and 
the Stafford Act to ensure that the Stafford Act can adequately 
facilitate the support required by the NRP, including financial, and to 
ensure that responsibilities are aligned with authorities. Much to this 
point, consideration should be given to ensure that the needs are 
clearly identified.
    While Congress has acted to make quick changes to Federal responses 
in the past, we would urge that Congress endeavor to incorporate 
changes that provide flexibility to Federal disaster response, allowing 
it to be nimble and to adapt to unanticipated human needs or other 
priorities.

    Question 5. In your opinion did the Disaster Mitigation Act of 2000 
work and what changes should be made to address what, if anything did 
not work?
    Response. In my written and oral statement, I shared with the 
committee some thoughts on the Disaster Mitigation Act of 2000. 
Primarily, in the Disaster Mitigation Act of 2000, the intent of 
Congress, as reflected in the legislation, was to:
     revise and broaden the scope of existing disaster relief 
programs;
     encourage the development of comprehensive disaster preparedness 
and assistance plans, programs, capabilities, and organizations by the 
States and by local governments;
     achieve greater coordination and responsiveness of disaster 
preparedness and relief programs;
     encourage individuals, States, and local governments to protect 
themselves by obtaining insurance coverage to supplement or replace 
governmental assistance;
     encourage hazard mitigation measures to reduce losses from 
disasters, including development of land use and construction 
regulations; and
     provide Federal assistance programs for both public and private 
losses sustained in disasters.
    While these intentions have raised awareness and improved upon 
overall preparedness, they have not been fully realized. In order to 
better realize these desired outcomes, we believe that the Stafford 
Act, and other actions by Congress, should tie mitigation funding and 
programs to goals with concrete measurements. Mitigation is important, 
and we believe that the government sector can play a larger role in 
ensuring mitigation practices are implemented--part of this is to 
restore the post-disaster mitigation program for the Hazard Mitigation 
Grant Program (HMGP).
    Additionally, FEMA's Rental Assistance Program should be separated 
from the $25,000 cap on other individual assistance programs. More 
flexible use of funds under the cap for home repair should be 
considered as well. And finally, the use of trailers as the only de 
facto Long Term Recovery strategy for housing should be reconsidered. 
Funding may be better used for home repairs, or as direct assistance to 
victims to purchase sustainable properties instead of trailers. Also, 
more aggressive look at commercial housing options and access to 
existing federally owned housing stock in and near disaster affected 
areas.

    Question 6. The report entitled, ``Natural Hazard Mitigation 
Saves'', issued in 2005 found that mitigation is most effective when it 
is carried out on a comprehensive, community-wide, long-term basis, as 
opposed through single, unrelated projects. Can you describe your views 
on how FEMA has implemented that finding since 2005 and any 
recommendations you may have on policy or legislative changes that 
should be made to fully implement that recommendation?
    Response. Since there are two questions referencing the 2005 
report, ``Natural Hazard Mitigation Saves,'' let me take this 
opportunity to offer one response to both inquiries. We share your 
interest in working with FEMA to respond to recommendations contained 
in this report. As the American Red Cross continues to advocate for 
preparedness, we support any efforts of the local, state and Federal 
levels that attempt to address matters in a unified approach well 
before any disasters take place. Certainly, FEMA is in the best 
position to offer insight into the agency's actions and provide 
recommendations for future policy or legislative changes.

    Question 7. Since the report on mitigation, entitled ``Natural 
Hazard Mitigation Saves'' was issued in 2005, what actions has FEMA 
taken to enhance the mitigation programs it administers? Specifically, 
how has FEMA implemented the findings that: mitigation is most 
effective when it is carried out on a comprehensive, community-wide, 
long-term basis, as opposed to through single, unrelated projects?
    Response. No response.

    Question 8a. Over the last 200 years, the Nation has moved from an 
ad hoc approach to disaster response in Congress, to a coordinated, 
reliable response. This premise has formed the cornerstone of the 
Nation's disaster response since the 1960s and early 1970s. Under the 
Stafford Act, the Federal Government may provide assistance upon 
declaration of a major disaster or an emergency. A Governor must 
request a major disaster declaration, and it is limited by section 101 
to: ``natural catastrophe (including any hurricane, tornado, storm, 
high water, wind-driven water, tidal wave, tsunami, eartquake, volcanic 
eruption, landslide, mudslide, snowstorm or drought), or regardless of 
cause, any fire, flood or explosion, in any part of the United States, 
whcih in the determination of the President causes damage of sufficient 
severity and magnitude to warrant major disaster assistance under this 
Act to supplement the efforts and available resources of States, local 
government, and disaster relief organizations in alleviating the 
damange, loss hardship, or suffering caused thereby.'' An emergency is 
defined by section 101 as ``any occasion or instance for which, in the 
determination of the President, Federal assistance is needed to 
supplement State and local efforts and capabilities to save lives and 
to protect property and public health and safety, or to lessen or avert 
the threat of a catastrophe in any part of the United States.'' I am 
concerned that there is a hole in the authorities provided under the 
Stafford Act_the response authorities of the Federal Government that 
are available in a major disaster may not be available in all types of 
terrorist events that might only meet the current definition for an 
emergency declaration.
    Would the release of a biological agent that does not involve an 
explosion meet the criteria to even consider a disaster declaration, 
and if your answer is yes, please explain.
    Response. You are correct in noting that we have experienced a 
significant shift in disaster response from an ad hoc approach to a 
formalized, systematic process. The Stafford Act remains an effective 
resource when the Federal Government steps in during major disasters.

    Question 8b. Do you believe that your organization can plan for a 
response to an epidemic or biological attack without certainty about 
what assistance the Federal government will provide?
    Response. Nevertheless, as the conversations about disaster 
response evolve to include biological incidents, it is equally 
important for the Stafford Act to recognize such acts. In fact, the 
Stafford Act must be crystal clear in what it covers as there is not 
time for differing interpretations when disaster strikes. As we all 
know, there have been recent instances where Congress has had to act 
quickly to make changes to, or provide additional resources, allow a 
more robust and quick response. While we commend the Congress for their 
swift action during times of major disasters, we also recognize that 
this is a good time to imagine ``bigger''_and to ensure that the 
Stafford Act, as well as the NRP, has the ability to respond to many 
different scenarios, from hurricanes to catastrophic events, to 
bioterrorism, pandemics and manmade incidents.

    Question 8c. Do you believe it is a good idea for state and local 
governments to divert resources from emergency response potentially 
days after an event to attempt to move legislation through Congress 
that meets their needs?
    Response. The American Red Cross supports any initiatives 
advocating preparedness. We continually share information on how 
families, organizations and businesses can better prepare before a 
disaster. This is cornerstone of our mission. As the Nation continues 
to discuss how best to plan and respond to an epidemic or biological 
attack, the American Red Cross will actively participate in these 
discussions. Moreover, ensuring that a collaborative local, state, and 
Federal response to large scale disasters are in place long before 
disaster strikes is a sure way to allow agencies at all levels to 
prepare. Being prepared is important; however, looking beyond our 
current scope of disasters and becoming better prepared is essential.

    Question 8d. What changes should be made to the Stafford Act to 
ensure that the Federal Government has the appropriate authorities to 
respond to all types of events, including biological agents, weapons of 
mass desctruction, or epidemics in a coordinated, planned, manner?
    Response. Specific to the Stafford Act, we believe that changes 
should be made that would allow more flexible to provide for all types 
of disasters. We also believe there should be a cross-walk between the 
NRP and the Stafford Act to ensure that the Stafford Act can adequately 
facilitate the support required by the NRP, including financial, and to 
ensure that responsibilities are aligned with authorities.

    Question 9. Can you describe the mechanisms that the Red Cross has 
in place to ensure that funds donated to disaster victims by the public 
are properly used and tracked?
    Response. Following the influx of generous contributions to the 
American Red Cross in wake of the terrorist attacks on September 11, 
2001, the American Red Cross implemented new and robust fundraising 
practices called DonorDIRECT, which stands for D(onor) I(ntent), 
RE(cognition), C(onfirmation), and T(rust). This new initiative 
expanded Red Cross efforts to educate donors about the Red Cross 
General Disaster Relief Fund and instituted a new system of affirmative 
confirmation and acknowledgement to ensure all disaster-related 
donations are directed as intended.
    The Red Cross Donor DIRECT fund-raising system was established to 
verify donor intent and ensure donors understand how the Red Cross 
assists victims of disasters. This system includes educating donors 
while soliciting or accepting the donation. Donors also receive an 
acknowledgement after their contributions have been received that 
reconfirm their intent and the purposes for which their contributions 
will be used. These acknowledgements also instruct donors on what to do 
if they have any questions about the use of their contributions.
    As an independent nonprofit organization that relies on the 
generosity of the American public to fulfill our mission, the American 
Red Cross is fully committed to maintaining the trust and support of 
our donors. Donated funds designated for specific relief efforts will 
be spent on Red Cross services that support the victims of these 
disasters. Among other things these funds help meet the emergency needs 
of disaster victims, including food, shelter and counseling. The Red 
Cross is committed to honoring the intentions of its donors and will 
use all designated funds accordingly.
    As good stewards of donated dollars, the American Red Cross has a 
standard practice of informing the public when sufficient funds have 
been raised to cover the costs associated with the response to a 
disaster. Nevertheless, if more than enough funds are raised, the Red 
Cross has policies in place to ensure donor intent is honored by 
devoting those funds to disaster relief, recovery efforts, and disaster 
preparedness in the affected areas.
                                 ______
                                 
Responses by Armond Mascelli to Additional Questions from Senator Obama
    Question 1. The Federal Government and localities relied on the Red 
Cross for a variety of emergency responses in the aftermath of 
Hurricane Katrina, from family reunification issues to the evacuation 
of special needs populations. Is the Red Cross capable of handling 
these tasks on a regular basis?
    Response. The American Red Cross has been the Nation's premier 
partner in preparedness and response to major disasters for the past 
125 years. We work closely with government at all levels, in addition 
to our partners in the nonprofit and for-profit sectors. While there 
are several mandates the American Red Cross is tasked to do by the 
Federal government during times of major disasters, there were areas 
where we fell short in our response to Hurricane Katrina. We have spent 
a considerable amount of resources to ensure that our response to a 
disaster the size and scope of Katrina is better executed and that we 
reach more people more quickly.
    I want to take a moment, however, to address and add clarification 
to the two areas you specifically mentioned. The American Red Cross 
does provide family reunification services, which we refer to as 
``family tracing.'' In most disasters, infrastructure is temporarily 
damaged, so most family members have the ability to communicate fairly 
quickly after a storm by using landlines or cell phones. Katrina was 
the exception. Communications systems were so severely damaged that 
individuals went weeks without being able to connect to their loved 
ones.
    Also, during most disasters, we provide family tracing services as 
part of our individual case work. If the Red Cross receives a request 
from a family member, Red Cross volunteers will locate the missing 
family member and ensure their safety, as well as provide a message 
from a concerned loved one. This is not to be mistaken for search and 
rescue, which is the efforts of local, state, and Federal first 
responder agencies.
    When it became evident that families would not be returning to 
their homes for weeks and maybe even months, dozens of ad hoc Web sites 
sprung up allowing individuals to register as ``safe'' and allowing 
concerned family members a mechanism of searching the world wide web to 
find the location of their loved ones. The American Red Cross created 
such a Web site and encouraged disaster evacuees and survivors to 
register either on the Web site or by calling a 1-800 number. Three 
days after Hurricane Katrina hit the Gulf Coast, more than 60 people 
from various technology companies offered to help. Within 2 days after 
that, these generous individuals increased Red Cross networking 
capacity by 400 percent.
    To expand our efforts, the International Committee of the Red 
Cross' Family Linking system was adapted. Red Cross technology partners 
were able to create a site that functioned much like the search engines 
of MSN and Google. The site searched the Internet, collected links to 
other sites that offered similar services, and consolidated them, 
enabling families to more easily check on loved ones in the registry.
    The American Red Cross ``Safe and Well'' Web site was the result of 
this effort. Accessible through redcross.org, the Safe and Well Web 
site allows disaster victims to select and post standard messages that 
they are well and will be in contact. Those worried about a missing 
loved one can check the registry and read posted messages. There is 
also a phone-based service for those who cannot access the Internet.
    As this is a voluntary registry, we have created a system that will 
work collaboratively with any Federal agency to share the information 
available on our Safe and Well Web site.
    Regarding evacuating individuals with special needs, the American 
Red Cross does not evacuate any individuals from affected areas, 
regardless of whether or not they are individuals with special needs. 
Evacuation orders are given by local officials and carried out by local 
emergency management. The American Red Cross does provide shelters in 
safe areas. In fact, the majority of sheltering operations are 
evacuation shelters.
    Red Cross shelters are ``congregate'' shelters, meaning they are 
set up for individuals who have the ability to live independently. 
Special needs shelters, which exist for those with special medical 
conditions or other special needs who are unable to live independently, 
are operated by the local health administration and/or emergency 
management. The American Red Cross is not equipped to provide medical 
assistance or care beyond general first aid.
    Hurricane Katrina, however, proved to be a challenge. Many Red 
Cross sheltering operations were doubling as medical centers_a 
challenge we have never faced before. With so many individuals needing 
assistance, we could not turn away those with special needs. That said, 
while there were many good stories of cooperation that allowed several 
shelters to provide pharmaceutical medication and provide care to those 
with special needs, there were as many instances where Red Cross 
volunteers may have acted ``by the book'' and did not welcome 
individuals with special needs into a ``congregate'' shelter.
    We appreciate Congressional attention to this topic because it is a 
major area of vulnerability for agencies that provide for immediate 
emergency needs. To better prepare for the 2006 hurricane season, and 
those beyond, the American Red Cross has partnered with several 
organizations representing individuals with disabilities that have 
expertise in the specialized needs of people with disabilities. 
[Describe the partnerships in place and list some orgs]. . .

    Question 2. What changes do you suggest to the Stafford Act to help 
Federal, State, and local governments better work with the Red Cross in 
a disaster?
    Response. While we believe that the Stafford Act provides the 
framework for the Federal Response, and overall is solid, there are 
some specific programmatic areas we would like to have considered. In 
particular, we believe that FEMA's Rental Assistance Program should be 
separated from the $25,000 cap on other individual assistance programs. 
There should also be more flexible use of funds under the cap for home 
repair. Furthermore, the use of trailers for long-term recovery should 
be reconsidered. Funding could be better used for home repairs, or as 
direct assistance to victims to purchase sustainable properties instead 
of trailers.
    Furthermore, we believe that it is essential that there be a cross-
walk between the National Response Plan and the Stafford Act. This must 
include aligning responsibilities with authorities, including 
financial. While the Stafford Act has proven to be a fair apparatus of 
Federal response, we believe it is important to make sure that the 
Federal resources match the Federal plan.

    Question 3. FEMA has indicated that the Red Cross will take on the 
primary role of coordinating missing family services in future 
disasters. How does the Red Cross plan to work with states, the 
National Center for Missing and Exploited Children (NCMEC), the 
National Center for Missing Adults (NCMA) and other non-profit agencies 
to better coordinate and centralize these services? And what level of 
resources is the Red Cross committing to prepare for this task?
    Response. The American Red Cross and FEMA have discussed the Red 
Cross role in family tracing and we have worked with FEMA to ensure 
that the mechanism we have in place, the ``Safe and Well'' Web site, 
will allow for information to be shared with FEMA during times of 
disaster. As this is a voluntary registry, the information on the Web 
site will be made available to Federal agencies. Furthermore, we 
welcome the opportunity to share this information with organizations 
such as the National Center for Missing and Exploited Children and the 
National Center for Missing Adults as both agencies perform a vital 
service in helping to reconnect missing loved ones.

    Question 4. What support have you received from FEMA and other 
government entities specifically on the issue of helping displaced 
persons find their families after a disaster? What support do you think 
is required to implement a more centralized and coordinated family 
locator system in the future?
    Response. We do not receive assistance from the Federal Government 
for performing these services, nor have we requested any Federal funds 
for this purpose. We recognize family tracing services to be a national 
priority, particularly during times of disaster, and we remain 
committed to the ``Safe and Well'' Web site that we have created.
                                 ______
                                 
   Responses by Armond Mascelli to Additional Questions from Senator 
                                 Vitter
    Question 1. How could the Stafford Act be improved to reduce 
bureaucracy and red tape for volunteers and other medical professionals 
who are working to help with response?
    Response. As both questions relate to volunteer medical 
professionals, let me answer both inquiries with one response.
    First and foremost, we agree that getting immediate and appropriate 
medical care following a disaster is an essential component in disaster 
response. The Red Cross stands ready in administering first aid to 
victims. However, as our shelters are not set up to offer more complex 
medical treatment, we appreciate the time and commitment given by 
volunteer doctors and nurses who sometimes travel a great distance to 
offer help.
    Nevertheless, as in the specific case presented in the second 
question, modifications to the Stafford Act will not resolve the issue 
of temporarily prohibiting volunteer medical professionals from 
practicing in a disaster area until they acquire the proper 
credentialing and clearance. The Stafford Act is an important tool when 
the Federal Government becomes involved in disaster response while the 
states have oversight and authority of licensing medical credentials. 
Moreover, this particular issue is outside the Red Cross's scope of 
influence. From our understanding, such matters are usually addressed 
by reciprocity agreements arranged by participating states or the 
Department of Homeland Security's National Disaster Medical System.

    Question 2. During Hurricane Katrina, there are volunteers who were 
from Louisiana and have credentials however may have not had the 
paperwork with them and had to jump through hoops just to help out. The 
first 12-24 hours is the most critical for disaster response. How can 
the Act be improved? How can the process be streamlined to get 
authorizations and approvals in an emergency in as little time as 
possible?
    Response. As both questions relate to volunteer medical 
professionals, let me answer both inquiries with one response.
    First and foremost, we agree that getting immediate and appropriate 
medical care following a disaster is an essential component in disaster 
response. The Red Cross stands ready in administering first aid to 
victims. However, as our shelters are not set up to offer more complex 
medical treatment, we appreciate the time and commitment given by 
volunteer doctors and nurses who sometimes travel a great distance to 
offer help.
    Nevertheless, as in the specific case presented in the second 
question, modifications to the Stafford Act will not resolve the issue 
of temporarily prohibiting volunteer medical professionals from 
practicing in a disaster area until they acquire the proper 
credentialing and clearance. The Stafford Act is an important tool when 
the Federal Government becomes involved in disaster response while the 
states have oversight and authority of licensing medical credentials. 
Moreover, this particular issue is outside the Red Cross's scope of 
influence. From our understanding, such matters are usually addressed 
by reciprocity agreements arranged by participating states or the 
Department of Homeland Security's National Disaster Medical System.
                               __________
    Statement Pamela Mayer Pogue, CFM, Chair, Association of State 
            Floodplain Managers, Inc., State of Rhode Island
                              introduction
    The Association of State Floodplain Managers is pleased to provide 
comments and recommendations to the committee. This testimony is based 
on our experiences and observations about the functioning of the hazard 
mitigation planning and grant programs that are authorized by the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act 
(Stafford Act). We appreciate your recognition of the importance of 
these programs to the Nation's efforts to improve resistance to natural 
disasters.
    The Association of State Floodplain Managers, Inc. (ASFPM), and its 
24 Chapters represent over 9,000 State and local officials and other 
professionals who are engaged in all aspects of floodplain management 
and hazard mitigation, including management, mapping, engineering, 
planning, community development, hydrology, forecasting, emergency 
response, water resources, and insurance. Many of our members work with 
communities impacted by Hurricanes Katrina, Rita, and Wilma, or work 
with organizations that are assisting with the rebuilding efforts. Many 
of our members are designated by their governors to coordinate the 
National Flood Insurance Program (NFIP) and many others are involved in 
the administration of and participation in FEMA's mitigation programs. 
To learn more about the Association, please visit http://
www.floods.org.
    A recently released report, ``Natural Hazard Mitigation Saves'', 
was prepared in response to a Congressional request that FEMA fund an 
independent study to assess the future savings of various types of 
mitigation activities (online at http://www.nibs.org/MMC/
mmcactiv5.html). The conclusions state that ``a dollar spent on 
mitigation saves society an average of $4'' and ``FEMA mitigation 
grants are cost-effective, often leading to additional non-federally 
funded mitigation activities, and have the greatest benefits in 
communities that have institutionalized hazard mitigation programs.''
    In a post-Katrina world, we logically have a need to reflect on our 
Nation's current policies and programs, make a good faith effort to 
determine where such policies and programs are deficient, and act on 
those findings. The four hurricanes in Florida in 2004 and hurricanes 
Dennis, Katrina, Rita and Wilma in 2005 could very well signal a trend 
towards increasingly violent weather episodes. Indeed, our Nation's 
climatologists and meteorologists have indicated that we are likely in 
a cycle of increased weather activity characterized by more frequent 
and intense storms. Unfortunately, this comes at a time in our Nation's 
history where there has been a historic migration to our coastlines 
which are the most likely areas to be impacted from these changes. 
Before 2004, a number of major coastal storms were considered 
outliers--freak events of extremely low probability--including 
Hurricane Camille in 1969 (Mississippi) and Hurricane Andrew 1992 
(Florida). However, most people today would hardly see such an event as 
uncommon and, in fact, many coastal communities and property owners are 
preparing for such major storms.
    Luckily, our Nation has a tremendous capability or respond to, 
recover from, and mitigate against these disaster events, and the 
Stafford Act is an important part of this system. The Congress and this 
committee are at the epicenter of this discussion, with an opportunity 
to make policy changes that can have importance and relevance far into 
the future. The ASFPM is encouraged that the committee has taken the 
initiative to look at the Robert T. Stafford Act and improve upon it.
    Thank you for inviting us to offer ASFPM's views. As requested, 
this testimony addresses:
    a. Whether communities and individuals are doing more to prepare 
for natural/other disasters, and are they implementing mitigation for 
the negative long-term impacts of such events? Have we made progress on 
mitigation since the passage of DMA 2000? What changes are needed in 
DMA 2000 and other areas of the Stafford Act to encourage mitigation 
actions?
    b. Stafford Act authorities and adequacy for catastrophic events 
such as Katrina, and for response to terrorism-related events such as 
the use of weapons of mass destruction, bioterrorism.
    c. Ten general recommendations for improvements to the Stafford 
Act.
    d. The Impact of FEMA's Reorganization on the Stafford Act Programs 
ASFPM: Senate Hearing on Stafford Act (July 27, 2006).
community and individual preparation for disasters and is enough being 
done to mitigate the effects, especially after passage of the disaster 
                         mitigation act of 2000
    On balance, the amendments to the Stafford Act enacted as the 
Disaster Mitigation Act of 2000 (DMA 2000) have had a positive effect 
on encouraging and supporting mitigation at both the state and local 
levels, although its effectiveness clearly has been impeded by the loss 
of FEMA's independent status and lack of focus on mitigation within the 
Department of Homeland Security.
    It is important to realize that mitigation plans called for in the 
Disaster Mitigation Act of 2000 that modified the Stafford Act are not 
emergency response plans, they are focused on how a community 
incorporates hazards into its development and permitting process and on 
other actions that may be taken to reduce future disaster losses. All 
states have met the requirements of the Disaster Mitigation Act of 2000 
and have adopted plans, including seven states that have developed and 
adopted enhanced plans (qualifying them for a larger amount of post-
disaster mitigation funding). Many communities have prepared plans to 
meet the requirements of DMA 2000, and many are in the planning 
process. These plans may identify specific mitigation projects, but 
usually they lay out broader objectives that support identification of 
specific projects when funding becomes available.
    FEMA has adopted regulations that require state mitigation plans to 
be revised every 3 years (every 5 years for local plans). Given the 
long-term trends in disaster expenditures (especially for damage to 
public infrastructure and facilities) and the merits of incorporating 
data about hazards into long-term plans and programs at the State 
level, it is appropriate that State mitigation plans explicitly address 
these issues.
     The ASFPM recommends that the committee direct that, as part of 
the 3-year review of State mitigation plans, States shall:
    a. Examine State land use, planning, zoning, and building code 
requirements (or lack thereof) to identify opportunities to strengthen 
such requirements or to adopt such requirements that are determined to 
be appropriate given the frequency of occurrence of hazard events and 
the extent and severity of the resulting damage. It ASFPM: Senate 
Hearing on Stafford Act (July 27, 2006) should be explicit that some 
amount of grant funds made available for planning may be used by states 
that identify as a priority the implementation or strengthening of land 
use, planning, zoning, and/or building codes to reduce future losses.
    b. Examine the type, nature, and severity of damages that qualify 
for Public Assistance in order to identify feasible approaches to 
reduce such losses in the future, with particular attention to costs 
associated with the repair of public facilities, roads and bridges, 
public utilities, and parks and recreational facilities.
             stafford act authority for catastrophic events
    The Stafford Act has proven to be effective for most disasters; 
however, additional provisions are needed to address the challenges 
that arise during events that far exceed state and local capacity to 
respond. An event may be catastrophic on a regional level--as evidenced 
by Hurricane Katrina--or an event may be catastrophic on a localized 
level--as evidenced in many decimated communities in the past 30 years. 
When an event causes that degree of damage, some routine government 
functions suffer, such as planning, permitting, and inspection and the 
pre-existing level of local staffing and resources is not sufficient to 
ensure adequate management of the rebuilding process. The consequence 
of this shortfall is that often citizens start repairing and rebuilding 
before safety inspections are conducted and building permits are 
issued--putting businesses and families back in harm's way. In 
addition, when an event causes such impacts, disaster assistance 
(financial and technical) throughout post-disaster recovery may be 
required for as long as 12 to 24 months.
    FEMA/DHS has consistently denied reimbursement of costs associated 
with private property damage inspections and permitting, despite the 
Congressional finding in the Stafford Act that ``because disasters 
often disrupt the normal functioning of governments and communities, 
and adversely affect individuals and families with great severity; 
special measures, designed to assist the efforts of the affected States 
in expediting the rendering of aid, assistance, and emergency services, 
and the reconstruction and rehabilitation of devastated areas, are 
necessary.'' The community suffers as a whole when inappropriate 
development occurs immediately after a disaster.
     The ASFPM recommends that, to address FEMA's policy position, 
Congress should explicitly provide for reimbursement of costs incurred 
by communities to perform damage inspections, administration of codes 
and ordinances, and permitting of repairs and reconstructions when the 
damage to public and private property exceeds the capacity of the local 
agency responsible for those functions.
     The ASFPM recommends that when an event causes catastrophic 
damage, whether regionally or locally, reimbursement of the costs to 
respond, inspect and permit should be eligible for a period of time of 
at least 12 months to 24 months, or necessary to guide the community's 
post-disaster rebuilding and recovery process.
      nine general recommendations for improving the stafford act
    C-1. Delegation of additional authority for HMGP to qualified 
states. FEMA has not initiated action to implement sec. 404(c) Program 
Administration by States (42 U.S.C. 5170c). All States have hazard 
mitigation plans prepared pursuant to sec. 322; seven have instituted 
programmatic enhancements necessary to qualify for approval of 
``enhanced mitigation plans'' which qualify them for additional HMGP 
funding. The enhanced plan states are poised to assume the additional 
responsibilities and authority that Congress anticipated would be 
delegated. Although many states are unlikely to seek delegation, 
especially those that experience relatively few disasters, having one 
or more of the more active states assume administration of HMGP would 
yield significant benefits, including faster processing of grant 
applications and awards and obligation of the program funds. Many of 
the communities that have very active mitigation programs are in these 
same states and would greatly benefit from their states assuming 
additional administrative responsibilities and authority. The Federal 
Government, including FEMA, needs strong and capable state and local 
mitigation programs if the costs and suffering of disasters is to be 
reduced.
     The ASFPM recommends report language expressing the committee 
expectation that FEMA is to undertake consultation with state and local 
governments and implement delegation of authority for administration of 
the Hazard Mitigation Grant Program by a certain date.
    C-2. Demolish and rebuild as a mitigation measure. Since hazard 
mitigation programs have been in effect, much has been learned about 
what works and what does not work. New mitigation options are 
continually being discovered and old mitigation ideas are constantly 
being evaluated for effectiveness. The Flood Insurance Reform Act of 
2004 for the first time specifically cited a newer hazard mitigation 
option--``demolition and rebuild.'' This option is based on the premise 
that some buildings are not structurally sound enough to be raised up 
onto a higher foundation, and some buildings are more expensive to 
elevate than to rebuild. In addition, elevating older buildings 
generally does not result in disaster-resistant buildings because they 
may not meet current codes for high winds, earthquakes, snow loads, and 
fire resistance (or energy efficiency). Demolition and rebuild allows 
replacement with a building of approximately the same size and 
function. This mitigation measure has been tested in several states and 
is welcomed by communities that want to retain their neighborhoods and 
improve their housing stock, and by property owners (even though they 
often have to commit more of their own funds for this type of project). 
Despite the success of those projects, FEMA has declined to approve 
demolish and rebuild projects under the mitigation grant programs 
authorized by the Stafford Act (except in those communities included in 
disaster declarations for Hurricanes Katrina, Rita, and Wilma). This is 
an uneven and unjustified restriction on a successful mitigation 
measure.
     The ASFPM recommends that the committee direct FEMA to include 
``demolition and rebuild'' (currently referred to as ``mitigation 
reconstruction'') among mitigation activities eligible under the 
mitigation grant programs authorized by the Stafford Act. Demolition 
and rebuild should be an eligible activity when it is consistent with a 
community's overall goals, when it encourages safe and livable housing, 
and when it is determined to be feasible and cost-effective.
    C-3. FEMA should formalize the ``expanded planning'' concept. FEMA 
should be directed to formalize and regularize the ``expanded 
planning'' concept now underway in Mississippi and Louisiana. Under 
this concept, communities with approved mitigation plans can use some 
of the HMGP funds that are normally set aside for planning (up to 7 
percent of HMGP) to refine/define projects, do engineering (e.g., 
determine if house is sound enough to elevate), prepare Benefit: Cost 
Analyses, and develop mitigation project applications. Even communities 
that have an approved mitigation plan rarely have nicely defined 
projects ``on the shelf'', and they need support to get concepts from 
the ``big picture'' mitigation plan phase to where they're ready to 
submit applications.
     The ASFPM recommends that the committee should direct FEMA to 
formalize and institute its policy that allows use of certain Hazard 
Mitigation Grant Program funds set aside for mitigation planning to be 
used by States to help communities define projects, develop data, 
conduct analyses, determine cost effectiveness, and develop 
applications.
    C-4. Integrate mitigation into public assistance projects. FEMA has 
adopted a policy and maintains a list of pre-approved mitigation 
measures that can be funded under the Public Assistance Program as part 
of repair for public buildings and infrastructure projects. Despite the 
presence of this policy, States and communities consistently report 
that FEMA Public Assistance staff (and its disaster employees and 
contractors) do not always fully embrace mitigation and reduction of 
future damage as part of the purpose when reviewing projects that 
otherwise are eligible for disaster assistance, such as public 
buildings, infrastructure and critical facilities. FEMA should be 
reminded that Congress views hazard mitigation as an integral component 
of disaster response and recovery work that is undertaken as part of 
FEMA's Public Assistance programs.
     The ASFPM recommends that the committee express its expectation 
that FEMA, as a part of its public assistance program, shall ensure 
that its employees and contractors have the necessary guidance and 
training to identify, assess, formulate and approve feasible and cost 
effective mitigation measures for public facilities and public 
infrastructure.
    C-5. Minimum funding for Pre-Disaster Mitigation Technical 
Assistance. The Pre-Disaster Mitigation program (PDM) authorized by 
Sec. 203 of the Stafford Act is a (42 U.S.C. 5131 et seq.) a national 
competitive grants program managed by FEMA and creates a program that 
is subject to annual appropriations. After 3 years of this competition, 
it is abundantly evident that most of the successful applicants have 
received significant technical assistance to identify projects, develop 
benefit: cost analyses, and prepare the applications. Thus, many 
applicants with fewer resources, especially in states that are unable 
to meet the demand for technical assistance, are less likely to be 
competitive, despite the merits of their mitigation projects. For those 
states that have not received HMGP funding in over a decade, or two, 
PDM funding is the sole source of mitigation planning and project 
money. Additionally, PDM funding allows the flexibility for states and 
communities to address multiple natural hazards in a single project or 
planning initiative.
    The Stafford Act provides for a minimum allocation to each state 
(this provision has been overridden in previous appropriation acts 
which specifically precluded allocations; the House Homeland Security 
Appropriations bill for FY07 was amended on the House floor to strike 
language that waived the State-based allocations).
     The ASFPM urges the committee to support the provision of a 
minimum allocation to each state to build long-term State capability in 
hazard mitigation programs in order to support communities and other 
eligible recipients of mitigation funding. Further, the committee 
should clarify that a portion of those allocations may be used to 
provide technical assistance for the planning, project identification, 
and application development for the PDM grant program.
    C-6. Continue to improve administration and delivery of HMGP. Now 
that many of the Nation's high risk communities have predisaster 
mitigation plans (and a list of pre-identified mitigation projects), 
they need to have faster access to post-disaster mitigation funding 
(HMGP). It is common for decisions on applications to be made more than 
12 months after a declaration, which leaves communities and property 
owners in an uncertain environment. Especially for proposed projects 
that involve private property, an effective and timely program is 
critical to limit owner investments in repairs of properties that are 
scheduled for floodplain buyouts. Most states perform a significant 
amount of review and forward eligible applications with recommendations 
for funding. FEMA should not take several more months to perform much 
of the same work.
     The ASFPM recommends that the committee direct FEMA to continue 
to improve delivery of post-disaster mitigation programs to meet the 
needs and demands of states and communities that have demonstrated a 
commitment to mitigation by adoption of mitigation plans. It would be 
reasonable for the committee to urge that FEMA strive to approve grant 
applications within 90 days of receipt.
    C-7. Communities that refuse to participate in the National Flood 
Insurance Program should not be eligible for Public Assistance under 
the Stafford Act. Currently, if a community with an identified flood 
hazard does not participate in the NFIP and thus declines to manage 
development in areas of known flood risk, its citizens cannot purchase 
flood insurance and they are ineligible for certain individual disaster 
assistance. Ironically, the community leaders who make the decision to 
not participate in the NFIP can still apply for and receive certain 
public assistance even on facilities that are located in floodplains 
(other than public buildings). This is not good public policy--it 
rewards communities that allow at-risk development because they know 
FEMA will bail them out (with taxpayer funds). And it penalizes 
communities that do the right thing because they help pay for those who 
do nothing.
     The ASFPM recommends that the committee clarify that all public 
assistance for any damaged public buildings and infrastructure located 
in FEMA-mapped special flood hazard areas is to be withheld from 
communities that have declined to participate in the National Flood 
Insurance Program.
    C-8. Restore HMGP to 15 percent as a mitigation incentive. The 
demand for post-disaster mitigation funding always exceeds the 
available funding. Now that more communities have developed predisaster 
mitigation plans and as the success of mitigation measures throughout 
the country is highlighted, that demand will only increase. Restoring 
HMGP to the 15 percent formula (replacing the current 7.5 percent) 
would significant enhance reduction of future damage at times when 
communities and property owners are most aware of the benefits--after a 
damaging event.
     The ASFPM recommends that the formula for HMGP be restored to 15 
percent.
    C-9. Authority to increase Federal contribution for hazard 
mitigation projects. Under section 404 (42 U.S.C. 5170c), the Federal 
share of hazard mitigation projects is limited to 75 percent. Under the 
Public Assistance there are circumstances when the magnitude of a major 
disaster is so significant that the Federal contribution to repair and 
recover can be increased to 90 percent. It is appropriate that the same 
flexibility be authorized for the Hazard Mitigation Grant Program.
     The ASFPM recommends that the committee provide that when the 
cost-share for Public Assistance is changed, the same change shall 
apply to HMGP.
    the impact of fema's reorganization on the stafford act programs
    Prior to being reorganized and incorporated into the Department of 
Homeland Security in 2003, FEMA was a lean organization. Since the mid-
90s it had responded to both natural and man-made events in an 
effective manner. In fact, the ``new'' FEMA--as part of DHS--is 
untested in the area of man-made disasters such as a terrorism event. 
Why was the agency that effectively handled the Murrah Building bombing 
in Oklahoma City, the World Trade Center attack in New York City, and 
innumerable natural disasters quickly reorganized? Also between the 
mid-90s and 2003, FEMA had built excellent relationships with states 
and communities; was able to quickly respond to disasters and decide on 
policy matters regarding its programs; had a true multi-hazard focus; 
and had developed a successful track record to accomplish its mission.
    The ASFPM was concerned from the beginning that the inclusion of 
FEMA into DHS would not bode well for the progress the Nation has made 
in reducing our risk to natural hazards. Unfortunately, there has been 
mounting evidence that our concerns have been realized. FEMA has gone 
from a small, independent agency with direct access to the President to 
just one among many entities in a huge organization. The Nation has 
gone from ``mitigation'' being the cornerstone of disaster programs to 
having the word (and concept) nearly excised from the emergency 
management lexicon. Even though assurances were made that legacy 
missions of organizations would continue, terrorism was and is the 
primary focus of DHS (which ASFPM agrees is the appropriate mission for 
DHS). State and local emergency managers, especially those in areas 
prone to recurring natural hazards, are lamenting the ``loss'' of FEMA 
and are increasingly vocal about the need to restore FEMA to its 
previous state.
    The following have been and continue to be specific concerns: 
transfer of specifically-authorized FEMA and NFIP funds to support 
other DHS functions; detailing FEMA staff out of that directorate; not 
filling vacant positions throughout FEMA, including senior leadership 
positions; and extensive delays in FEMA policy decisions and guidance 
due to an added layer of DHS bureaucracy. In 2004, the ASFPM Board of 
Directors passed a resolution that FEMA should be taken out of DHS and 
reinstated as an independent agency.
     ASFPM urges the committee to work to restore FEMA as an 
independent agency with direct access to the President. Barring that, 
the committee should (1) Monitor FEMA/DHS to ensure that Disaster 
Relief Funds and NFIP funds are not spent inappropriately; and (2) 
Empower FEMA to have enough independence to carry out programs 
effectively and efficiently.
                               conclusion
    The ASFPM has been a long-time supporter of FEMA's hazard 
mitigation programs and the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act. Today, we once again stand at a crossroads--
in the aftermath of a catastrophic disaster with an opportunity to 
refine the Nation's policies for managing disasters of any magnitude. 
Thank you for the opportunity to provide our thoughts on these 
important issues. The ASFPM and its members look forward to working 
with you as we move towards a common goal of reducing the impacts from 
natural disasters.
                                 ______
                                 
 Response by Pamela Pogue to Additional Questions from Senator Jeffords
    Question 1a. Is there a role today for Federal Government in long-
term recovery of areas hit by disaster?
    Response. The role of the Federal Government in post-disaster long-
term recovery is critical. When a community is impacted by the damage 
to businesses and private property owners, in addition to public 
infrastructure, it is understandable that the rebuilding process can 
quickly become overwhelming. It is at that time that building code and 
National Flood Insurance Program (NFIP) standards should be 
implemented, yet frequently, local officials succumb to the political 
emotional turmoil immediately following the disaster event. If the 
political and emotional pressures were not enough, the other major 
challenge faced by local officials in the wake of the disaster is the 
lack of resources and staff to assist in the post-disaster and 
rebuilding process.
    FEMA plays a critical role in supporting local communities in 
implementing the NFIP minimum building standards during the recovery 
phase and supporting them in not allowing reconstruction rules to be 
waived. This also provides the best opportunity to promote mitigation 
in post-disaster recovery planning and redevelopment.
    In addition to supporting sound redevelopment practices in local 
communities after a disaster event, the FEMA role is also critical in 
coordinating efforts such as ensuring that Public Assistance funding 
used to rebuild public infrastructure work are done in a manner 
consistent with sound mitigation practices. Additionally housing that 
must be rebuilt should also implement mitigation and additional 
resources and funding can be leveraged with State Community Development 
Block Grant (CDBD) programs. FEMA staffing and expertise can lead the 
efforts in coordinating these important rebuilding efforts in order to 
ensure that a community redevelops where it is safe and sustainable.

    Question 1b. Is there existing authority for this function?
    Response. The FEMA role in post-disaster and long-term recovery is 
authorized under the auspices of the Stafford Act. Additionally, 
Congress should look into providing funding and resources to states and 
local government to allow them to hire personnel with the expertise to 
manage long-term recovery over an extended period of time necessary to 
complete all Federally-funded projects.

    Question 1c. Do you believe that any expanded role should apply to 
all disasters or be limited to catastrophic events?
    Response. Any expanded role should apply to all disasters. 
Regardless of the size of a disaster, it can generate damage that may 
have social, economic and even environmental impacts to a community 
over the long term. The disaster can continue to generate long-term 
recovery issues and projects that need top be developed, implemented 
and managed. Recognize also that each state may manage a disaster 
differently based on the governmental framework. Also understand that 
when a catastrophic event occurs, it supercedes the available state 
capacity and more than likely FEMA will be called upon to provide 
additional resources and staff to supplement state staff.

    Question 2. The report entitled, ``Natural Hazard Mitigation 
Saves'', issued in 2005, found that mitigation is most effective when 
it is carried out on a comprehensive, community-wide, long-term basis, 
as opposed to through single, unrelated projects. Can you describe your 
views on how FEMA has implemented that finding since 2005 and any 
recommendations you may have on policy or legislative changes that 
should be made to fully implement that finding?
    Response. There has not been enough time since the release of the 
National report to accurately evaluate FEMA's progress on implementing 
its findings. However, FEMA's efforts which preceded the 2005 
Mitigation Report, namely the implementation of the 2000 Disaster 
Mitigation Act certainly deserves mention. Since the implementation of 
2000 DMA, all 50 states have FEMA-approved state hazard mitigation 
plans, which identify the natural hazards that impact their state, and 
also an inventory of mitigation projects that can be funded to address 
those disasters that may impact areas within their state.
    While the federally-mandated state mitigation planning initiatives 
are very critical efforts aimed toward pre-identifying mitigation 
projects and programs, there continue to be shortfalls in getting 
mitigation funding out to states and communities to implement 
mitigation projects due to the restrictive nature of what FEMA deems to 
be an eligible mitigation project. Unfortunately, FEMA's own evolving 
body of policies and rules are making hazard mitigation projects more 
difficult to implement. New and innovative mitigation techniques such 
as demolish-rebuild (or ``Mitigation Reconstruction'') are not allowed. 
This is one of many examples that demonstrate FEMA's restrictive 
policies on changing scope of work and inflexible timeframes as items 
that cannot be funded under the Hazard Mitigation Grant Program (HMGP).
    Second, the study conclusions indicate that FEMA should do more to 
count benefits in their models for benefit-cost analysis. Expanded 
environmental benefits such as the acquisition of open space and 
preservation of habitats that may also counter negative impacts from 
storm surge and flooding are not counted at present. Many local and 
regional mitigation projects in which several different sources of 
funding have been leveraged are not funded due to the minimization of 
the value of benefits currently used in the FEMA benefit-cost analysis. 
Often this results in projects that communities have tried to submit 
for funding to address the FEMA repetitive loss structure list, but due 
to the limitations in the FEMA BCA formula these projects are deemed 
ineligible.

    Question 3a. How do you believe the administration of the 
preparedness functions of the Stafford Act have been or will be 
impacted by the division of responsibilities between the so-called 
Preparedness Directorate and FEMA?
    Response. This will result in a very severe negative impact. Over 
the last 25 years emergency management has evolved into a very critical 
and inseparable four stage cycle: preparedness, response, recovery and 
mitigation. All are interconnected and must work in concert in a 
comprehensive fashion for a community to be truly resilient to natural 
disasters or manmade events. The success of recovery can depend upon 
how well people were prepared for the event and how effectively the 
community had been implementing mitigation over the long term in order 
to minimize the damage from disasters. Even the recovery time and 
expense can be dramatically curtailed depending upon how well a 
community implemented sound mitigation projects and practices. Each 
stage in the emergency management cycle is interdependent and will 
impact the success and effectiveness of every other phase of emergency 
management.

    Question 4a. Until Hurricane Katrina, there were a very limited 
number of times during which the Congress diverted from normal 
procedures under the Stafford Act in the wake of a disaster. After 
Hurricanes Katrina and Rita, the Congress has enacted a significant 
number of legislative changes to the Stafford Act that modify the 
manner in which disaster assistance is provided, and many more 
proposals are pending. This was a catastrophic disaster worthy of 
special action, but it is unlikely to be the last of its kind, 
particularly with the changes we can expect as climate change occurs. 
What are your recommendations with regard to the potential creation of 
a ``third category'' of declaration under the Stafford Act that would 
be reserved for catastrophic events, for which special rules would 
apply?
    Response. This makes sense. Catastrophic disasters such as Katrina 
or a major earthquake in the New Madrid seismic zone require special 
planning, exercises, operations and recovery resources and expertise. 
For example, when a catastrophic event occurs, state and local 
governments need additional staffing resources for extending periods of 
time to adequately oversee long-term recovery. A non-Federal 25 percent 
match is most likely too high when a local economy is 80 to 100 percent 
destroyed or when a local state economy is severely impacted. In such 
scenarios special rules extending timeframes and perhaps even waiving 
or reducing non-Federal match would apply.

    Question 4b. What specific provisions of the Stafford Act would you 
recommend modifying is such a category?
    Response. This would take careful thought and consideration which 
might require a task force or study group of stakeholders to analyze 
this in greater detail.

    Question 5a. The Stafford Act, and the Nation's disaster response, 
is focused on preparedness and response. There is very little long-term 
recovery authority in the Stafford Act. Do you believe that there is a 
role for the Federal Government in this area that should be more 
developed?
    Response. The role of the Federal Government in long-term recovery 
is very critical. The most important role that Congress can help to 
support is to clearly articulate and provide additional authority under 
the Stafford Act for an expanded Federal role in mitigation, both pre-
disaster and especially post-disaster to further support the long-term 
recovery efforts. Long term recovery should include efforts to 
implement mitigation planning, projects and programs as a means to 
further reduce future impacts from disaster events in the area 
impacted. As the national report recently released on the costs and 
benefits of mitigation indicates, mitigation yields a 4:1 benefit-cost 
ratio on investments, and therefore needs to become an integral part of 
the recovery process. This can best be accomplished by providing clear 
authority to the Federal Government under the auspices of the Stafford 
Act.
    In addition to providing greater authority for the Federal 
Government to implement mitigation in post disaster recovery, another 
measure that Congress should pursue in addressing how to improve the 
Federal role in post disaster recovery operations is to expand the 
scope of the operations of the Emergency Management Agencies Compact 
(EMAC). Currently EMAC only addresses response operations during and 
immediately following a disaster. EMAC operations should be extended in 
time and scope. For example, EMAC should continue into the post 
disaster operations for a pre-defined window of time and related to 
recovery and reconstruction in scope. This would allow state and local 
officials severely impacted by a disaster to call on experts in other 
states to assist by supplementing state and local staffs in critical 
post disaster recovery operations such as permitting and making 
substantial damage determinations.

    Question 5b. Is there currently authority for the Federal 
Government to perform long-term recovery operations?
    Response. Yes, very limited, but needs to be improved by a more 
defined role for mitigation.

    Question 5c. Do you believe that any Federal role should be limited 
to long-term recovery from catastrophic events?
    Response. The role of the Federal Government in long-term recovery 
should not be differentiated between catastrophic and a ``regular'' 
disaster. The Federal role should be more clearly defined and 
strengthened in all post-disaster events, regardless of size for long-
term recovery operations.

    Question 6. In your opinion did the Disaster Mitigation Act of 2000 
work and what changes should be made to address what, if anything did 
not work?
    Response. As a result of DMA 2000 all 50 states have hazard 
mitigation plans and many local hazard mitigation plans are now 
Federally approved. This is significant because all of these plans, per 
the DMA 2000 planning criteria, identify natural hazards risks and 
vulnerabilities within the states and communities; describe the impact 
of potential damage estimates; outline all relevant state and local 
hazard related laws, policies and programs addressing hazard 
mitigation; and identify hazard mitigation projects to be funded to 
address the natural disaster risks and vulnerabilities that may impact 
the state and/or local community. Prior to DMA 2000, this information 
did not exist. While these plans need to be improved over time, updated 
and modified as disasters occur, it was a solid first attempt in which 
critical information now exists that will ultimately help community 
plan for and implement mitigation in order to reduce the damages from 
natural disaster events. However, communities are much more educated 
about mitigation and how their jurisdiction may be impacted by natural 
disaster and what they, as officials, can do to address those potential 
impacts.
    Yet, despite the state and local mitigation planning outcomes now 
available on a national basis, DMA 2000 has not made implementing the 
mitigation projects as now identified in the State and Local Hazard 
Mitigation Plans any easier. If anything, acquiring funding for 
mitigation project has become even more restrictive and difficult. When 
a disaster occurs, mitigation projects have now been pre-identified in 
detail through the hazard mitigation plans, therefore is should be 
easier to allocate Hazard Mitigation Grant Program (HMGP) funding to 
implement these projects. However, applying these funds has become more 
restrictive, the funding to do so has been cut by 50 percent (from 15 
percent to 7.5 percent) and the mandated benefit-cost formula which now 
has to be applied is archaic, and does not accurately reflect the costs 
or benefits of the projects. Changes need to be made to the benefit-
cost formula to accurately depict more benefits which are currently not 
being counted.
    Another change that needs attention is the disconnect between cost 
share percentages in FEMA funding programs when public facilities and 
infrastructure qualify for both PA (Public Assistance) and HMGP, This 
occurs when PA qualifies for a kick up to a 90/10 cost share and HMGP 
is left at 75/25. Authority should be provided to sync the two for the 
purposes of matching up mitigation on eligible facilities. These match 
requirements should be consistent in order to encourage mitigation when 
rebuilding expensive public facilities and infrastructure.
    Additionally, to make sure that all states receive some mitigation 
funds, the Pre-Disaster Mitigation program should allocate a portion of 
its funds each year to states for mitigation planning and community 
resilience building. Although DMA 2000 would permit this as written, 
the FEMA regulations steer the funds to the competitive grant program.

    Question 7. There is much discussion about the level of funding to 
be provided through the Hazard Mitigation Grant Program under which 
states are authorized to receive up to 15 percent of the funds to be 
provided in response to a major disaster for the purposes of hazard 
mitigation measures. In recent years, this number has been reduced to 
7.5 percent through appropriations action. Why do you believe that we 
really need to raise HMGP back to 15 percent? Does predisaster 
mitigation do a better job?
    Response. Pre-disaster and post-disaster mitigation funding should 
not be confused. There is a very significant difference between the 
two. Post-disaster mitigation occurs immediately after a disaster event 
at a time when a property owner and/or community is most likely to 
understand and therefore desire to have their property mitigated, such 
as elevated, moved and/or acquired. Funding is available and once the 
damage has occurred there is not opportunity for complacency or 
disbelief that ``it won't happen to them.'' The greatest opportunity to 
implement mitigation is immediately following a disaster. In a 
predisaster environment, not only is funding less available, but 
convincing property owners who have been repetitively flooded and that 
are in high risk areas that they need to implement mitigation measures 
is very difficult. At that period of time, conceiving that there may be 
potential damage to their property is not a high priority. Yet, in a 
post-disaster situation their world revolves around becoming ``whole 
again.'' Also understand that predisaster mitigation projects tend to 
focus on public facilities primarily because it is difficult to get 
property owners to become involved as they do not think anything will 
happen to them. Even for public facilities, it can be difficult on a 
sunny day to gain local government approval for the cost share due to 
strained local budgets.
    As significant, there are many states, such as Rhode Island (where 
I am the State Floodplain Manager) that have not had a disaster 
declaration in over 15 years and therefore have not had any HMGP 
funding available to implement mitigation projects, yet their risks are 
still extremely high. Unfortunately, mitigation programs such as FMA 
and PDM have not served these states well as the restrictions are 
severe enough that any mitigation projects that have been proposed have 
been deemed ineligible (either because of benefit-cost criteria not 
being met or because there are not enough repetitive loss properties to 
acquire FMA funding). In the case of Rhode Island, the state has been 
denied funding for FMA projects because the repetitive loss properties 
do not meet the funding criteria (again the antiquated benefit-cost 
formula), yet there is old, outdated public infrastructure that 
repeatedly gets damaged by flooding, and has a greater impact on an 
entire community as opposed to one repetitive loss homeowner, but does 
not qualify for FMA funding. Even though Rhode Island has implemented 
hazard mitigation planning concepts since the early 1990s, has a FEMA-
approved State Hazard Mitigation Plan and nearly 93 percent of its 
communities have FEMA-approved Hazard Mitigation Plans, it has received 
the least amount of mitigation funding in the country. Yet the risks, 
vulnerabilities and potential damage costs (per the FEMA HAZUS model) 
are as severe as other states and some of the largest communities in 
other areas of the country.
    It should also be mentioned that setting up a national competition 
for PDM funding is inherently unfair on smaller states that have 
minimal staffing (one person for all of mitigation and NFIP in Rhode 
Island) when competing against the gigantic staffs of HMGP richly 
funded larger states with enormous staffing capability.
    When comparing and contrasting pre- and post-disaster recovery 
funding, particularly mitigation Congress needs to keep in mind the 
financial long-term benefits of mitigation. By applying mitigation 
funding damages will be reduced from disasters. As the national report 
produced by the National Institute of Building Sciences (NIBS) reports, 
investment in mitigation returns a 4:1 benefit, 5:1 specific to 
flooding. Therefore, cutting any funding opportunities for mitigation 
will ultimately drive up the costs for Federal Disaster Relief. 
Decreasing post-disaster mitigation funding is absurd as there is no 
greater opportunity to replace a damaged structure through mitigation 
and therefore minimize future damage. Funding for predisaster is 
critical to those states that while as susceptible to disaster, have 
not yet been hit but are still trying to implement mitigation so that 
when they are impacted by a disaster damages can be minimized to the 
greatest extent possible.
    Pre-Disaster Mitigation funding would serve more people more 
effectively if a portion of PDM funds were allocated to states to 
support mitigation planning updates and to facilitate development of 
community resilience. Other agencies addressing manmade disasters are 
better equipped to address those types of concerns.
                               __________
Statement of Tamara S. Little, Chair, Legal Counsel Committee, National 
                    Emergency Management Association
    Thank you Chairman Inhofe, Ranking Member Jeffords, Senator 
Voinovich, and distinguished members of the committee for allowing me 
the opportunity to provide you with a statement for the record on the 
Stafford Act and recommendations for improving the law. I am Tammy 
Little, the Assistant Attorney General assigned to the Ohio State 
Emergency Management Agency. In my statement, I am representing the 
National Emergency Management Association (NEMA), whose members are the 
state directors of emergency management in the states, territories, and 
the District of Columbia. Currently, I am in my fifth term as the Chair 
of the NEMA Legal Counsel Committee. I have over 17 years of experience 
in emergency management, specifically in legal issues. I am also a 
certified assessor and assessor team leader for the Emergency 
Management Accreditation Program (EMAP) and a member of the EMAP 
Assessor Training Subcommittee.
                       state of the stafford act
    As the Nation continues to address the recommendations of various 
reports reviewing the preparations for, response to, and recovery from 
Hurricane Katrina, careful thought must be given to how Congress 
approaches the Stafford Act. As you know, the Robert T. Stafford 
Disaster Relief and Recovery Act was enacted ``to provide an orderly 
means of assistance by the Federal Government to State and local 
governments in carrying out their responsibilities to alleviate the 
suffering and damage from such disasters by: . . .'' revising and 
broadening the scope of disaster relief programs; encouraging 
comprehensive disaster preparedness; achieving greater coordination and 
responsiveness of disaster preparedness and relief programs; 
encouraging individuals, States, and local governments to protect 
themselves through insurance; encouraging hazard mitigation measures to 
reduce disaster losses; and providing Federal assistance programs for 
both public and private disaster losses.
    The Stafford Act is a law that the members of NEMA hold in very 
high regard. Major revisions are not necessary since the law provides 
flexibility for emergency management in this country. NEMA played a 
very active role during the last major rewrite of the Act, which 
resulted in the Disaster Mitigation Act of 2000 (DMA2K). NEMA's members 
implement various Stafford Act provisions routinely within their states 
and often serve as their Governor's state coordinating officer as 
outlined in section 302 of the Act. State emergency management 
directors are responsible for carrying out the preparedness, 
mitigation, response, and recovery functions outlined in the Act at the 
state level and coordinating those functions with their Federal and 
local counterparts.
    NEMA does not support creating a separate or new system solely to 
address catastrophic disasters. Not only is the Stafford Act nimble 
enough to handle disasters on a large and small scale, but Congress can 
and has utilized its ability to make temporary changes to the law 
particular circumstances warrant. Any revisions to the Stafford Act 
must be thoughtful, deliberate, and closely vetted through stakeholder 
groups with proximity to the outcomes, such as NEMA and the members of 
the Stafford Act Coalition. NEMA's members firmly believe that the 
Stafford Act has served state and local governments well and that the 
most persistent problems exist because of inconsistent application of 
the Act and its accompanying regulations. Policies, guidelines, course 
materials, and most recently strategies are issued without 
coordination, a good statutory or regulatory foundation or 
Congressional oversight. While the Stafford Act is flexible and 
scalable, it is still the authority for emergency management in the 
Nation.
    For many years, NEMA has provided leadership of a coalition of over 
15 national associations that serves to share information on the 
Stafford Act and to protect the act from major revision without input 
from those stakeholders. The Coalition agrees on a few basic points: 
Pre-Disaster Mitigation (PDM) should be fully funded and continually 
authorized; the Post-Disaster Hazard Mitigation Grant Program (HMGP) 
formula should be restored to 15 percent of disaster costs; and the 
Repair Cap for Individual Assistance must be increased.
                    mitigation and the stafford act
    When DMA2K was signed into law, the intent was to create a Pre-
Disaster Mitigation Program; create an Interagency Task Force on Pre-
Disaster Mitigation; set criteria for an increased Federal share for 
hazard mitigation measures and allow states to administer the program 
directly; define management costs eligibility; outline assistance for 
repair of structures; and update the individual assistance program. 
Congress made the changes at that time to address a growing need for 
mitigation assistance before disasters occur and to make refinements to 
disaster programs that would result in cost-savings for the Federal 
Government after disasters.
    While the legislation took a strong mitigation focus, one example 
of how the Stafford Act has been side-stepped is to examine how the 
state of mitigation in our country has changed over the last 6 years. 
Amendments to law that occurred during the appropriations process 
reduced the formula for the post-disaster HMGP program from 15 percent 
of disaster costs to 7.5 percent. In effect, mitigation opportunities 
were cut by 50 percent since FY 2004. What was intended to be a program 
that helped to fund every state's predisaster mitigation efforts, has 
now become a competitive program which favors communities with greater 
ability to dedicate financial resources to grant applications, 
engineering, and preservation reviews before a grant application is 
even considered. On a policy front, mitigation has been marginalized. 
When the Department of Homeland Security was formed and terrorism 
became a greater focus, mitigation activities received less focus. 
Mitigation was initially deleted from early drafts of the National 
Response Plan and has even less focus in the most recent revisions. The 
lifecycle of emergency management (preparedness, response, recovery, 
mitigation) was broken when preparedness was moved from FEMA to create 
a new Preparedness Directorate within DHS in 2005.
    There is some good news that came out of DMA2K. Every single state 
and many local governments now have plans in place to pre-identify 
mitigation priorities prior to disasters and have identified which 
measures may be put in place through PDM and HMGP if a Federal 
financial assistance is made available. Additionally, some states took 
on greater responsibility of writing and obtaining approval of 
``enhanced mitigation plans'' that enable states to be eligible for up 
to 20 percent of disaster costs for post-disaster HMGP by acting in a 
managing state role for mitigation grants. Currently, seven states have 
been approved for enhanced plans (two are pending Federal review), but 
no state has received 20 percent for HMGP post-disaster to date. Ohio 
had its enhanced mitigation plan approved in May 2005.
    As new changes are being considered to the Stafford Act, NEMA asks 
that the Senate pay particular attention to ensuring mitigation 
opportunities are increased by fully funding the programs and allowing 
the important changes made in DMA2K to have the intended effect_
reduction of disaster costs to the Federal Government.
                          administrative costs
    A critical issue facing states regarding the Stafford Act right now 
has less to do with Stafford Act revisions than with proper reading and 
interpretation of the current law. Even prior to Hurricane Katrina, 
accepted uses for the administrative allowance provided by section 406, 
such as personnel, overtime, and travel for states related to the 
administration of disaster assistance grant programs have been 
questioned and rejected. The administrative allowance and management 
costs for state and local governments are vital to the success of these 
disaster grant programs and are clearly set forth in the law. This is a 
significant problem for states in recent disasters and must be 
resolved. FEMA should follow the plain language of the statute and 
regulations.
    Congress created a mechanism under the Stafford Act to compensate 
grantees and sub grantees involved in the Hazard Mitigation and Public 
Assistance Grant Programs for the administrative expenses they incurred 
related to the assistance programs. That mechanism is found in  
406(f)(1) and (f)(2), of the Act, which provides a grant equal to the 
flat percentage of the final eligible costs as defined under the Act. 
FEMA regulations directly relating to  406(f)(1) and (f)(2) mirror 
the Act and do not impose any restrictions upon the use of those funds. 
The supplemental regulations, 44 CFR  206.228 and 206.439, state that 
the funds provided to the State or the sub grantees for their 
administrative costs are, in fact, correctly referred to as an 
allowance. Several memoranda, audit reports, and draft policies have 
resulted in FEMA's current policy that the statutory administrative 
allowance provided to the states can only be used for the three items 
identified in the Stafford Act even though they are presented as 
examples. This is simply an incorrect reading of the plain language of 
the statute and regulation. Federal statutes cannot be changed by 
policies, memoranda or audit reports and Congressional oversight is 
necessary to remedy this practice by FEMA.
                      suggested changes to the law
    As the Congress examines changes necessary to the Stafford Act, 
NEMA has several areas identified for immediate improvement.
1. HMGP
    The fiscal year 2003 appropriations omnibus package included 
language to change the formula for HMGP from 15 percent of disaster 
costs, to 7.5 percent, which has caused degradation of post-disaster 
mitigation opportunities. Reducing by half the available funding 
through the disaster relief fund prevents lessons learned from 
disasters from being immediately incorporated into mitigation projects 
to prevent future losses of life and destruction of property. HMGP 
grants are used for such things as rebuilding under more current 
building codes, purchasing repetitive loss properties, and for other 
projects that will prevent or minimize the impacts of the next 
disaster. Mitigation lessons are particularly important to the Gulf 
Coast as rebuilding begins. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs and the recently 
released independent study from the National Institute of Building 
Sciences' Multi-Hazard Mitigation Council concludes that for every 
dollar invested in mitigation, four dollars of Federal benefits accrue_
clearly demonstrating that mitigation funds are a sound investment. In 
a purely competitive grant program, lower income communities, often 
those most at risk when a natural disaster strikes, will not 
effectively compete with more prosperous communities. Also, disasters 
graphically and vividly expose the need for and value of mitigation 
projects. Less funding means that not only do disaster victims have a 
harder time recovering economically and socially, but they remain 
vulnerable to future disasters. We must not lose future opportunities 
to initiate projects to enhance our communities and reduce future 
disaster costs. There are not enough mitigation dollars available to 
address all of the vulnerabilities that exist in this country, but the 
post-disaster HMGP should at least be restored to the 15 percent of 
disaster costs prescribed by DMA2K, allowing more communities to 
participate in important disaster cost reduction projects. That was the 
original intent of the Stafford Act, as amended by DMA2K.
2. Fixing the Cap on Disaster Costs
    A reduction to the Repair Cap for Individual Assistance was 
erroneously included in DMA2K and has since adversely impacted many 
disaster victims. The limitation prevents disaster victims from 
returning to their homes when repair costs exceed the allowable costs, 
until other funds can be used to make adequate repairs to make the home 
inhabitable. NEMA supports a technical amendment to DMA2K included in 
the House passed version of H.R. 3181 from the 108th Congress that 
would address the $5,000 cap on disaster repair or replacement for 
Individual Assistance. FEMA supports making a change to raise the cap 
to the previously accepted amount of $15,000 for repair or replacement 
assistance adjusted for inflation to over $27,000.
    Rental assistance should be paid up to a maximum of 18 months at 
fair market value, with the ability to extend when deemed necessary by 
the FEMA Director. The provision change would allow for significant 
cost savings by keeping families out of federally provided housing 
while repairs are made to minimally damaged homes.
3. Regular-time and Over-time Issues Related to Disasters
    State and local governments need to have the ability to utilize 
Federal assistance to keep state and local personnel working after a 
disaster. Changes to legislation (44 CFR 206.228 (a)(4)) must clarify 
that regular time and overtime costs can be paid for vital emergency 
and disaster support functions through general Federal assistance. In 
cases of catastrophic disaster, where entities have no further income 
source, this is particularly important to enable local governments to 
continue operations related to response and recovery. Also, there are 
cost benefits to having local or state officials trained in building 
inspections, health and safety inspections, debris removal, and other 
fields to respond during disaster response operations.
4. Pre-positioning of Resources Must be an Eligible Expense for all 
        Emergency Management Programs and Grants
    State and local governments must be able to utilize funds from 
emergency management grants such as the Fire Management Assistance 
Grants (FMAG) and others to pre-position, purchase and stage supplies, 
resources, and equipment prior to a disaster when warning is given. 
Having the supplies on the ground reduces response times and costs 
after the disaster occurs.
5. Reinstate the Mortgage Rental Assistance Program
    The Mortgage and Rental Assistance Program was eliminated in the 
DMA2K. Despite its elimination from the Stafford Act, Congress 
authorized the program for recent catastrophic disasters such as the 
September 11, 2001 terrorist attacks and Hurricane Katrina. The program 
allows for disaster victims to receive Federal assistance to pay for 
mortgage and rental costs when displaced from their homes in a major 
disaster. The program should be permanently reinstated and allowed to 
be used for future disasters as it helps when a disaster causes 
widespread unemployment but housing stock is maintained. Mortgage 
rental assistance is critical for community resilience.
6. Declaration Process
    NEMA members report that the disaster declaration process has been 
slower in some cases since FEMA became a part of DHS. Congress should 
not make changes to the law that will slow the process down, but rather 
look at ways to ensure disaster declarations may be considered as 
expeditiously as possible. Other provisions need clarification too. The 
Stafford Act defines the role of the Federal Coordinating Officer and 
the law must be followed by DHS. The PFO concept being implemented by 
DHS is not authorized in law. Additionally, while the declaration 
process is being considered, Congress may wish to consider revising the 
definition of ``major disaster'' to address a biological or chemical 
terrorism event or even a pandemic influenza outbreak since those 
incidents may not be considered under the current definition.
7. Mass Evacuation
    The Stafford Act does not provide for cost reimbursement for states 
and localities outside the declared disaster area. While handled during 
Hurricane Katrina with individual state emergency declarations for 
states taking in evacuees, the need for mass evacuations into other 
cities, counties and states will continue to be necessary in 
catastrophic events. Further, the new FEMA Interim Recovery Policy will 
allow states to seek reimbursement for expenses, through mutual aid. 
This process must be addressed by legislation to make clear that 
emergency declarations should be made by FEMA, as the change to policy 
will mean an additional burden on assisting states and may cause some 
states to reconsider participation in mutual aid missions.
8. Post-Storm Assessments
    Post-storm assessments are vital data collection tools used to 
capture perishable hurricane related intelligence such as evacuation 
survey data, decision tools, shelter issues, and hazards vulnerability. 
A formalized funding process with consistent funding sources for 
assessments must be identified. Currently, FEMA is pursuing this 
information on an ad-hoc basis and allowing FEMA to utilize the 
Disaster Relief Fund is an authorized use in the Stafford Act. However, 
legislative changes may be needed to encourage FEMA to take advantage 
of these opportunities to learn from disasters and improve 
preparedness, response, recovery and mitigation with solid data.
               stafford act regulatory and policy changes
    NEMA has specifically looked at some Stafford Act related issues 
that do not require changes to the law. Significant need exists for 
streamlining and simplifying national policy decisions on response and 
recovery. These policy decisions must be made by educated and 
enlightened Federal experts in a timely manner during the response and 
recovery phases and such expertise needs to be built and maintained at 
the Federal level in support of the state and local activities for 
recovery.
    Some of the changes that must occur on the regulatory and policy 
levels by FEMA include:
     Uniform, systematic, written, guidance in a clear, timely and 
meaningful manner that does not vary from region to region;
     Timely notice and training to field personnel and state officials 
on new or updated guidance and policies;
     A process to approve state management costs within 60 days of a 
request;
     Clear concise guidance on submission content and evaluation 
criteria specific to state management costs;
     Administering the Other Needs Assistance Program to address 
ethnic and cultural diversity issues in accordance with the approved 
state plan for Other Needs Assistance; and
      Utilizing the State Disaster Mental Health plans as the basis 
for approving the immediate services grant.
                             debris removal
    The committee specifically asked for the witnesses today to address 
debris removal issues. Hurricane Katrina resulted in numerous disaster 
specific changes in policy for debris removal. Historically, debris 
removal is the single issue in a major disaster that creates the most 
problems and also opportunities for abuse. You will recall the issue of 
the concrete slab removal in Oklahoma that initiated some of the 
changes in DMA2K, yet the Gulf Coast states are still struggling with 
these issues. In fact, FEMA is releasing new debris removal this week 
as part of larger policy guidance on what will be and what will not be 
covered in the future.
    Our current debris removal reimbursement system is outdated and 
provides little incentives for state and local governments to take over 
the management of debris removal. The choices are to use the U.S. Army 
Corps of Engineers at their prices at up to 100 percent Federal 
reimbursement or to have to pay a 25 percent cost share if state and 
local governments want to take over the management of the project. Most 
state and local governments can utilize public works systems in place 
and mutual aid to get the job done--often cheaper than the Corps. 
However, there is no incentive. Thought needs to be given to lowering 
the state and local cost share for debris removal if the impacted 
communities are willing to take on these tasks themselves. 
Additionally, some local governments managing the process in the Gulf 
Coast have reported the desire to recycle materials removed, yet the 
Federal Government gets any financial credit for such actions instead 
of the state or local government completing the work.
    Careful thought must be given to the issue of debris removal on 
private property in emergency situations. Community and homeowners 
associations properties are not always afforded Category assistance in 
the early days of an emergency and this assistance varies by disaster 
and location. In these cases, the associations often maintain the 
streets and roadways on the private property. Debris removal on private 
property bubbled up again in the 2004 Hurricane season in Florida and 
Alabama as the response began in the emergency phase.
    We must find some common ground and develop policies that remove 
the obstacles that prevent us from accomplishing debris removal goals 
and objectives without compromising the integrity of the program and 
provide acceptable levels of accountability.
                               conclusion
    With the Nation poised to implement reforms to make our emergency 
response system stronger, improvements are needed in our disaster laws. 
I offer NEMA to the committee as a technical resource as you develop 
legislation and debate the issues mentioned before you today. I thank 
you for the opportunity to testify on behalf of NEMA and appreciate 
your partnership. I hope we can work together to ensure the Stafford 
Act is strengthened and protected.
                                 ______
                                 
        Responses by Tamara Little to Additional Questions from 
                            Senator Jeffords
    Question 1. During the hearing, in response to my question 
regarding any changes to the Stafford Act that might be required to 
ensure that the Federal Government has the appropriate authorities to 
respond to all types of events, including biological agents, weapons of 
mass destruction, or epidemics in a coordinated, planned manner, given 
the definitions of emergency and major disaster in the Act, you 
indicated that NEMA does not believe that any modifications are 
required. Given that major disaster declarations are limited to natural 
disasters or ``fire, flood, or explosion, regardless of cause'', please 
describe under what legislative authority you believe the Federal 
Government would respond to a terrorist event that involved the release 
of an airborne agent without the use of an explosive device.
    Response. Since the hearing, our Legislative Committee has looked 
closely at the definition of major disaster and we believe that the 
definition should be modified to include act of terrorism and chemical 
or biological event. However, the Public Health Emergencies Act should 
also be triggered in any event impacting health, as the Stafford Act 
does not address some of the public health tools that will need to be 
put in place after such an event.

    Question 2. What are your recommendations with regard to the 
potential creation of a ``third category'' of declaration under the 
Stafford Act that would be reserved for catastrophic events, for which 
special rules would apply?
    Response. NEMA does not support creating a separate category for 
catastrophic events. A clear definition of catastrophe must be 
developed by Federal, State, and local practitioners before any 
legislation can be written, because otherwise every event will result 
in impacted states seeking a catastrophic declaration.

    Question 3. Do you believe that there is a role today for the 
Federal Government in long-term recovery of areas hit by disaster, 
whether there is an existing authority for this function, and whether 
you believe that any expanded role should should apply to all disasters 
or be limited to catastrophic events?
    Response. There is definitely a role for the Federal Government in 
long-term recovery especially with major catastrophic disasters like 
Hurricane Katrina or Hurricane Andrew, the 9/11 terrorist attacks, the 
North Ridge and Loma Prieta earthquakes. FEMA has statutory authority 
for assistance with recovery work, but in these cases other Federal 
agencies like Housing and Urban Development, Labor, and others will 
have to play a role. FEMA's role in mitigation and looking at how to 
rebuild to mitigate future disasters must be continued. States should 
have the lead though. Congress has the ability to broaden this 
authority for these catastrophic events, but this should not apply to 
each and every disaster.

    Question 4. The report entitled, ``Natural Hazard Mitigation 
Saves'', issues in 2005 found that mitigation is most effective when it 
is carried out on a comprehensive, community-wide, long-term basis, as 
opposed to through single, unrelated projects. Can you describe your 
views on how FEMA had implemented that finding since 2005 and any 
recommendations you may have on policy or legislative changes that 
should be made to fully implement that finding?
    Response. NEMA supports the 2005 report and the cost-benefit ratios 
produced in the report for mitigation. FEMA has yet to implement that 
finding and they are currently working with State hazard mitigation 
officers to develop guidance for a unified hazard mitigation grants 
system that will address the comprehensive approach. At this point, we 
are working closely with FEMA. The only policy change that must be 
considered is a way to make eligible at the front end of the grant-
making process the administrative costs for technical reviews, 
engineering reviews, and historical preservation that are currently 
outlayed in order for an application to be considered.

    Question 5. Has the administration of preparedness functions of the 
Stafford Act been impacted by the division of responsibilities between 
the so-called Preparedness Directorate and FEMA? Do you believe it will 
be impacted in the future?
    Response. FEMA currently retains the Stafford Act authorities in 
law. While NEMA remains concerned that preparedness functions have been 
separated from response and recovery functions, the larger issue is how 
the Stafford Act is administered in a larger department where 
additional layers of bureaucracy can slow down disaster declarations, 
policy and other changes to the Stafford Act. The FEMA Director, as the 
key Stafford Act administrator, must have the ability to work directly 
with the President during times of disaster to prevent these delays.

    Question 6. Some believe that the use of pre-existing debris 
removal contracts at either the local, State, or Federal level could 
speed debris clean-up post-disaster. Please describe any experience 
that states have had using pre-existing debris contracts and whether 
they have expedited clean-up at a lower cost.
    Response. The NEMA President from Alabama reports that most Gulf 
Coast states are utilizing this approach in the current year, though 
fortunately the contracts have not had to been exercised because of the 
lack of storms.

    Question 7. Do you believe that there should be an enhanced role in 
major disasters of in catastrophic events for debris clean-up that 
creates an authority for the Federal Government to conduct clean-up 
without the request of a State or local government?
    Response. Under no circumstances, does NEMA believe the Federal 
Government should have the right to take away the authority of State 
and local governments to request assistance on their own or control the 
state's own response and recovery operations. Federal assistance should 
be just that_Federal assistance.

    Question 8a. Until Hurricane Katrina, there were a very limited 
number of times during which the Congress diverted from normal 
procedures under the Stafford Act in the wake of a disaster. After 
Hurricanes Katrina and Rita, the Congress has enacted a significant 
number of legislative changes to the Stafford Act that modify the 
manner in which disaster assistance is provided, and many more 
proposals are pending. This was a catastrophic disaster worthy of 
speciation action, but it is likely to be the last of its kind, 
particularly with the changes we can expect as climate change occurs.
    What are your recommendations with regard to the potential creation 
of a ``third category of declaration'' under the Stafford Act that 
would be reserved for catastrophic events, for which special rules 
would apply?

    Response. NEMA does not support creating a separate category for 
catastrophic events at this time. A clear definition of catastrophe 
must be developed by Federal, State, and local practitioners before any 
legislation can be written, because otherwise every event will result 
in impacted states seeking a catastrophic declaration. Congress has the 
ability to make changes to the Stafford Act based on individual needs 
for each disaster.

    Question 8b. What specific provisions of the Stafford Act would you 
recommend modifying in such a category?
    Response. NEMA strongly recommends addressing the repair and 
replacement cap and updating the cap to address the current need. NEMA 
also calls on Congress to restore the 15 percent formula for post-
disaster Hazard Mitigation Grant Program for all states.

    Question 9. Section 603 of the Stafford Act specifies that 
preparedness functions shall be carried out by the Director of FEMA. 
Section 430 of the Homeland Security Act specifies preparedness 
authorities for the Office of Domestic Preparedness within DHS dealing 
with terrorism. DHS has apparently transferred preparedness functions 
away from FEMA, which appears to conflict with the statutory 
requirement in section 603 and to exceed the authorities granted under 
the Homeland Security Act. Please explain.
    Response. You are correct, both FEMA and ODP (or the Office of 
Grants and Training now) have statutory authority. However, DHS 
submitted a plan to Congress last summer as the Second Stage Review for 
DHS that created a Preparedness Directorate and moved the preparedness 
functions away from FEMA. Congress agreed with those changes in the FY 
2006 Homeland Security Appropriations bill and the new plan was shortly 
implemented. A key emergency management official, George Foresman, was 
appointed as the Preparedness Under Secretary and he is making strides 
to link preparedness with response and recovery within DHS, however we 
are watching this issue carefully.

    Question 10. Title VI of the Stafford Act authorizes FEMA to assist 
states in negotiated interstate emergency preparedness compacts. Who is 
responsible for this function, section 611 (h) of the Stafford Act, 
under the new organization, and what actions have been taken in the 
Gulf States to improve the utilization of mutual aid compacts?
    Response. We are currently working with both FEMA and the 
Preparedness Directorate, since the issue could impact natural 
disasters or other disasters. For Hurricane Katrina and Rita, the 
Emergency Management Assistance Compact (EMAC) has fulfilled over 2174 
missions with 49 states, the District of Columbia, the U.S. Virgin 
Islands and Puerto Rico providing assistance in the form of 65,919 
civilian and military personnel and equipment assets to support the 
impacted states. The estimated costs of this assistance may exceed $829 
million. EMAC is currently completing an After-Action report on state-
to-state mutual aid and we will be happy to share those results with 
you once the report is final. In the meantime, NEMA formed an Advisory 
Group of a variety of State and local emergency response associations 
and State and local governments to explore some of the issues that need 
attention, such as sharing information on the EMAC system with elected 
officials and emergency response disciplines.

    Question 11. In your opinion, did the Disaster Mitigation Act of 
2000 work and what changes should be made to address, what if anything 
did not work?
    Response. Overall, every State now has a comprehensive mitigation 
plan on the books and many local governments also did. However, the 
change in HMGP that followed DMA2K changed the approach to mitigation 
splitting the difference, rather than looking at enhancing all 
mitigation opportunities. NEMA strongly recommends addressing the 
repair and replacement cap and updating the cap to address the current 
need. NEMA also calls on Congress to restore the 15 percent formula for 
post-disaster Hazard Mitigation Grant Program for all states.

    Question 12. There is much discussion about the level of funding to 
be provided through the Hazard Mitigation Grant Program (HMGP) under 
which states are authorized to receive up to 15 percent of the funds to 
be provided in response to a major disaster for the purposes of hazard 
mitigation measures. In recent years, this number has been reduced to 
7.5 percent through the appropriations action. Why do you believe that 
we really need to raise HMGP back to 15 percent? Does predisaster 
mitigation do a better job.
    Response. Effective mitigation requires a balanced and 
comprehensive approach. Predisaster mitigation has been doing a good 
job of providing mitigation opportunities to communities that have not 
experienced disasters. The program is based in prevention activities. 
However, the program is slanted to give more opportunities to larger 
more wealthy communities and states, because so many administrative 
costs are required on the front end of the application process. 
However, we strongly believe that post-disaster opportunities are being 
lost because of the formula cut to HMGP. A 100-year flood or storm like 
Hurricane Katrina provides unique mitigation opportunities to take the 
lessons learned and apply them when rebuilding. It is also easier to 
get community buy-in after a major disaster for the program, since 
there is a cost-share. In the long-term mitigation saves in disaster 
costs outlayed by the Federal Government.

    Question 13. Can you give me a sense of how mitigation is working 
in this country right now and how it can be improved? What specific 
changes can Congress make to put mitigation on the right track?
    Response. FEMA is looking at a unified mitigation grants system, 
which will be a great opportunity to look at mitigation holistically. 
Continued Congressional oversight to ensure State and local input into 
policy changes is helpful, but NEMA also calls on Congress to restore 
the 15 percent formula for post-disaster Hazard Mitigation Grant 
Program for all states.

    Note: Questions 14 and 15 are duplicate questions for 4 and 9, 
respectively.
                                 ______
                                 
Responses by Tamara Little to Additional Questions from Senator Clinton
    Question 1. Some questions have been raised regarding contracting 
procedures at both local and Federal levels. Some believe that pre-
existing debris removal contracts reduce overall disaster clean-up 
costs and speed the pace of removal. On September 15, 2005, the Army 
Corps awarded four fixed price contracts for debris removal in the 
areas affected by Hurricane Katrina. Each of these contracts has a 
value of up to $500 million each, with the option of an additional $500 
million. Each contract requires the contractor to submit a 
subcontracting plan with the goal of including the following 
participation: 73.5 percent for small business, 3 percent for Service-
disabled veterans, 3.2 percent for Small HUB-Zone concerns, 10.6 
percent for Small Disadvantaged business, and 11 percent for Small 
Women-owned business. The Corps issues an open announcement for these 
contracts through the Army Corps of Engineers, Memphis Web site. The 
Corps shortened the time available to respond to the announcement in 
light of the urgent need for debris removal services; however despite 
the shortened time period, the Corp received 22 proposals.
    Do you believe that there should be an enhanced role in major 
disasters or in catastrophic events for debris clean-up that creates an 
authority for the for the Federal Government to conduct debris clean-up 
without the request of a local government?
    Response. Under no circumstances, NEMA believes the Federal 
Government should have the right to take away the authority of State 
and local governments to request assistance on their own or control the 
state's own response and recovery operations. Federal assistance should 
be just that--Federal assistance that works cooperatively with State 
and local governments at their request.

    Question 2. Some believe that the use of pre-existing debris 
removal contracts at either the local, State, or Federal level could 
speed debris clean-up post-disaster. Please describe any experience 
that states have had in using pre-existing debris contracts and whether 
they have expedited clean-up at a lower cost?
    Response. I cannot speak from my experience in Ohio on this issue, 
however, the NEMA President from Alabama reports that most Gulf Coast 
states are utilizing this approach in the current year, though 
fortunately the contracts have not had to been exercised because of the 
lack of storms. Bruce Baughman of Alabama reports that most State and 
local governments are capable of doing and managing some of the work 
themselves, however there is a larger cost-share and a disincentive to 
doing that work. State and local governments would rather retain 
control of the process in some cases though.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
